<html>
<title> - THE ``CARNIVORE'' CONTROVERSY: ELECTRONIC SURVEILLANCE AND PRIVACY IN THE DIGITAL AGE</title>
<body><pre>[Senate Hearing 106-1057]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1057

 THE ``CARNIVORE'' CONTROVERSY: ELECTRONIC SURVEILLANCE AND PRIVACY IN 
                            THE DIGITAL AGE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 6, 2000

                               __________

                          Serial No. J-106-105

                               __________

         Printed for the use of the Committee on the Judiciary


                   U.S. GOVERNMENT PRINTING OFFICE
74-729                     WASHINGTON : 2001


----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3

                               WITNESSES

Cerf, Vinton G., Internet Trustee, Internet Society, Reston, VA..    29
Dempsey, James X., Senior Staff Counsel, Center for Democracy and 
  Technology, Washington, DC.....................................    42
Di Gregory, Kevin V., Deputy Assistant Attorney General, Criminal 
  Division, U.S. Department of Justice, Washington, DC; 
  accompanied by Martha Stansell-Gamm, Chief, Computer Crimes and 
  Intellectual Property Section, U.S. Department of Justice, 
  Washington, DC.................................................    21
Kerr, Donald M., Assistant Director, Federal Bureau of 
  Investigation, Washington, DC; accompanied by Larry R. 
  Parkinson, General Counsel, Federal Bureau of Investigation, 
  Washington, DC.................................................     9
O'Neill, Michael, Assistant Professor of Law, George Mason 
  University Law School, Fairfax, VA.............................    36
Rosen, Jeffrey, Associate Professor of Law, George Washington 
  University Law School, Washington, DC..........................    62

                         QUESTIONS AND ANSWERS

Responses of Donald M. Kerr to Questions from:
    Senator Hatch................................................    81
    Senator Thurmond.............................................    83
    Senator Leahy................................................    87

 
 THE ``CARNIVORE'' CONTROVERSY: ELECTRONIC SURVEILLANCE AND PRIVACY IN 
                            THE DIGITAL AGE

                              ----------                              


                      WEDNESDAY, SEPTEMBER 6, 2000

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, (chairman of the committee) presiding.
    Also present: Senators Specter and Leahy.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    The Chairman. We are happy to welcome all of you out to 
today's hearing. The purpose of our hearing today is to examine 
the effect that new surveillance technologies, such as the 
FBI's now too famous Carnivore, is having on the important 
public policy balance between personal privacy rights and law 
enforcement in the digital age.
    That the context of this hearing is important goes without 
saying. The Internet is rapidly becoming a dominant means by 
which Americans transact business, receive news and 
information, communicate with their families, and even have 
fun. A recent report states that over 40 million Americans are 
currently using the Internet, and that the rate of increase is 
nearly 55,000 new users every day. Over three million Web pages 
were created every day in 1999.
    Clearly, the Internet is becoming a pervasive feature of 
daily life, and the technology on the horizon promises to make 
it even more so. Additionally, the Internet's ability to allow 
anyone, regardless of wealth or status or political clout, to 
share opinions with the world, makes it the ultimate first 
amendment-enabling technology.
    But as with many great technological developments and 
achievements, the Internet's greatest strength is also its most 
vulnerable weakness. The huge amounts of data speeding through 
the Internet, including phone numbers, addresses, credit card 
numbers and bank account information, have facilitated an 
online crime wave. And the same ease of use that has motivated 
so many people to rely on the Internet has also given rise to a 
new breed of swindlers, vandals and terrorists who are short-
circuiting the Internet's benefits by waging denial of service 
attacks, or who are turning the Internet into a weapon by 
spreading computer viruses.
    Only last week, a 24-year-old California man was charged 
with securities fraud after a fake news release posted on a 
Website claimed that the Emulex Company had lost its CEO and 
would restate its last quarter's earnings to show a loss 
instead of a profit. The hoax caused a $2 billion loss in the 
value of this company.
    Unfortunately, this is only one of the myriad types of 
crime committed via the Internet. The use of e-mail has been a 
boon to criminals engaged in spreading child pornography, 
coordinating illegal drug rings, stealing intellectual 
property, and much more. America's Internet users are 
legitimately concerned that surfing the Internet is like 
walking in a big city at night: the enjoyment is tempered by a 
fear of what is lurking unnoticed in the dark alleys. Even 
short of illegal activity, Americans are concerned about the 
ability of businesses and other Web site hosts to collect and 
share personal information, and to track individuals' 
interests, purchases, and other data.
    On the other side of the debate is an equally important 
concern that the Government should not intrude unduly into 
commerce and personal lives. Unlike many other governments in 
the world, the United States does not permit its law 
enforcement agencies easy access to phone lines, the mail, and 
other sources of private information.
    The computer geniuses who are innovating with new 
technology and creating e-commerce companies are understandably 
wary of opening up their hard drives and servers to government 
data traffic control. And individuals who use the Internet for 
personal communications, purchases and hobbies are justifiably 
reluctant to allow an ``Orwellian Big Brother'' to monitor 
which Web sites they visit or what messages they send through 
cyberspace.
    In short, America's Internet users want a balanced approach 
to Internet integrity that guarantees protection of personal 
privacy, but that allows limited and constitutionally-
sanctioned access to law enforcement when necessary for the 
protection of law-abiding citizens.
    Some believe these goals are in hopeless conflict. I 
personally do not. I firmly believe that properly calibrated 
laws can simultaneously protect the Internet from criminals and 
terrorists, respect the privacy interests of all Americans, and 
allow the Internet to flourish free from burdensome regulation. 
In fact, I recently introduced a bill, the Internet Integrity 
and Critical Infrastructure Protection Act of 2000, that 
strives to do that in certain circumstances.
    Although no law could prevent bad actors from misusing the 
Internet, my bill will provide much needed resources and 
investigative tools to law enforcement and will update our 
computer abuse laws to help deter and prevent such activities.
    So it is within the context of this debate that we are 
holding today's hearing to examine the constitutional and 
policy implications of new surveillance technologies, in 
general, and the FBI's Carnivore system in particular. I hope 
we get a better understanding of what Carnivore is and how it 
operates today. As I understand it, it permits law enforcement 
agencies to gather specific electronic-mail information, 
presumably circumscribed by court order, relevant to the 
commission of a crime.
    There has been a lot of controversy surrounding this 
system, perhaps justified, perhaps not. Much of the controversy 
and confusion is due to differences in opinion on the degree of 
protection against improper searches by the Government that the 
fourth amendment of our Constitution provides each citizen, and 
whether current laws--which were written before the Internet 
became the revolutionary force in communications that it has 
become--need updating in this new digital age. It is this 
constitutional challenge created by technological advancement 
that we are here to examine today.
    Now, before we hear from today's witnesses, I want to note 
that the technical questions about Carnivore are to be 
addressed by a DOJ-commissioned independent technical review. 
These technical questions include whether the Carnivore system 
could interfere with the proper functioning of Internet service 
providers, whether the system might provide investigators with 
more information than is authorized by a court order, or 
whether the system's capabilities could give rise to a risk of 
misuse, leading to improper invasions of privacy. I think this 
is a very important study which likely will affect some of our 
policy decisions, and we will examine the report's findings 
once it is conducted in a future hearing.
    With that background, I will introduce our distinguished 
witnesses as soon as the ranking member makes his comments.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. We talk about ISP's 
and URL's and all this new language of the Internet age that 
Mr. Cerf and others gave us. And I thank you most of the time, 
Mr. Cerf. There are days when connections are slow when I 
don't, but that is not your fault.
    What we are doing here actually is carrying on a 200-year 
conversation about how we assure the rights of the American 
people, the rights of all of you, the rights of me and the 
chairman and everybody else to be secure in their persons, in 
their houses, in their papers, and their effects, secure 
against unreasonable searches and seizures. That obviously goes 
back to the Constitution's Fourth Amendment.
    Back at the time of the Framers, you gained access to a 
person's private effects by being there. You were going to find 
out what was in somebody's desk drawer by walking in the house 
and opening the desk. You were going to find out what papers 
they had in their inside pocket by searching them and searching 
their inside pocket. It is a lot different today. You can be a 
mile away or 10,000 miles away and search information about 
most families, certainly those who have computers and are on 
the Net.
    This is really the concern that I have. On the one hand, I 
ask the question, are we dealing with a legitimate surveillance 
tool in a cyber age when we know that criminals can move 
billions of dollars electronically; when terrorists can plan 
damage from a point on another continent to a residence or a 
warehouse in the United States; when a kidnaper can deal with 
somebody in a different State, or where a child abuser can seek 
out a victim hundreds of miles away. But on the other hand, is 
this surveillance something that goes way beyond what we the 
American people want?
    It is legitimate to ask the FBI, which has come up with 
this unfortunately named device--and I suspect nobody has 
claimed credit as the author of the name, but we should not 
allow ourselves to be distracted simply by the name. Call it 
anything you want. The question we have to ask, and 
legitimately, is has the FBI given themselves a tool which 
allows them to go way beyond what the American people would 
allow, what the stated mandate of the FBI would allow, and 
certainly what the Congress or anyone else would accept.
    I think these are the kinds of questions that we have to 
ask because new communications technologies both have benefits 
and pose challenges to privacy and law enforcement. The 
Congress has, I think, worked successfully, in a bipartisan 
fashion, to mediate this tension with a combination of very 
stringent procedures for law enforcement access to our 
communications, but also legal protections to maintain privacy 
and confidentiality, whether it is in person, over the 
telephone, fax, computer, or elsewhere.
    In fact, in 1968 the Congress passed comprehensive 
legislation authorizing Government interception of voice 
communications over telephones, and so on. We returned to this 
in 1986, when we passed the Electronic Communications Privacy 
Act, which I sponsored. That law established procedures for law 
enforcement access to electronic mail systems, to remote data 
processing systems, and had privacy safeguards for computer 
uses. It talked about the way we get pen registers and traps, 
and so on. These pen register and trap and trace orders, 
though, were not to be used to identify or record the contents 
of the communications.
    Now, we have this new surveillance tool and we have to find 
out where it fits in the mix. I understand Carnivore is a 
surveillance tool, a software program developed by the FBI, 
installed by the FBI at the physical premise of an Internet 
service provider, to intercept Internet communications 
following a court order.
    The order may authorize capture of an entire communication 
or it may be limited to addressing information, sort of like a 
pen register. This program, though, is versatile enough that 
the FBI can use the same program to accommodate variations in 
court order authorizations. So I want to hear more about how it 
works, the precise kind of information the program produces to 
the FBI, and what controls the FBI has in place when Carnivore 
is used to ensure the program is operated only as authorized by 
the court order.
    This is keeping in mind the fact that usually the court 
orders are going to be designed exactly the way the Government 
wants them to be. But notwithstanding that--and I am sorry some 
of the courts may take offense at that, but that is a fact. And 
notwithstanding that, I want to make sure it still doesn't go 
beyond it.
    Carnivore is not ``freeware'' available for download and 
public scrutiny. So somewhere, somebody has got to be able to 
scrutinize it. I commend the Attorney General for her efforts 
to address this concern and hiring an independent contractor to 
conduct a technical review of the surveillance program. It is a 
constructive step that moves beyond the hypothetical 
discussions of Carnivore.
    Now, there is no dispute that the stringent legal 
requirements governing wiretaps apply to Carnivore when it is 
used to capture the content of e-mails or other computer 
transmissions. I think all of us here on the Judiciary 
Committee would agree with that.
    There is also no dispute that both the text and the subject 
line of an e-mail message are content which law enforcement may 
intercept only under a wiretap order. But we still want to know 
whether the legal standards for its use are adequate and 
exactly what it does.
    Telephone companies regularly comply with wiretap and other 
legitimate surveillance orders, as do Internet service 
providers. But if the Internet service provider doesn't have 
the capability or willingness to do it, to execute court 
orders, fine; I will accept the fact that law enforcement can 
step in. I think Carnivore is for that. But, again, is it 
limited, and will it limit itself to what a willing ISP would 
give if they were willing to carry out the order themselves?
    Second, Carnivore works by sifting through the Internet 
traffic of a particular ISP to capture the particular 
information or communication authorized by a court order. I 
think privacy advocates are rightly concerned about whether 
Carnivore accesses too much, not only too much information 
about Internet users, but also too much information about the 
communications that are the subject of the court order.
    We know that the Internet breaks down communications into 
separatepackets that are reassembled at the destination point. 
The FBI will say that Carnivore is able to find the different packets 
that make up a suspected Internet criminal's message only by sifting 
through all the traffic. Technically, that is correct, but that might 
not be a great comfort to all the other Internet users who are not 
subject to the court-ordered surveillance but have their messages being 
looked at.
    It comes down to this: Carnivore is like a car. It can be 
very useful or it can be abused. You can drive back and forth 
to take your kids to school or you could have a drunk driver 
come down the road and wipe out a family. What counts is the 
rules of the road, but also what counts is what license we give 
the driver, and I am interested in the license and hearing from 
the witnesses today whether surveillance rules we developed for 
the analog telephone environment and for the pre-Internet 
computer environment are adequate to protect our current 
expectations of privacy when we go online.
    And I must say in that regard, Mr. Chairman, that we have 
the CALEA Act, which we all worked on very closely and worked 
closely with the FBI. And in many ways, the FBI has tried to 
push the envelope way beyond what I as one of the authors of 
that bill intended and what many of the others did. Because of 
that, I take a little more careful view of what they might say 
and whether the FBI now is going to push beyond the envelope of 
what they are allowed.
    In closing, I am a strong proponent of the Internet. I 
don't know of anybody in the Senate who is a stronger 
proponent. But I am a defender of our constitutional right to 
speak freely, and also I have the typical Vermonter's view of 
privacy that we should keep private our confidential affairs 
from either private sector snoops or unreasonable government 
searches. These principles can and must be respected when law 
enforcement agencies use surveillance tools to uncover and hold 
accountable criminal wrongdoers.
    So, Mr. Chairman, I think you have an excellent hearing. I 
think it is a wise one to have. I would put my whole statement 
in the record so we can hear from the witnesses.
    The Chairman. Well, thank you, Senator, and we will put all 
statements in the record at this point.
    [The prepared statement of Senator Leahy follows:]

             Prepared Statement of Senator Patrick J. Leahy

    We will talk today about ISPs and URLs and other new language of 
the Internet age, but fundamentally we are continuing a 20-year-old 
conversation about how we assure the right of American people to be 
secure in their persons, houses, papers and effects, against 
unreasonable searches and seizures. This is both the promise and the 
mandate of our Constitution's Fourth Amendment.
    The means by which law enforcement authorities may gain access to a 
person's private ``effects'' is no longer limited by physical 
proximity, as it was in the time of the Framers. New communications 
methods and surveillance devices have dramatically expended the 
opportunities for surreptitous law enforcement access to private 
messages and records from remote locations.
    In short, new communications technologies pose both benefits and 
challenges to privacy and law enforcement. The Congress has worked 
successfully in the past to mediate this tension with a combination of 
stringent procedures for law enforcement access to our communications 
and legal protections to maintain their privacy and confidentiality, 
whether they occur in person or over the telephone, fax machine or 
computer. In 1968, the Congress passed comprehensive legislation 
authorizing government interception, under carefully defined 
circumstances, of voice communications over telephones or in person in 
Title III of the Omnibus Crime Control and Safe Streets Act.
    We returned to this important area in 1986, when we passed the 
Electronic Communications Privacy Act (ECPA), which I was proud to 
sponsor, that outlined procedures for law enforcement access to 
electronic mail systems and remote data processing systems, and that 
provided important privacy safeguards for computer users. ECPA also set 
forth the procedures for use, application and issuance of orders for 
pen registers and trap and trace devices that were to be used to 
identify the numbers dialed from a particular telephone line or the 
originating number of an incoming telephone call, respectively. As the 
Committee's report on ECPA makes clear, these pen register and trap and 
trace orders were not to be used ``to identify or record the contents 
of the communication.'' [Senate Comm. On the Judiciary, ``Electronic 
Communications Privacy Act of 1986'', S. Rep. No. 99-541, 99th Cong., 
2d Sess. at p. 46 (1986).]
    This hearing will explore where the FBI's use of the new 
surveillance tool called ``Carnivore'' fits into that mix.
    As I understand this surveillance tool, Carnivore is a software 
program developed by the FBI and installed by the FBI at the physical 
premise of an Internet Service Provider to intercept Internet 
communications, in accordance with a court order. This court order may 
authorize capture of an entire communication, or it can be limited only 
to addressing information, akin to a pen register order for a telephone 
line. Carnivore is sufficiently versatile that the FBI can use the same 
program to accommodate variations in court order authorizations. I want 
to hear more about how the Carnivore program works, the precise kind of 
information the program produces to the FBI, and what controls the FBI 
has in place when Carnivore is used to insure the program is operated 
only as authorized by the applicable court order.
    Certainly, some of the concern over the FBI's use of Carnivore 
stems from the fact that the Carnivore program is not ``freeware'' 
available for download and public scrutiny. I commend the Attorney 
General for her efforts to address this concern and for moving forward 
to hire an independent contractor to conduct a technical review of the 
surveillance program. This is constructive step to move beyond 
hypothetical discussions of Carnivore's theoretical capabilities to 
focus on the facts.
    At the outset, let us be clear where there is no dispute. There is 
no dispute that the stringent legal requirements governing wiretaps 
apply to Carnivore when it is used to capture the content of e-mails or 
other computer transmissions. There is also no dispute that both the 
text and the subject line of an e-mail message are ``content'' which 
law enforcement may intercept only under a wiretap order. But 
fundamental questions remain about when the FBI chooses to use 
Carnivore, how the program works, and whether the legal standards that 
apply to its use are adequate. First, telephone companies regularly 
comply with wiretap and other legitimate surveillance orders, as do 
Internet Service Providers. But if the trail of a criminal 
investigation leads to evidence in the custody of an Internet Service 
Provider that lacks the capability or willingness to conduct the 
interception as required in a court order, most of us agree that law 
enforcement authorities should not be stymied but should have the 
authority to pursue the trail. Indeed, it has been a long-standing 
tenet codified in the wiretap and pen register laws that providers of 
telephone services must furnish law enforcement officials with ``all 
information, facilities and technical assistance necessary to 
accomplish'' the interception or installation of the pen register 
device unobtrusively and with a minimum of interference with the 
service being provided to the person whose communications are to be 
intercepted.'' [18 U.S.C. Sec. 2518(4) and3124(a).] Carnivore was 
apparently created for use in just this circumstantce--where the ISP is 
unable to assist directly in execution of the court-ordered 
surveillance.
    We want to hear today about whether use of Carnivore is limited to 
only that circumstance and what effect, if any, this use has on the 
integrity and function of the ISP.
    As the principal Senate sponsor of the Communications Assistance 
for Law Enforcement Act (CALEA), I should note that we passed this law 
in 1994 to require telephone companies to be able to execute court 
orders for surveillance. That law was passed with the concurrence of 
the telecommunications industry, which wanted all participants to share 
the responsibilities and expenses of complying with such court orders. 
This law exempts ``information services'', however, including most 
ISPs. Consequently, the FBI has developed its own program to fill the 
gap if a particular ISP is unable or unwilling to assist in execution 
of a court order for surveillance. This is preferable, in my view, to 
legislation requiring ISPs to ramp up to execute court orders.
    Second, Carnivore apparently works by sifting through the Internet 
traffic of a particular ISP to capture the particular information or 
communication authorized by a court order. Privacy advocates are 
rightly concerned about whether Carnivore accesses too much--not only 
too much information about Internet users whose communications are not 
the subject of the court order, but also too much information about the 
communications that are the subject of the court order.
    The Internet works by breaking communications down into separate 
packets that are reassembled at the destination point. The FBI says 
that, as a technical matter, Carnivore is able to find the different 
packets that make up a suspected criminal's Internet message only by 
sifting through all the traffic. This is cold comfort to all the other 
Internet users, who are not the subject of any court ordered 
surveillance but nonetheless are having their Internet messages 
automatically screened by the FBI's Carnivore program.
    The FBI says that Carnivore can be used as the functional 
equivalent for the Internet of a pen register or trap and trace devices 
that provide information about the source or destination of a telephone 
call. Yet the addressing, or header, information on an Internet message 
may provide far more detail about the interests of the person sending 
the message than a dialed telephone number does. This prompts the 
question whether the same legal standard and procedure should apply to 
capturing Internet addressing information that applies to capturing 
telephone numbers.
    Finally, Carnivore is a like a car. It can be useful, or it can be 
abused. What counts are the rules of the road and the license we give 
the driver. I am interested in hearing from the witnesses today whether 
the surveillance rules we developed for the analogue telephone 
environment and for the pre-Internet computer environment are adequate 
to protect our current expectations of privacy when we go online.
    I, for one, do not believe our current laws are adequate. That is 
why over a year ago I introduced the E-RIGHTS Act, S. 854, to update 
our laws and provide additional privacy protections for our online 
communications and records, including law enforcement access procedures 
and standards that are more in keeping with our current privacy 
expectations.
    For example, a critical privacy issue confronting us today is the 
procedure by which law enforcement authorities obtain pen register and 
trap and trace orders. The controversy over Carnivore puts the 
shortcomings of that procedure in stark relief. Under current law, 
federal judges are no more than rubber stamps who are required to issue 
pen register or trap and trace orders whenever a prosecutor asks for 
them. Federal judges have no authority to ask ``why'' and to make sure 
that requested surveillance is necessary and justified. The E-RIGHTS 
Act proposes a procedure that would permit judges to ask for and get 
reasons for the surveillance. The Administration has recently 
transmitted proposed legislation that would modify this procedure in a 
fashion similar to the one I originally proposed.
    I am a strong proponent of the Internet and a defender of our 
constitutional rights to speak freely and to keep private our 
confidential affairs from either private sector snoops or unreasonable 
government searches. These principles can and must be respected when 
law enforcement agencies use surveillance tools to uncover and hold 
accountable criminal wrongdoers. I look forward to hearing from the 
witnesses today about whether Carnivore oversteps these bounds.

    The Chairman. We have a distinguished group of witnesses 
here today. First, we will hear from Dr. Donald M. Kerr, who is 
the Assistant Director of the Federal Bureau of Investigation. 
Mr. Kerr heads the FBI lab that developed Carnivore and will be 
able to provide us with valuable insight from the Bureau.
    Our next witness is Kevin V. Di Gregory, Deputy Assistant 
Attorney General of the Criminal Division, which includes the 
Computer Crimes and Intellectual Property Section at the 
Department of Justice.
    After first hearing from these two witnesses, we will then 
hear from distinguished experts who will help guide us through 
the complex legal and technical issues involved in balancing 
the needs of law enforcement with the privacy rights of 
individuals.
    So we will hear, after the first two, from Mr. Vinton G. 
Cerf of the Internet Society, a non-profit educational and 
research institution devoted to the continual evolution of the 
Internet. Mr. Cerf is also a senior vice president at WorldCom, 
where he is responsible for Internet architecture and 
technology. In 1997, Mr. Cerf was awarded the National Medal of 
Technology for his role in the invention and implementation of 
the Internet.
    We are very fortunate to have you here today and we look 
forward to taking your testimony.
    Our next witness, Michael O'Neill, is an assistant 
professor of law at the George Mason University School of Law 
in Fairfax, VA. Professor O'Neill, who is a former Supreme 
Court clerk and current Commissioner on the U.S. Sentencing 
Commission, specializes in criminal law, criminal procedure, 
and constitutional law.
    Mr. O'Neill, we are very happy to have you back before the 
committee.
    Next, we welcome James X. Dempsey, Senior Staff Counsel 
with the Center for Democracy and Technology, located here in 
Washington, DC. Mr. Dempsey is a respected leader in the 
privacy community. He has been a friend of the committee and 
has testified here before, so we are really happy to have you 
back and we look forward to hearing your testimony.
    Our final witness is Professor Jeffrey Rosen, associate 
professor at the George Washington University Law School, 
located here in Washington. Professor Rosen teaches 
constitutional law, criminal procedure, and the law of privacy. 
He is also the legal affairs editor of the New Republic and has 
authored a book analyzing privacy issues.
    I wouldn't mind having one of the books if you could send 
it, OK?
    Mr. Rosen. I will provide it for you Senator.
    The Chairman. Good. I hope you autograph it.
    Mr. Rosen. Absolutely.
    The Chairman. We are fortunate to have each of you here 
today and we want to welcome you to our hearing on ``The 
Carnivore Controversy: Electronic Surveillance and Privacy in 
the Digital Age.'' This is a very, very important hearing and 
we look forward to hearing from each and every one of you.
    So we will turn to you, Mr. Kerr, and go from there.

PANEL CONSISTING OF DONALD M. KERR, ASSISTANT DIRECTOR, FEDERAL 
 BUREAU OF INVESTIGATION, WASHINGTON, DC, ACCOMPANIED BY LARRY 
R. PARKINSON, GENERAL COUNSEL, FEDERAL BUREAU OF INVESTIGATION, 
WASHINGTON, DC; KEVIN V. DI GREGORY, DEPUTY ASSISTANT ATTORNEY 
    GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE, 
  WASHINGTON, DC, ACCOMPANIED BY MARTHA STANSELL-GAMM, CHIEF, 
    COMPUTER CRIMES AND INTELLECTUAL PROPERTY SECTION, U.S. 
DEPARTMENT OF JUSTICE, WASHINGTON, DC; VINTON G. CERF, INTERNET 
    TRUSTEE, INTERNET SOCIETY, RESTON, VA; MICHAEL O'NEILL, 
ASSISTANT PROFESSOR OF LAW, GEORGE MASON UNIVERSITY LAW SCHOOL, 
FAIRFAX, VA; JAMES X. DEMPSEY, SENIOR STAFF COUNSEL, CENTER FOR 
 DEMOCRACY AND TECHNOLOGY, WASHINGTON, DC; AND JEFFREY ROSEN, 
 ASSOCIATE PROFESSOR OF LAW, GEORGE WASHINGTON UNIVERSITY LAW 
                     SCHOOL, WASHINGTON, DC

                  STATEMENT OF DONALD M. KERR

    Mr. Kerr. Good morning, Mr. Chairman, members of the 
committee. I am grateful for the opportunity to discuss the 
Internet and data interception capabilities developed by the 
FBI in response to the increased exploitation of computers, 
networks, and databases by terrorists, spies, and dangerous 
criminals to commit crimes and to harm the safety, security and 
privacy of others.
    I have provided a rather long statement for the record 
which I will spare you.
    The Chairman. We will put all statements in the record as 
though they were fully delivered. We hope you can summarize.
    Mr. Kerr. Thank you, Mr. Chairman, and I will simply 
briefly try to address some of the major issues covered in that 
statement.
    The context for our development and use of the Carnivore e-
mail intercept system and other similar tools is the 
significant increase in terrorist and criminal acts. For 
example, terrorist groups are increasingly using new 
information technology and the Internet to formulate plans, 
raise funds, spread propaganda, and to communicate relatively 
securely.
    An early instance of the use of secured information was the 
convicted terrorist Ramzi Yousef, who was the mastermind of the 
World Trade Center bombing, who, in fact, had encrypted files 
on his laptop for blowing up U.S. airplanes in various parts of 
the world.
    Serious fraud, such as the one mentioned earlier in your 
opening statement, recently dramatized by a case in New York, 
in March, where 19 people were charged in an insider trading 
scheme--the commission of that fraud rested on theability to 
enter chat rooms, in effect recruit people to provide information on 
two major brokerage firms' customers and, of course, share in the 
profits from the use of that illicitly obtained information.
    You are well aware of our Innocent Images program dealing 
with child pornography and sexual exploitation of children 
where, since 1995, the FBI has investigated nearly 800 cases 
involving adults traveling interstate to meet minors for the 
purpose of illegal sexual relationships, and more than 1,800 
cases involving persons trading child pornography over the 
Internet.
    As mentioned, the FBI only conducts electronic surveillance 
pursuant to Federal law, and in particular acts pursuant to 
court order. The Federal electronics surveillance law has 
carefully balanced the constitutional and privacy rights of 
individuals, legitimate search and seizure needs of law 
enforcement, and the obligations placed upon communications and 
information service providers to cooperate.
    In enacting the Federal electronic surveillance laws, 
including title III and the ECPA-based transactional record and 
pen register trap and trace regimes, Congress specified 
appropriately strict procedures for law enforcement's 
interception of communications content, and also its access to 
communications transactional, addressing, and dialing 
information.
    Also, by law, the investigators must specify the steps that 
will be taken to minimize the acquisition of any non-criminal 
communications. A title III application must be approved by a 
Federal district court judge who, after authorizing the order, 
carefully monitors the progress of the surveillance by 
reviewing reports brought to the court usually every 7 to 10 
days by the U.S. Attorney's Office. The U.S. Attorney's Office 
oversees the surveillance on a daily basis, and at the end of 
the surveillance the judge directs notice be given to those 
whose communications were intercepted.
    Under titles II and III of ECPA, law enforcement acquires 
transactional addressing and dialing type information pursuant 
to court orders based upon relevancy to an ongoing criminal 
investigation. These acquisitions, which include no 
communications content, can be obtained through approval by a 
Federal magistrate pursuant to applications from the U.S. 
Attorney's Office.
    Acquisitions under the pen register trap and trace regime 
last for 60 days, since they only pertain to the transactional 
addressing and dialing information. While the law requires no 
notice be given to the criminals or others concerning whom 
service provider communications transactional records are 
obtained, many service providers advise their subscribers after 
the investigation is concluded.
    Those who have raised concerns regarding Carnivore have 
principally asserted that through the use of Carnivore, the FBI 
is collecting more information than a given pen register or 
trap and trace court order permits. I want to speak to the 
safeguards we have in place, the techniques by which we deploy 
Carnivore, and in particular I think the great protections we 
offer for both personal privacy and the business interests of 
the Interest service providers.
    First of all, as you have correctly mentioned, Carnivore is 
both software and hardware. And because it is software in part, 
it can be configured to specifically comply with each court 
order. In doing that, we provide an audit trail. And, of 
course, you are well aware of the sanctions for misuse, both 
criminal and civil.
    It is a PC-based system. We maximize the use of commercial 
software to reduce risk and cost. It is installed by a team 
comprising a senior supervisory FBI special agent, typically an 
electronics technician, and one or more members of the Internet 
service provider's staff to be sure that we don't do something 
that would interfere with their system. But I would point out 
the case agent is not the one installing the system. People who 
are specifically trained in its use and the legal constraints 
on its use are the ones who do that.
    It is important to understand that it filters the Internet 
traffic. It is looking for the addressing information, and at 
the first stage it is looking for the Internet addresses that 
are covered in the court order and it picks off the packets 
that meet that test. It then goes through the subsequent 
filtering stage. If full content is allowed, it, of course, 
captures all of the packets relating to that message and 
records them in their digital form. If only the addressing 
information, the ``to'' and ``from'' lines, subject again to 
the court order, are captured, those are recorded.
    Once the recordings are made, there is no other information 
available to the FBI. We capture and record no other 
information, and those pieces of data are not available to us 
at any subsequent time. There is no real-time review of text 
because, in fact, we are dealing with systems where the 
information is transiting at rates, for instance, of 40 
megabits a second. We have no one who can read 0s and 1s at 40 
megabits a second and translate that into content. In fact, we 
only restore the message when content is authorized after 
recovering the recorded bits and bringing it back to our 
laboratory to recover the actual content of the message.
    We produce a record of all settings, and that becomes part 
of the evidentiary chain that we create. The system, in fact, 
is secured within the Internet service provider's spaces to 
provide physical chain of custody as well. In fact, in the 
newest version that we are intending to bring into use, we will 
provide the same authentication of the message information that 
we capture, as well as the settings, so that we will be able to 
testify later in court as to what the settings were, who set 
them up, and were any subsequent changes or alterations made.
    Carnivore does not adversely affect the business interests 
of the Internet service provider. I mentioned we safeguard 
their interests in part by collaborating with their technical 
staff. We always use the smallest segment of traffic through 
their system because, in fact, what we are after is just the 
message traffic of the subject of the court order. So if that 
can be delivered and the ISP can do it with their equipment, we 
accept that from them and, in fact, we reimburse them for 
providing that service.
    When the ISP does not have the equipment or the capability 
to meet the terms of the court order, we, in fact, use 
Carnivore, installed under the conditions that I mentioned. But 
recall there may be 15,000 ISP's in this country. Some of them 
are well capitalized and well equipped. Others are very small 
operations and would not have the capital to have in place an 
infrequently usedcapability or perhaps a never used capability.
    The Chairman. How many ISP's did you say are in the 
country?
    Mr. Kerr. I think approximately 15,000, but I think there 
are others at the table who know better.
    Mr. Cerf. Mr. Chairman, I can respond to that. I think 
probably that is a global number, as opposed to the number in 
the United States. So presumably your focus of attention is the 
number in the United States, but that still could be on the 
order of 8,000. So you are in the same order of magnitude.
    The Chairman. OK; sorry to interrupt you.
    Mr. Kerr. Not a problem. It is very helpful.
    Carnivore is a passive system and, in fact, it is isolated 
from the Internet service provider's network by a commercial 
device that allows for information to flow to Carnivore, but 
for no signals to flow from Carnivore into the system. And, of 
course, like all communications intercept equipment, it is 
removed as soon as the court order has expired.
    Overall, we think that the public should have trust and 
confidence in the FBI conduct of electronic surveillance under 
the legal guidance that we have. We first exhaust other means 
to get timely information. We always try to minimize the 
intrusiveness of our intercept, whether it be for e-mail or for 
telephones.
    We attempt to avoid undesirable consequences for 
telecommunications providers or Internet service providers. We 
cannot activate our capabilities without an appropriate order. 
There are sanctions in place that deter misuse. Broad search 
and surveillance is prohibited, and we seek specific evidence 
of criminal behavior, not broad information content.
    With that, Mr. Chairman, I will conclude my remarks and 
look forward to your questions.
    [The prepared statement of Mr. Kerr follows:]

                  Prepared Statement of Donald M. Kerr

    Good morning, Mr. Chairman and Members of the Committee. I am 
grateful for this opportunity to discuss with you the FBI's Carnivore 
system--a system specially designed for effectively enforcing the law 
while at the same time fully complying with the law. Carnivore is a 
system which we are counting on to help us in critical ways in 
combating acts of terrorism, espionage, information warfare, hacking, 
and other serious and violent crimes occurring over the Internet, acts 
which threaten the security of our Nation and the safety of our people. 
In my statement, I will touch upon five points; why we need a system 
like Carnivore; why the public should have confidence that the FBI is 
lawfully Carnivore; how Carnivore, as a special purpose electronic 
surveillance tool, works; why computer network service providers, with 
whom the FBI always work closely, should not be fearful about 
Carnivore's use with their networks; and, as an overarching matter, why 
the public should have trust in the FBI's conduct of electronic 
surveillance and in its use of the Carnivore system. In addressing 
these important points, we hope to set the record straight and allay 
any legal, privacy, network security, and trustworthiness concerns.
Why does the FBI need a system like Carnivore?
    By now, it has become common knowledge that terrorists, spies, 
hackers, and dangerous criminals are increasingly using computers and 
computer networks, including the Internet, to carry our their heinous 
acts. In response to their serious threats to our Nation, to the safety 
of the American people, to the security of our communications 
infrastructure, and to the important commercial and private 
potentialities of a safe, secure, and vibrant Internet, the FBI has 
responded by concentrating its effort, including its technological 
efforts, and resources, to fight a broad array of Cyber-crimes.
    While the FBI has always, as a first instinct, sought to work 
cooperatively and closely with computer network service providers, 
software and equipment manufactures, and many others to fight these 
crimes, it also become obvious that the FBI needed its own tools to 
fight this battle, especially where legal, evidentiary, and 
investigative imperatives required special purpose tools. One such tool 
is Carnivore, which I will discuss at length today. However, before 
discussing Carnivore, it is important to identify and briefly discuss 
some of the types of Cyber-crime threats which we in law enforcement 
have been encountering, and will encounter in the future, and 
concerning which Carnivore, and tools such as Carnivore, are of 
critical importance to the FBI.
            Terrorism
    Terrorist groups are increasingly using new information technology 
(IT) and the Internet to formulate plans, raise funds, spread 
propaganda, and communicate securely. In his statement on the worldwide 
threat in the year 2000, Director of Central Intelligence George Tenet 
testified that terrorist groups, ``including Hezbollah, HAMAS, the Abu 
Nidal organization, and Bin Laden's al Qa'ida organization are using 
computerized files, E-mail, and encryption to support their 
operations.'' As one example, convicted terrorist Ramzi Yousef, the 
mastermind of the World Trade Center bombing, stored detailed plans to 
destroy United States airliners on encrypted files on his laptop 
computer.
    Other terrorist groups, such as the Internet Black Tigers (who are 
reportedly affiliated with the Tamil Tigers), engaged in attacks on 
foreign government websites and E-mail servers. ``Cyber terrorism''--
the use of Cyber tools to shut down critical national infrastructures 
(such as energy,telecommunications, transportation, or government 
operations) for the purpose of coercing or intimidating a government or 
civilian population--is emerging as a very real threat.
    Recently, the FBI uncovered a plot to break into National Guard 
armories and to steal the armaments and explosives necessary to 
simultaneously destroy multiple power transmission facilities in the 
Southern United States. After introducing a cooperating witness into 
the inner circle of this domestic terrorist group, it became clear that 
many of the communications of the group were occurring via E-mail. As 
the investigation closed, computer evidence disclosed that the group 
was downloading information about Ricin, the third most deadly toxin in 
the world. Without the fortunate ability to place a person in this 
group, the need and technological capability to intercept their E-mail 
communications' content and addressing information would have been 
imperative, if the FBI were to be able to detect and prevent these acts 
and successfully prosecute.
            Espionage
    Not surprisingly, foreign intelligence services have adapted to 
using Cyber tools as part of their espionage trade craft. Even as far 
back as 1986, before the worldwide surge in Internet use, the KGB 
employed German hackers to access Department of Defense systems in the 
well-known ``Cuckoo's Egg'' case. It should not surprise anyone to hear 
that foreign intelligence services increasingly view the Internet and 
computer intrusions as useful tools for acquiring sensitive U.S. 
government and private sector information.
            Information Warfare
    The prospect of ``information warfare'' by foreign militaries 
against our Nation's critical infrastructures is perhaps the greatest 
potential Cyber threat to our national security. We know that several 
foreign nations are developing information warfare doctrine, programs, 
and capabilities for use against the United States or other nations. 
Knowing that they cannot match our military might with conventional 
weapons, nations see Cyber attacks on our critical infrastructures or 
military operations as a way to hit what they perceive as America's 
Achilles heel--our growing dependence on information technology in 
government and commercial operations. Two Chinese military officers 
recently published a book that called for the use of unconventional 
measures, including the propagation of computer viruses, to 
counterbalance the military power of the United States. And a Russian 
official has also commented that an attack on a national infrastructure 
could, ``by virtue of its catastrophic consequences, completely overlap 
with the use of [weapons] of mass destruction.''
            Child Pornography and Sexual Exploitation of Children
    Through the FBI's ``Innocent Images'' case, and others, it has 
become abundantly clear that certain adults are using computers and the 
Internet widely to disseminate child pornography and to entice young 
children into illegal and often violent sexual activity. Such sexual 
predators find the Internet to be a well-suited medium to trap unwary 
children. Since 1995, the FBI has investigated nearly 800 cases 
involving adults traveling interstate to meet minors for the purpose of 
illegal sexual relationships, and more than 1850 cases involving 
persons trading child pornography--almost all of these involve the 
exchange of child pornography over the Internet.
            Serious Fraud
    One of the most serious criminal threats facing the Nation is the 
use of the Internet for fraudulent purposes. For example, securities 
offered over the Internet have added an entirely new dimension to 
securities fraud investigations. The North American Securities 
Administrators Association has estimated that Internet-related stock 
fraud results in a loss to investors of approximately $10 billion per 
year (or nearly $1 million per hour). In one case, on March 5, 2000, 
nineteen people were charged in a multimillion-dollar insider trading 
scheme. At the core of the scheme, the central ``insider'' figure went 
online and found others in ISP chat rooms. He soon was passing inside 
information on clients of several brokerage firms to two other 
individuals in exchange for a percentage of any profits they earned by 
acting on it. For 2\1/2\ years, this person passed inside information, 
communicating almost solely through online chats and instant messages, 
with the insider receiving $170,000 in kickbacks while his partners 
made $500,000.
Why should the public have confidence in the FBI's lawful use of 
        Carnivore?
    There are a number of reasons why the public should have confidence 
in the FBI's lawful use of Carnivore. First of all, since 1986, with 
the enactment of the Electronic Communications Privacy Act of 1986 
(ECPA), which amended Title III of the Omnibus Crime Control and Safe 
Streets Act of 1968 (Title III), Congress created statutory legal 
protection for all types of wire and electronic communications' 
content, including computer and Internet-based communications' content, 
consistent with the Constitution. The ECPA also created statutory 
privacy protection for ``transactional records'' pertaining to an 
electronic communications provider's provision of services to a 
customer or subscriber consistent with the Constitution. The term 
``transactional records,'' as used here, includes addressing (e.g., in 
the context of E-mail communications, the ``to'' and ``from'' lines--
but not the ``subject'' or ``re'' lines) routing, billing, or other 
information maintained or generated by the service provider. 
``Transactional records'' do not include the content (substance, 
purport or meaning) of E-mails or other communications. 
Correspondingly, in the ECPA, Congress regulated all governmental 
electronic surveillance interceptions of communications' content and 
all acquisitions of communications addressing and transactional record 
information consistent with the Constitution. Under the ECPA, all such 
electronic surveillance efforts require some form of court order, 
either a full Title III (probable cause-based) court order for 
obtaining communications' content or an ECPA-created court order based 
upon relevancy for communications' addressing and transactional record 
information. Of course, there are ``emergency'' provisions whereby 
surveillance is permitted to proceed immediately, when high-level 
Department of Justice authorization is obtained, so long as a court 
order is filed within 48 hours.
    Under Title III, applications for electronic surveillance must 
demonstrate probable cause and state with particularly and specificity: 
the offenses being committed, the communications facility regarding 
which the subject's communications are to be intercepted, a description 
of the types of conversations to be intercepted, and the identities of 
the persons committing the offenses and anticipated to be intercepted. 
Clearly, the criminal electronic surveillance laws focus on gathering 
hard evidence--not intelligence. Under this law, the FBI cannot, and 
does not, ``snoop.''
    In obedience of the law, the FBI obtains judicial authorization, in 
terms of always obtaining the appropriate court order required when 
intercepting wire and electronic communications' content or when 
acquiring addressing information and transactional record information, 
or lawful consent, regardless of whether they are occurring over a 
computer or telecommunications network. The FBI's use of the Carnivore 
system--approximately 25 times in the last two years--has in every case 
and at all times been pursuant to such a judicially-granted court order 
or lawful consent. In every case, we only deploy Carnivore after 
serving a court order on an ISP (or after obtaining lawful consent of a 
party to the communication) and then only after working closely with 
the ISP technicians or engineers in installing it. Parenthetically, 
were the ISP is equipped to fully and properly implement the court 
order or consensual authorization, the FBI leaves the interception to 
the ISP and does not rely upon Carnivore. Moreover, if an FBI employee 
were to attempt to acquire such content or information using Carnivore 
without obtaining a court order or appropriate consent, it would be a 
serious violation of the law--a federal felony, thereby subjecting 
theemployee to criminal prosecution, civil liability, and termination. 
Finally, FBI employees fully understand that the unlawful interception 
of the content of private communications will lead to the suppression 
of any and all tainted evidence and any evidence of fruits derived 
therefrom. In short, the penalties for violating the electronic 
surveillance laws are so severe as to dissuade any such unlawful 
behavior, even if someone were so inclined.
    Those who have raised legal concerns regarding Carnivore have 
principally asserted that (1) through its use of Carnivore, the FBI is 
collecting more information than a given pen register or trap and trace 
court order permits, or (2) while using Carnivore, the FBI is acquiring 
more information under such order than that order should lawfully 
permit.
    As to the first assertion (as will be explained in detail below), 
in many investigative situations (principally those involving pen 
register or trap and tract court orders), Carnivore--far better than 
any commercially-available sniffer--is configurable so as to filter 
with precision certain electronic computer traffic (i.e., the binary 
computer code, the fast-flowing streams of O's and 1's) such that, in 
each case, FBI personnel only receive and see the specified 
communications addressing information associated with a particular 
criminal subject's service, concerning which a particular ECPA court 
order has been authorized. Further, to our knowledge, there are few, if 
any, electronic surveillance tools that perform like Carnivore, in 
terms of its being able to be tailored to comply with different court 
orders, owing to its ability to filter with precision computer code 
traffic.
    In fact, the genesis for some of the technological functionality of 
Carnivore was the result of the FBI's decision, made in light of 
privacy and investigative concerns, that prudent practice, with regard 
to computer network-based electronic surveillance, dictated that the 
communications' addressing information gleaned through technical 
equipment the FBI would be using should, to the fullest extent 
possible, correspond to that information authorized for acquisition and 
use under law. In this regard, prior to our development of Carnivore, 
the FBI, consistent with the Constitution and the legal mandate found 
in 18 U.S.C. 3121, was using ``technology reasonably available to it'' 
which permitted the acquisition of communications' addressing 
information, but which necessitated minimization. However, while the 
technology then available (principally commercial sniffers) worked as 
well as could be expected, as discussed in greater detail below, such 
equipment had never been designed as a law enforcement electronic 
surveillance tool, and hence had shortcomings. Not knowing if, or when, 
market forces would lead to the development of a law enforcement 
electronic surveillance too, the FBI took the initiative.
    In this context, we want to make sure that both the Congress and 
the public understand that, in using Carnivore, there is no broad-brush 
acquisition by either Carnivore or by FBI personnel of the ``contents 
of the wire or electronic communications'' of all ISP users--such as to 
constitute an unauthorized Title III ``intercept.'' Carnivore only 
intercepts the communications of that particular criminal subject for 
which a Title III order has been obtained. Similarly, we want everyone 
to understand that, in using Carnivore, there is no broad brush 
collection, storage, or review, by either Carnivore or by FBI 
personnel, of the addressing or transactional information regarding any 
ISP user beyond that pertaining to the criminal subject's service for 
which an ECPA court order under 18 U.S.C. 3123 and 18 U.S.C. 2703(c)(d) 
has been obtained.
    As to the second assertion, some have stated that, in their 
opinion, the FBI is acquiring more information when it uses Carnivore 
to acquire communications addressing and transactional record 
information than it should be entitled to under the Constitution or 
under the ECPA statutory regimes found in Chapters 206 and 121 of Title 
18 of the United States Code, and, in particular, under the court order 
authorities within 18 U.S.C. 3123 and 18 U.S.C. 2703(c)(d). By way of 
response, and more to the point, it appears that much, if not most, of 
this contention regarding governmental access to communications 
addressing and transactional information emanates from concerns about 
the use of electronic surveillance generally, as opposed to the FBI's 
use of Carnivore in particular. However, there is little or nothing in 
law or Federal jurisprudence to support the contention that has been 
asserted in this regard.
    In 1979, the U.S. Supreme Court ruled that, because there was no 
justifiable or reasonable expectation of privacy in the electronic 
impulses dialed and transmitted over the telephone lines of a service 
provider to initiate a telephone call, no Fourth Amendment search or 
seizure was implicated, and, accordingly, that no legal right or 
protection regarding governmental acquisition of such information was 
cognizable or afforded under the Constitution (see, Smith v. Maryland, 
442 U.S. 735 (1979). Similarly, the U.S. Supreme Court had earlier 
found no Constitutional right or protection against the Government's 
warrantless acquisition of banking information that had been disclosed 
by a customer to a third party financial institution (see, United 
States v. Miller, 425 U.S. 435, 442-444 (1976)). Hence, then, at least 
as a matter of Constitutional law, the Supreme Court has found no 
Constitutional requirement for a probable cause-based warrant in order 
to acquire transactional records or information that a customer conveys 
or transmits to third parties such as banks and telephone service 
providers.
    In 1986, in enacting the ECPA's Title II and Title III provisions, 
the Congress was aware of the foregoing Supreme Court rulings and 
sought to ``create'' new privacy protection in statute to protect a 
subscriber's communications addressing and transactional record 
information. Also, just as it intended to afford statutory privacy 
protection for such information, Congress also created appropriate and 
commensurate court order authorities for lawful governmental use in 
acquiring such information. In doing so, Congress made very reasonable, 
considered, and balanced determinations as to the level of privacy 
protection that was appropriate for each type of information at issue. 
Now, although it is true that there have been great changes in computer 
technology since 1986, the core statutory privacy principles and fault 
lines applicable to protecting computer-based communications content, 
on the one hand, and communications addressing information, on the 
other, as well as to their lawful interception or acquisition, have 
remained quite stable.
    Since 1986, and long before the advent and use of Carnivore, the 
FBI and many other Federal, State, and local governmental authorities 
having been lawfully acquiring computer network-based addressing and 
transactional information from both telecommunications carriers and 
Internet Service Providers (ISPs) under court order as anticipated by 
Congress within the ECPA., i.e., the court order authorities set forth 
within 18 U.S.C. 3123 and 18 U.S.C. 2703(c)(d). Governmental 
surveillance in this area has proceeded based upon the rightful premise 
that, with the appropriate ECPA court order(s), each and every type of 
communications addressing and transactional record information found 
within telecommunications and computer networks could be lawfully 
acquired. Since the ECPA was enacted, federal courts throughout the 
country have consistently authorized ECPA-based court orders applied 
for by the Department of Justice and the United States Attorneys' 
Offices, under the authorities set forth within 18 U.S.C. 3123 and 18 
U.S.C. 2703(c)(d), with regard to the types of governmental access to 
and acquisition of computer network addressing information currently 
being complained of, without finding Constitutional or statutory 
impediment.
    Finally, with specific reference to Carnivore, in the approximately 
25 instances wherein its use has occurred, the courts have approved the 
applications, in terms of what was lawfully obtainable through the 
federal statutory regimes(s) and/or court orders cited above, and in 
terms ofthe information which Carnivore, through its filtering, enables 
FBI personnel to lawfully receive or see under these regimes. In the 
only case challenging Carnivore's intended use (in a case involving the 
acquisition of E-mail addressing information under the court order 
authorities set forth within 18 U.S.C. 2703(c)(d) and 18 U.S.C. 3123), 
the court sided with the Government, finding that the addressing 
information to be acquired through the Government's use of Carnivore 
was no more intrusive than the information acquired through a 
conventional pen register under 18 U.S.C. 3123.
How does Carnivore work, and why the FBI believes Carnivore is superior 
        from a legal, privacy, investigative, evidentiary and 
        technological perspective to commercial sniffers
    Carnivore is very effective and discriminating special purpose 
electronic surveillance system. Carnivore is a filtering tool which the 
FBI has developed to carefully, precisely, and lawfully conduct 
electronic surveillance of electronic communications occurring over 
computer networks. In particular, it enables the FBI, in compliance 
with the Constitution and the Federal electronic surveillance laws, to 
properly conduct both full communications' content interceptions and 
pen register and trap and trace investigations to acquire addressing 
information.
    For many electronic surveillance purposes, Carnivore is superior to 
any commercially available ``sniffer'' tool which ISP network 
administrators typically might use for network oversight, management, 
and trouble-shooting. In the ISP world such sniffers are the closest 
thing to what would be considered an electronic surveillance 
interception device. Such sniffers, however, were never designed or 
intended to be a special purpose electronic surveillance tool, and 
therefore they are not best suited to protect the privacy rights 
afforded by the Constitution or by statute.
    It's important to describe the context of when and how Carnivore is 
used and the way Carnivore works. It's most critical to clearly 
understand what Carnivore discloses and, more importantly, what it does 
not disclose to the FBI personnel who use it.
    First of all, as emphasized above, Carnivore is only employed when 
the FBI has a court order (or lawful consent) authorizing a particular 
type of interception or acquisition regarding a particular criminal 
subject user, user address, or account number. Second, when an ISP can 
completely, properly, and securely comply with the court order on its 
own, the FBI does not need to deploy Carnivore.\1\ Third, if a decision 
is made to use Carnivore, the FBI never deploys it without the 
cooperation and technical assistance of the ISP technicians and/or 
engineers. Fourth, through working with the ISP, Carnivore is 
positioned and isolated in the network so as to focus exclusively upon 
just that small segment of the network traffic where the subject's 
communications can be funneled. This is roughly analogous to using an 
electronic surveillance device only within in a single trunk or cable 
within a telephone network. Stated differently, and contrary to the 
statements of some critics, Carnivore is not positioned to filter or 
access ``in a Big Brother mode, all subscriber traffic throughout an 
ISP network.''
---------------------------------------------------------------------------
    \1\ In many instances, ISPs, particularly the larger ones, maintain 
certain technical capabilities which allow them to comply, or partially 
comply, with court orders. For example, certain ISPs have the 
capability to intercept or ``clone'' the E-mail transmitted to and from 
a particular criminal subject's account. In many instances, such 
capabilities are satisfactory and allow full compliance with a court 
order. However, as noted in the main text, in most cases, ISPs do not 
have such capabilities or cannot employ them in a secure manner. Also, 
most ``off the shelf'' sniffers or internal systems designed ad hoc to 
effect an electronic surveillance effort frequently lack the ability to 
properly discriminate between messages in a fashion that satisfies the 
court order. Further, many court orders go beyond E-mail, authorizing 
the acquisition of other messages or protocols, such as instant 
messaging. In these cases, obviously, a cloned mailbox would not be 
sufficient to comply with the order of the court.
---------------------------------------------------------------------------
    In illustrating its functionality, it is important to understand 
that Carnivore's filtering operates in stages. Carnivore's first action 
is to filter a portion of an ISP's high speed network traffic. 
Specifically, it filters binary code--streams of 0's and 1's that flow 
through an ISP network, for example, at 40 mega-bits per second, and 
often at much higher speeds. Carnivore operates real time with these 
speeds. To visualize this, imagine a huge screen containing 40 million 
0's and 1's flashing by on this screen for one second, and for one 
second only. Carnivore's first effort--entirely within the Carnivore 
box--is to identify within those 40 million 0's and 1's whether the 
particular identifying information of the criminal subject (for which a 
court order has been authorized) is there.
    If the subject's identifying information is detected, the packets 
of the subject's communication associated with the identifying 
information that was detected, and those alone, are segregated for 
additional filtering or storage. However, it's critically important to 
understand that all of those 40 million 0's and 1's associated with 
other communications are instantaneously vaporized after that one 
second. They are totally destroyed; they are not collected, saved, or 
stored. Hence, FBI personnel never see any of these 40 million 0's and 
1's, not even for that one second. Continuing the illustration, if the 
subject's identifying information is not in that screen, then the next 
screen of 40 million 0's and 1's flashes by at the same rate, and the 
process described above is repeated in identical fashion until the 
subject's identifying information is detected.\2\
---------------------------------------------------------------------------
    \2\ Parenthetically, some might argue that although the FBI does 
not collect, save, or store all of those 40 million bits per second, 
that it could if it chose to. In fact, that is simply not the case. The 
reason is that, even with substantial gigabit level storage, the hard 
drive storage would fill up in a matters of a few minutes, requiring 
constant replacement of the hard drives or alternatively the front end 
acquisition of large amounts of equipment space within an ISP's access 
space. Neither one of these scenarios is in any way realistic.
    But, for the sake of argument, even if such massive collection and 
storage could be marshaled, an equally gigantic effort would be 
required to process all of the O's and 1's to produce intelligible 
English text. Then finally, there would have to be a huge dedication of 
FBI human resources to sift through the information--and for no 
discernable reason. The fact of the matter is that the FBI, focused 
upon the identified criminals/accounts under investigation, is normally 
``swamped'' with evidence. The FBI simply has no interest in rummaging 
(``snooping'') through the immense number of communications of those 
ISP users that through mere happenstance traverse the same part of the 
network as the traffic of the criminal subject. As noted above, any 
such unauthorized rummaging would be a violation of law, subjecting FBI 
personnel to criminal prosecution, civil liability, and immediate 
termination of employment.
---------------------------------------------------------------------------
    After exclusively segregating the subject's information for further 
machine processing, then a second stage of filtering is employed. At 
this point, and again all within the Carnivore box, Carnivore checks 
its programming to see what it should filter and collect for 
processing. In other words, it determines, as required by the specific 
wording of the court order, if it's supposed to comprehensively collect 
communications content--in a full title III or FISA mode--or, 
alternatively, whether it's only to collect pen register or trap and 
trace transactional and addressing information. Only information 
specified in the court order is being collected by Carnivore.
    Importantly, this is where some of Carnivore's key legal, 
evidentiary, and privacy-enhancing features really kick in. To address 
the particular concerns that have been raised regarding what is 
filtered and processed, and what FBI personnel see and don't see, its 
useful to illustrate how Carnivore operates, for example, in a pen 
register or trap and trace transactional and addressing information 
mode, pursuant to authorities set forth within 18 U.S.C. 3123 and 18 
U.S.C. 2703(c)(d). Under these circumstances, Carnivore only collects 
transactional and addressing information. It is programmed to filter 
out all content, including subject line and ``re'' information.
    For example, certain pen register or trap and trace orders will 
authorize collection of simply ``source,'' ``destination,'' date, time, 
and duration of the message. Others will authorize collection of 
``source,'' ``destination,'' ``user account address,'' date, time, and 
duration. Again, each collection, and the filters being employed, are 
tailored to a particular court order's authorization.
    At this point, an explanation on a more technological and 
functional level is warranted as to why, with regard to pen register 
and trap and trace transactional and addressing information usage, 
Carnivore's use was necessitated by certain privacy, evidentiary, and 
investigative concerns. Commercially-available sniffers do a very good 
job in many circumstances of filtering and segregating ISP information, 
especially in title III interceptions. However, in other cases, where 
more stringent legal, evidentiary, and law enforcement investigative 
requirements exist, manysniffers would collect either too much 
information, such as collecting all of the information regarding a 
given criminal subject's account, or , alternatively fail to collect 
the authorized information at all.
    For example, because of differences and vagaries in network 
protocols and header addressing information and their implementations 
by ISPs, collections with these commercial sniffers often do not cut 
off the header addressing information at the precise point. This can 
lead to a small amount of a communications' content being included 
(such as the ``subject line'') which then must be minimized by human 
review. Hence, resort to commercial sniffers alone under certain 
circumstances raises privacy concerns and interferes with the FBI's 
investigative resources. While such sniffer capabilities might suffice 
for non-law enforcement administration purposes, it is less than 
perfect for a law enforcement point of view. Carnivore's development 
was driven by a need to address such issues.
    In another area with significant legal, evidentiary, and 
investigative ramifications, Carnivore is superior to commercial 
sniffer. Commercial sniffers are typically designed to work only with 
fixed IP addresses. Unfortunately, dynamic addressing within ISPs 
occurs probably in 98-99% of the cases. Hence, the use of commercial 
sniffers, without more, would be ineffective in 98-99% of court 
authorized collections. Carnivore was specifically designed to 
interface with ISP networks so that when dynamic addressing occurs it 
can immediately respond to it. Finally, while it is true that other 
efforts with ISPs can address this problem, this problem is effectively 
and efficiently resolved technically by Carnivore.
    In still another area with significant legal, evidentiary, and 
investigative ramifications, Carnivore has the ability to filter and 
collect Simple Mail Transport Protocol (SMTP) traffic sent to or from a 
specific user. Most, if not all, commercial sniffers would collect all 
E-mails and then require a human visual search to find the targeted E-
mail. This obviously is wanting from a privacy and operational 
perspective. Carnivore, on the other hand, has the ability to conduct 
very surgical acquisitions of only a targeted criminal subject's E-
mail.
    To repeat, during all the filtering/processing noted above, no FBI 
personnel are seeing information--all of the information filtering/
processing, and purely in a machine-readable format, is occurring 
exclusively ``within the box.''
    Now, at the end of all the filtering and processing, there, of 
course, is information that ultimately is collected and stored for 
human review. Hence, what finally reaches the hands of FBI personnel in 
every case is simply and only that particular lawfully authorized by 
the court order--and no more.
    Finally, Carnivore includes another piece of important 
functionality. For evidentiary purposes, and as an audit history, 
Carnivore was also designed to append to an event file for each 
collection the filter configuration that was used in that collection. 
This information tells the FBI personnel--and indeed it tells the 
world, including a court, defense counsel, and a jury--what mode the 
device was operating in (what it was programmed to collect), so as to 
allay any suspicion that more information was being passed along to FBI 
personnel.
    As you know, Rule 901 of the Federal Rules of Evidence requires the 
authentication of evidence as a precondition for its admissibility. The 
use of the Carnivore system by the FBI to intercept and store 
communications establishes, with much less human interaction and 
without the potential for human error, a trustworthy machine-based 
memorialization of the evidence. It also establishes a reliable first 
link in an undisturbed chain of custody, and it facilitates the ease 
and accuracy of a witness' testimony by permitting the witness to 
testify as to the retrieval of the evidence and as to the purely 
technological method by which the evidence was acquired and recorded. 
Finally, Carnivore is being upgraded by adding an integrity feature 
which will further demonstrate the authenticity of the information, by 
imprinting on the evidence the collection mode being used. It thus 
helps prove authenticity, by demonstrating that no alteration has been 
made to the filter settings employed or to the information obtained. As 
an evidentiary matter, such features strengthen showings of ``chain of 
custody,'' authenticity, and non-alteration.
Why computer network service providers should not be fearful about 
        Carnivore's use with their networks
    Notwithstanding assertions to the contrary, the Carnivore system is 
safe to operate with IP networks. As noted above, Carnivore is only 
installed in that small segment of the computer network through which 
the criminal subject's communications traffic will pass. The Carnivore 
system is connected with the network by a bridging device that 
physically prevents Carnivore from transmitting into the network. Thus, 
as a technological certainty, there is absolutely no way it could 
possibly have any ability to transmit any information or thing into the 
network.
    Importantly, Carnivore is only attached to the network after 
consultation with, and after obtaining the agreement and assistance of, 
technical personnel form the ISP. It is worth noting that, to date, the 
FBI has never installed Carnivore with an ISP's network without first 
obtaining the assistance of the ISP's technical personnel. The Internet 
is highly complex and heterogeneous environment in which to conduct 
electronic surveillance, and I can assure you that without the 
technical knowledge of the ISP's personnel, it would be very difficult, 
and in some instances impossible for law enforcement agencies to act 
unilaterally and successfully in implementing such a technical effort. 
Moreover, the FBI particularly depends upon the ISP personnel to 
understand the protocols and architecture of their particular networks.
    Some critics have also asserted that the use of the Carnivore 
system introduces significant new vulnerabilities for hacking access. 
But such assertions miss the mark. With regard to hacking, and 
considering the hacking methodologies most commonly employed, there 
would be absolutely no greater qualitative value in trying to use the 
Carnivore system as an access point than any other access point or node 
in the Internet, concerning which there are literally millions. Indeed, 
recognizing that Carnivore is a law enforcement surveillance tool, a 
hacker's attempted use of it as an access path would be particularly 
foolish inasmuch as access to Carnivore, as noted above, would never 
create an actual transmission path into the network.
    Lastly, there has been the suggestion, in prior Congressional 
testimony, that the Carnivore system had caused a network crash or 
other problems in the network of a particular ISP. Let me emphasize 
that such a suggestion is simply factually incorrect. In the instance 
cited, the cause of the network problem (there was no crash)--it was in 
the nature of a network slowdown--was programming steps undertaken 
exclusively by the ISP's technicians, and entirely on their own.
Why should the public have trust in the FBI's conduct of electronic 
        surveillance, and, in particular, in its use of the Carnivore 
        system
    We believe that the American public should have trust in the FBI's 
conduct of electronic surveillance, principally because it has an 
outstanding record of lawfully complying with the Federal electronic 
surveillance laws which the Congress first enacted over thirty years 
ago, in 1968. Although the assertion of widespread 'illegal FBI 
wiretapping' is frequently made, and is an article of faith for some, 
the facts in no way support it. Any careful review of the dockets of 
the Federal courts offers no support to the assertion of FBI electronic 
surveillance abuse during these years. Indeed, all FBI electronic 
surveillance is authorized and carefully supervised by many different 
``outside'' entities.
    To begin with, in every FBI investigation involving electronic 
surveillance, all surveillance efforts are approved, monitored, and 
overseen at each step of the way by both the local United States 
Attorneys Office and the appropriate U.S. District Court Judge (for 
Title IIIs) or Magistrate (for ECPA court orders). In surveillance 
conducted under the Foreign Intelligence Surveillance Act (FISA), FBI 
surveillance efforts are approved, monitored, and overseen by the 
Department of Justice's Office of Intelligence Policy and Review, and 
by the Foreign Intelligence Surveillance Court, respectively. Moreover, 
before any full-blown Title III or FISA electronic surveillance 
involving the interception of communications' content is approved, 
lengthy, multi-layered, and thorough reviews occur both within the FBI 
and within the Department of Justice, and, as a statutory mandate, 
high-level Department of Justice approval is required for all such 
surveillance.
    For more than three decades now, FBI electronic surveillance has 
been closely supervised and monitored by the Department of Justice. 
There has been no indication of FBI abuse. Indeed, the Department of 
Justice typically points to the FBI as an agency model with regard to 
how to carefully and lawfully conduct electronic surveillance.
    Aside from Executive and Judicial Branch review of FBI electronic 
surveillance efforts, the Congress itself exercises frequent and 
ongoing oversight over the FBI's conduct of electronic surveillance in 
a number of ways. Year in and year out, numerous Congressional 
Committees (and their staff) involved in authorizations and 
appropriations scrutinize FBI expenditures, programs, and even 
equipment. Committees on the Judiciary and Intelligence frequently hold 
hearings, such as this, and submit written questions to be addressed by 
the FBI. Further, since Title III's enactment in 1968, the Congress has 
revisited the Federal electronic surveillance laws on a number of 
occasions: in 1978 (FISA), in 1986 (ECPA), and in 1994 (CALEA). And, as 
the Committee is well aware, each time the Federal electronic 
surveillance laws are updated there is a substantial subtext to the 
legislative initiative wherein the Congress considers and reconsiders 
whether such laws are working well and whether there is any significant 
indication of abuse such as to warrant the laws' curtailment or 
modification. However, with each of these pieces of legislation, the 
Congress has never found or suggested that the law enforcement 
community, in general, or the FBI, as an agency, in particular, was 
abusing the electronic surveillance authorities.
    Further, in recent years, it has become somewhat commonplace for 
members of the Congress to request a visit to the FBI's Engineering 
Research Facility (ERF) to permit themselves and/or their staff to 
understand FBI surveillance methodologies, etc., better. Beyond these, 
every year the Administrative Office of the United States Courts sends 
to the Congress the yearly "Wiretap Report" which specifies Federal, 
State, and local law enforcement's Title III electronic surveillance 
activities. Likewise, and also pursuant to Federal statute, every year 
the Department of Justice submits to the Congress a report regarding 
the use of pen register and traps and traces conducted by law 
enforcement agency components within the Department. Further, several 
years ago, as a part of the Anti-terrorism and Effective Death Penalty 
Act of 1996, the Congress requested a Report from the Department of 
Justice which was to specifically include a review of any abuse in law 
enforcement's conduct of electronic surveillance. In the Report 
submitted by the Department of Justice, it was pointed out that law 
enforcement errancy in this area was rare, and did not suggest any 
significant problem. In particular, there was no citation as to abuse 
by the FBI.
    At this point, it may be useful to briefly discuss another vital 
component in the overall electronic surveillance/Carnivore mix: the FBI 
personnel who use it.
    In this regard, the Committee would truly be missing a significant 
part of the story if we failed to point out the quality of the FBI 
personnel involved and the ways in which they perform their tasks. To 
begin with, to become and FBI employee requires a substantial showing 
of trustworthiness, lawfulness, and personal and professional 
intergrity--all of which must be demonstrated through the conduct of an 
extensive and very thorough national security-level background 
investigation. To be sure, the structure of the FBI would quickly 
collapse if the agency and all of its onboard employees could not trust 
without reservation its new employees. And the FBI certainly does not 
recruit honest and law-abiding people only to turn around and employ 
them in corrupt and dishonest ways. Indeed, in contrast with the 
requirements placed upon many of the personnel employed by 
telecommunications and computer network service providers (who may have 
some role in implementing electronic surveillance orders), all FBI 
employees are specifically sworn to uphold the Constitution, obey the 
law, and to faithfully execute the laws of the land.
    Of course, and as noted above, it is emphasized to all FBI 
employees that any type of illegal electronic surveillance would be a 
serious violation of the law--a federal felony, thereby subjecting the 
employee to criminal prosecution, civil liability, and termination. 
Further, FBI employees are made to fully understand that any unlawful 
surveillance will likely lead to the suppression of any and all tainted 
evidence and any evidence or fruits derived therefrom. In short, it is 
made clear that any such unlawful behavior will not be tolerated.
    All FBI personnel involved in conducting electronic surveillance 
are thoroughly and specifically trained about the Federal electronic 
surveillance laws. This is particularly so for the FBI Technically 
Trained Agents (TTAs) who receive specialized training in the conduct 
of electronic surveillance, including legal instruction, at the FBI's 
Engineering Research Facility (ERF) in Quantico, Virginia. This 
training weds together the black letter law with the ``hands on'' 
technical level implementations of electronic surveillance. Moreover, 
FBI personnel involved in electronic surveillance are involved in 
ongoing consultation with attorneys from the FBI's Office ofthe General 
Counsel, the FBI Field Office's Chief Division Counsel, the Department 
of Justice, and the Offices of United States Attorneys.
    Access to and the use of FBI electronic surveillance equipment is 
controlled administratively, and usually requires a trained specialist 
to operate it. Hence, the large pool of FBI Special Agents and support 
employees never have access to, or competency in the use of, such 
highly-specialized pieces of surveillance equipment.
    In sum, over the last 32 years, the FBI's record of properly 
conducting court authorized electronic surveillance is a very good 
one--one that we believe should command the trust of the public and the 
Congress.
    With regard to Carnivore, it is a relatively new electronic 
surveillance tool, and has only been used within the last two years. 
Trust in the FBI's use of Carnivore, we believe, should at least in 
part rest upon the FBI's openness and willingness to discuss this 
device. Indeed, perhaps the most telling fact about Carnivore, as an 
electronic surveillance tool, is that in an unprecedented fashion, the 
FBI has shared with numerous entities in the public Carnivore's (and/or 
some of its technical counterparts') purpose and basic functionality--
long before any concerns were raised and before any Congressional 
hearings were scheduled.
    Ironically, the most central fact and aspect of the entire matter 
has gotten lost: that the FBI has spent a considerable amount of time, 
money, and energy in developing an electronic surveillance tool with 
the exclusively laudable purposes of better satisfying the 
Constitutional standard of particularity, the Title III and ECPA 
precepts of minimization, as well as the legal, privacy-based, and 
societal concerns associated with careful, precise, and lawful 
surveillance efforts.
    As the Committee may be aware, the FBI has briefed a wide-ranging 
variety of entities: governmental attorneys, leading ISPs, leading 
Information Technology (IT) companies, leading telecommunications 
service providers, academic labs, and software manufacturers as to the 
functionality of the Carnivore system. Hence, if, for the sake of 
argument, the FBI had ever possessed any untoward intentions, in terms 
of using Carnivore in a stealthy, illegal, or abusive way, it certainly 
went about pursuing them in the wrong way. In fact, the FBI's openness 
with regard to Carnivore should, in and of itself, properly and 
reasonably instill public confidence and trust, notwithstanding that 
some of its detractors may disagree with some aspect of Carnivore.
    Of course, with regard to Carnivore, the same strict personnel, 
legal, training, and security practices apply. Further, given that 
relatively few of these devices are even available throughout the 
entire FBI, those in existence are under the custody and control of but 
a few FBI technically-trained personnel.
    Finally, the FBI, in concert with the Department, has welcomed a 
review of the Carnivore system. The FBI believes that when all is said 
and done the FBI and the Carnivore device will receive a clean bill of 
health, and thereby hopefully more fully instill public confidence and 
trust in this important and critically needed investigative tool.
Conclusion
    In conclusion, I would like to say that over the last ten years or 
more, we have witnessed a continuing, steady growth in computer and 
Internet-related crimes, including extremely serious acts in 
furtherance of terrorism, espionage, infrastructure attack, as well as 
the more conventional serious and violent crimes, to include child 
pornography and exploitation. These activities which have been planned 
or carried out, in part, using computers and the Internet pose 
challenges to the U.S. law enforcement community that we dare not fail 
to meet. In turn, the ability of the law enforcement community to 
effectively investigate and prevent these serious crimes is, in part, 
dependent upon our ability to lawfully and effectively intercept and 
acquire vital evidence of these crimes, and our ability to promptly 
respond to these harms that so threaten the American public. As the 
Internet becomes more complex, so too do the challenges placed upon us 
to keep pace. Without the continued cooperation of our industry 
partners and important technological innovations such as the Carnivore 
system, such a task would be futile.
    I look forward to working with the Committee staff to provide more 
information and welcome your suggestions on this important issue. I 
will be happy to answer any questions that you may have. Thank You.

    The Chairman. Thank you so much.
    Mr. Di Gregory, we will turn to you.

                STATEMENT OF KEVIN V. DI GREGORY

    Mr. Di Gregory. Thank you, Mr. Chairman. Thank you for 
allowing me the opportunity to testify about electronic 
surveillance and privacy in the digital age.
    We have seen, as you have already noted, the Internet 
flourish over the last 10 years. In that relatively short 
period of time, it has created vast benefits for citizens, 
businesses and governments, and appears to hold boundless 
promise. The Internet has spurred a new economy, and many 
businesses have been built and people employed through Internet 
sales of products and services.
    Others have assisted in building, maintaining and improving 
the Internet itself. The Internet has given people jobs, 
supported families and communities, and created new 
opportunities for commerce for America and the world. The 
Internet has touched our working lives, our social lives, and 
our family lives.
    As we have seen throughout history, however, there are 
those who would use powerful tools like the Internet to inflict 
harm on others. The Internet has not escaped this historical 
truth. Even in the Internet's relatively short existence, we 
have seen a wide range of criminal use of this technology. It 
has been used to commit traditional crimes against an ever 
widening number of victims. There are also those criminals 
intent on attacking and disrupting computers, computer 
networks, and the Internet itself.
    In short, although the Internet provides an unparalleled 
opportunity for Americans to freely express ideas and conduct 
business and government, it also provides a very effective 
means for ill-motivated persons to breach the privacy and 
security of others.
    Many of the crimes that we confront everyday in the 
physical world are beginning to appear in the online world. 
Crimes like death threats, extortion, fraud, and child 
pornography are migrating to the Internet at a startling pace. 
The fourth amendment and laws addressing privacy and public 
safety serve as a framework for law enforcement to respond to 
this new forum for criminal activity.
    If law enforcement fails properly to respect individual 
privacy in its investigative techniques, the public's 
confidence in government will be eroded, evidence will be 
suppressed, and criminals will elude successful prosecution. If 
law enforcement is too timid in responding to cyber crime, 
however, we will, in effect, render cyberspace a safe haven for 
criminals and terrorists to communicate and carry out crime 
without fear of authorized government surveillance.
    If we fail to make the Internet safe, people's confidence 
in using the Internet and in e-commerce will decline, 
endangering those very benefits brought about by the 
information age. Proper balance is the key. Despite the fervor 
over the unfortunately named Carnivore, the truth of the matter 
is that Carnivore was created to provide us with a tool to help 
us enforce the laws and preserve the privacy of our citizens.
    To satisfy our obligations to the public to enforce the 
laws and preserve public safety, we use the same sorts of 
investigatory techniques and methods online as we do in the 
physical world, with the same careful attention to the strict 
constitutional and legal limits which apply. We must have an 
investigatory tool that helps us to investigate online in the 
same way as in the physical world, and enables us to obtain 
only the information we are authorized to obtain through a 
court order.
    For example, if a man is suspected of luring children for 
sex, law enforcement must determine with whom the suspect is 
communicating. In the recent past, such communications would 
have been carried out exclusively by telephone. To find out who 
the suspect is communicating with, law enforcement would obtain 
an order from a court authorizing the installation of a trap 
and trace and a pen register device, and either the telephone 
company or law enforcement would have installed the device to 
comply with the court's order.
    Thereafter, the source and destination of the calls would 
have been recorded. This is information that the Supreme Court 
has held in Smith v. Maryland is not subject to any reasonable 
expectation of privacy. Given the personal nature of the 
information, however, Congress required the Government to 
obtain an order under these circumstances. In this way, privacy 
is protected and law enforcement is able to conduct its 
investigation in its efforts to protect the public.
    Nowadays, that same suspect is more likely to operate 
through e-mail or other kinds of online communications. In 
attempting to investigate the criminal activity, law 
enforcement can apply to a court for an order to obtain in real 
time the e-mail addresses of those persons with whom the 
suspect is communicating through or by e-mail.
    Law enforcement needs to be able to quickly identify the 
source and destination of such e-mails to fulfill its 
obligations to the victims, in particular, and to the public 
generally. In the event that the investigation requires viewing 
the content of the e-mail, even just the subject line, then law 
enforcement must comply with the strict internal FBI and 
Department guidelines and the provisions of Title III of the 
Omnibus Crime Control and Safe Streets Act of 1968.
    When law enforcement uses a trap and trace, pen register, 
or a title III order in the online context, however, we have 
found that at times the Internet service provider has been able 
or even unwilling to supply the information we need. It is for 
that narrow set of circumstances that the FBI needs effective 
online investigative tools.
    Law enforcement cannot abdicate its responsibility to 
protect public safety simply because technology has changed. 
Rather, we believe the public rightfully expects that law 
enforcement will continue to be effective as criminal activity 
migrates to the Internet. Where the service provider cannot or 
will not comply with a court order to reveal addressing 
information or content of electronic communications, law 
enforcement must have some mechanism to obtain that 
information. It must have a tool that can obtain the 
information authorized by the court order, and I say again only 
that information authorized by the court order.
    The tool should be configurable so that, for example, it 
can be set to gather only the e-mail addresses of those persons 
with whom the suspect is communicating without any human being 
either from law enforcement or the service provider viewing the 
private information that is outside of the scope of the court 
order. Such a tool automatically reduces the data collected to 
only that permitted by the court, thus allowing law enforcement 
strictly to comply withthe order and safeguarding the privacy 
of information outside the order.
    The FBI created Carnivore to be such a tool. We have 
numerous mechanisms in place to prevent possible misuse of 
electronic surveillance tools. The fourth amendment, of course, 
restricts what law enforcement can do with the software, as do 
the statutory requirements of title III and the Electronic 
Communications Privacy Act. And, further, implementing orders 
of the courts will restrict us and will prevent possible misuse 
of electronic surveillance tools.
    For Federal title III applications, as you know, the 
Justice Department imposes its own guidelines on top of the 
privacy protections provided by the Constitution, statutes, and 
the courts. For example, before Carnivore can be used to 
intercept wire or electronic communications, with the limited 
exception of digital display pagers, the requesting 
investigative agency must obtain approval for the title III 
application from the Department of Justice.
    Specifically, the Office of Enforcement Operations in the 
Criminal Division of the Department reviews each proposed title 
III application to ensure that the interception satisfies 
fourth amendment requirements and is in compliance with 
applicable statutes and regulations. If the proposal clears the 
Office of Enforcement Operations, approval must generally be 
given then by a Deputy Assistant Attorney General in the 
Criminal Division. Typically, investigative agencies such as 
the FBI have similar but separate internal approval 
requirements.
    If the investigative agency and the Department of Justice 
approve a Federal title III request, it still must, of course, 
be approved by the proper court using familiar but exacting 
standards. By statute and internal departmental regulation, the 
interception may last no longer than 30 days without an 
extension by the court. Courts, as I alluded to earlier, often 
impose their own additional requirements.
    In addition, the remedies for violating title III or ECPA 
by improperly intercepting electronic communications include 
criminal sanctions and civil suits. For violations of the 
fourth amendment, of course, the remedy of suppression is also 
available.
    We recognize that notwithstanding the limited use of the 
software and the many protections in place, concerns remain 
about the computer program Carnivore. To address those 
concerns, the Attorney General has asked, as you have noted, 
Mr. Chairman, for an independent technical review of Carnivore 
to evaluate whether it performs the functions it was designed 
to perform, and does so without any greater threat to privacy 
or to the smooth operation of private service providers than 
would be posed by any other system that allows compliance with 
the law related to court-ordered interceptions.
    The technical reviewers will have whatever access they need 
to discharge their responsibilities, and their report will be 
made public to the maximum extent that is consistent with 
otherwise applicable law or contractual obligations and with 
preserving the continued effectiveness of the software.
    The report will also be reviewed by a high-level Department 
panel, chaired by the Assistant Attorney General for the 
Justice Management Division, Mr. Stephen Colgate, and including 
the Attorney General's chief science and technology officer; 
the Department's chief privacy officer; the Assistant Director 
of the FBI in charge of the Bureau's laboratory Division, Dr. 
Kerr; and a representative of the Department's Criminal 
Division. That panel will consider the positions of interested 
parties, such as industry and privacy groups, concerning the 
technical review and will report to the Attorney General.
    Mr. Chairman, thank you again for allowing me this 
opportunity to address our efforts to fight crime on the 
Internet and preserve the privacy rights conferred by the 
fourth amendment and statutes. The need to protect the privacy 
of our citizens from criminals, as well as the Government, is 
the paramount consideration in all our activities. The public 
is undoubtedly concerned about their online privacy and the 
potential for criminals, private industry and the Government to 
infringe upon it.
    The public is also deeply concerned, we believe, about 
their safety and security when exploring and using the ever-
expanding reaches of the Internet. By deterring and punishing 
those criminals who violate individual privacy, ensuring the 
ability of law enforcement to fight cyber crime both promotes 
safety and security of Internet users and enhances user 
privacy. The Department of Justice stands ready to work with 
the members of this committee and others to achieve these 
important goals.
    Mr. Chairman, that concludes my prepared statement. We have 
provided the committee with my full written statement, and 
thank you very much. Hopefully, later, we will be able to 
answer any questions you or Senator Leahy may have.
    [The prepared statement of Mr. Di Gregory follows:]

               Prepared Statement of Kevin V. Di Gregory

    Mr. Chairman and Members of the Committee, I appreciate your 
providing me with this opportunity to testify about the computer 
program ``Carnivore.'' This Committee has previously heard from Deputy 
Attorney General Eric Holder and Assistant Attorney General for the 
Criminal Division James K. Robinson and concerning cybercrime issues. 
We are pleased to continue to participate in this very important 
dialogue today, and to address the imperative of protecting individual 
privacy on the Internet from unwarranted governmental intrusion, and 
the critical role the Department plays to ensure that the Internet is a 
safe and secure place for our citizens.
Privacy and the Obligation to Provide Public Safety
    Our obligation to the public to enforce the laws is not limited to 
activities in the physical world; our responsibilities to the citizens 
to preserve their safety continues where illegal conduct is committed 
on-line or facilitated by the Internet. The public rightfully expects, 
for example, that law enforcement will investigate and prosecute child 
molesters who prey on children using electronic mail or other Internet 
communications tools.
    Similarly, of course, the duty of law enforcement to preserve 
privacy does not end where the Internet begins. The Fourth Amendment 
protects the rights of our citizens as we go on-line to work, learn and 
explore the Internet, just as the Fourth Amendment protects rights in 
the physical world. The goal of the Department is long-honored and 
noble: we must preserve the privacy of our citizens while protecting 
their safety. History has taught us, and our founding fathers 
recognized, that our citizens' liberty cannot thrive unless we can 
investigate, apprehend and prosecute those who engage in criminal 
conduct. At the same time, however, our founding fathers abhorred the 
disregard and abuse of privacy by the government in England. Privacy 
and public safety can be at odds in certain circumstances. The founders 
of this nation adopted the Fourth Amendment to address those 
situations. Under the Fourth Amendment, the government must demonstrate 
probable cause to a neutral magistrate before obtaining a warrant for a 
search, arrest, or other significant intrusion on privacy.
    Congress and the courts have also recognized that less intrusive 
investigate steps should be permitted under a less exacting threshold. 
The Electronic Communications Privacy Act establishes a three-tier 
system by which the government can obtain stored information from 
electronic communication service providers. In general, the government 
needs a search warrant to obtain the content of unretrieved 
communications (like e-mail), a court order to obtain transactional 
records, and a subpoena to obtain information identifying the 
subscriber. See Sec. Sec. 18 U.S.C. 2701-11.
    In addition, to obtain information identifying who is sending or 
receiving communications to or from a particular suspect, the 
government must obtain a ``trap and trace'' or ``pen register'' court 
order authorizing the recording of such information. See 18 U.S. 3121 
et seq.
    Because of the privacy values it protects, the wiretap statute, 18 
U.S.C. Sec. Sec. 2510-22, commonly known as Title III, places a higher 
burden on the real-time interception of oral, wire and electronic 
communications than even the Fourth Amendment requires. To listen to or 
record communications as they are happening, law enforcement must 
obtain a court order unless one of the specified statutory exceptions 
applies. To obtain such an order, the government must show that normal 
investigative techniques for obtaining the information have or are 
likely to fail are too dangerous, and that any interception will be 
conducted so as to ensure that the intrusion is minimized. The Fourth 
Amendment and statutory restrictions on government access to 
information do not prevent effective law enforcement. Rather, they 
provide boundaries for law enforcement, clarifying what is acceptable 
evidence gathering and what is not.
    Often, our obligations to enforce the law and our goal to preserve 
privacy are in complete harmony, such as when we apprehend and 
prosecute a criminal who has hacked into a computer containing the 
confidential records of others. In those instances where there is 
tension, we must find a proper balance. Law enforcement has a critical 
role to play in preserving privacy against intrusions by others. 
Although the primary mission of the Department of Justice is law 
enforcement, Attorney General Reno and the entire Department understand 
and share the legitimate concerns of all Americans with regard to 
personal privacy. If the Internet is to thrive and citizens' confidence 
in the Internet is to remain high, we can abandon neither the goal of 
on-line privacy nor the goal of public safety.
    The Department has been and will remain committed to protecting the 
privacy rights of individuals. We look forward to working with Congress 
and other concerned individuals to address these important matters in 
the months ahead.
            Keeping the Peace in Cyberspace
    Although the Fourth Amendment is over two centuries old, the 
Internet as we know it is stillin its infancy. The huge advances in 
communications technology over the past decade have forever altered the 
landscape of society worldwide. The Internet provides a new forum in 
which citizens can communicate, transfer information, engage in 
commerce, play and expand their educational opportunities. These are 
but a few of the wonderful benefits of this rapidly evolving 
technology. As has happened to every major technological advance, 
however, we are seeing individuals and groups use the Internet to 
commit crimes. As the Department has noted in the past, this nation's 
vulnerability to computer crime is astonishingly high and threatens not 
only economic prosperity, but the privacy of our citizens and our 
country's critical infrastructure.
    Many of the crimes that we confront everyday in the physical world 
are migrating to the on-line world. Crimes like death threats, 
extortion, fraud and child pornography have migrated with startling 
speed to the Internet. The Fourth Amendment and laws addressing privacy 
and public safety serve as the framework for law enforcement to respond 
to this new forum for criminal activity. If law enforcement fails 
properly to respect individual privacy in its investigate techniques, 
the public's confidence in government will be eroded, evidence will be 
suppressed, and criminals will elude successful prosecution. If law 
enforcement is too timid in responding to cybercrime, however, we will, 
in effect, render cyberspace a safe haven for criminals and terrorists 
to communicate and carry out crime, without fear of authorized 
government surveillance. If we fail to make the Internet safe, people's 
confidence in using the Internet and e-commerce will decline, 
endangering the very benefits brought by the Information Age. Proper 
balance is the key.
     To meet our responsibilities to the public to enforce the laws and 
preserve the safety, we use the same sorts of investigative techniques 
and methods on-line as we do in the physical world, with the same 
careful attention to the strict constitutional, statutory, internal and 
court-ordered boundaries.
    For example, if a man is suspected of luring children for sex, law 
enforcement must determine with whom the suspect is communicating. In 
the recent past, such communications would have been carried out 
exclusively by telephone. To find out who the suspect is communicating 
with, law enforcement would obtain an order from a court authorizing 
the installation of a ``trap and trace'' and a ``pen register'' device, 
and either the telephone companyor law enforcement would have installed 
these devices to comply with the court's order. Thereafter, the source 
and destination of calls would have been recorded. This is information 
that the Supreme Court has held is not subject to any reasonable 
expectation of privacy. Given the personal nature of this information, 
however, the law requires government to obtain an order under these 
circumstances. In this way, privacy is protected and law enforcement is 
able to investigate to protect the public.
     Now, that same suspect is more likely to operate through e-mail or 
other kinds of online communications. In attempting to investigate the 
criminal activity, law enforcement can apply to a court for an order to 
obtain in real time the e-mail addresses of those persons with whom the 
suspect is communicating through or by e-mail. Law enforcement needs to 
be able to quickly identify the source and destination of such e-mails 
to fulfill its obligations to the victims in particular and the public 
generally. In the event that the investigation requires viewing the 
content of the e-mail--even just the subject line--then law enforcement 
must comply with strict internal FBI and Department guidelines, and the 
provisions of Title III of the Omnibus Crime Control and Safe Streets 
Act of 1968, 18 U.S.C. Sec. Sec. 2510-2521.
    At times, Internet service providers may be unable to use their own 
technology to comply with court orders directing them to supply source 
and destination information or the content of communications. Law 
enforcement cannot abdicate its responsibility to protect public safety 
simply because technology has changed. Rather, the public rightfully 
expects that law enforcement will continue to be effective as criminal 
activity migrates to the Internet.
    It is for such narrow set of circumstances that the FBI designed 
``Carnivore.'' When a criminal uses e-mail to send a kidnaping demand, 
to buy and sell illegal drugs or to distribute child pornography, law 
enforcement needs to know to whom he is sending messages and from whom 
he receives them. To get this information, we obtain a court order, 
which we serve on the appropriate service provider. Because of the 
nature of Internet communications, the addressing information (as 
opposed to the content of the communication itself) is often mixed in 
with other non-content data that we have no desire to gather. If the 
service provider can comply with the order and provide us with only the 
addressing information required by court order, it will do so and we 
will not employ any investigative tool.
    Where the service provider cannot or will not comply with a court 
order to reveal addressing information or content of electronic 
communications, law enforcement must have some mechanism to obtain the 
information. It must have a tool that can obtain the information 
authorized by court order, and only that information. The tool should 
be configurable such that, for example, it can be set to gather only 
the e-mail addresses of those persons with whom the kidnapper is 
communicating, without allowing any human being, either from law 
enforcement or the service provider, to view private information 
outside of the scope of the court's order. Such a tool automatically 
reduces the data collected to only that permitted by the court, thus 
allowing law enforcement strictly to comply with the order, and 
safeguarding the privacy of information outside the order. The FBI 
created Carnivore to be such a tool.
    We have numerous mechanisms in place to prevent possible misuse of 
electronic surveillance tools. The Fourth Amendment, of course, 
restricts what law enforcement can do with the software, as do the 
statutory requirements of Title III and the Electronic Communications 
Privacy Act, and the implementing orders of the courts.
    For federal Title III applications, the Department of Justice 
imposes its own guidelines on top of the privacy protections provided 
by the Constitution, statutes and the courts. For example, before 
Carnivore may be used to intercept the content of communications, the 
requesting investigative agency must obtain approval from the 
Department of Justice asking a court for a Title III order. The Office 
of Enforcement Operations in the Criminal Division of the Department 
reviews each proposed Title III application to ensure that the 
interception satisfies the protections of the Fourth Amendment and 
complies with applicable statutes and regulations. Even if the proposal 
clears the OEO, the application cannot go to to a court without 
approval by a Deputy Assistant Attorney General or higher-level 
official in the Department. Although this requirement of high-level 
review is required by Title III only with regard to proposed intercepts 
of wire and oral communications, the Department voluntarily imposes the 
same level of review for proposed interceptions of electronic 
communications (except digital-display pagers). Typically, 
investigative agencies such as the Federal Bureau of Investigation have 
similar internal requirements, separate and apart from Constitutional, 
statutory or Department of Justice requirements.
    If the investigative agency and the Department of Justice approve a 
federal Title III request, it still must, of course, be submitted to 
and approved by a court of proper jurisdiction. The court will evaluate 
the application under the Fourth Amendment and using the familiar 
standards of Title III. By statute, for example, the application to the 
court must show, through sworn affidavit, why the intercept is 
necessary as opposed to other less-intrusive investigative techniques. 
The application must also provide additional detail, including whether 
there have been previous interceptions of communications of the target, 
the identity of the target (if known), the nature and location of the 
communications facilities, and a description of the type of 
communications sought and the offenses to which the communications 
relate. By statute and internal Department regulation, the interception 
may last no longer than 30 days without an extension by the court.
    Courts also often impose their own requirements. For example, many 
federal courts require that the investigators provide periodic reports 
setting forth information such as the number of communications 
intercepted, steps taken to minimize irrelevant traffic, and whether 
the interceptions have been fruitful. The court may, of course 
terminate the interception at any time.
    The remedies for violating Title II or ECPA by improperly 
intercepting electronic communications can include criminal sanctions, 
civil suit, and for law enforcement agents, adverse employment action. 
For violations of the Fourth Amendment, of course, the remedy of 
suppression is also available.
    The Justice Department and law enforcement across this nation are 
committed to continuing to work together and with their counterparts in 
other countries to develop and implement investigative strategies to 
successfully track, apprehend, and prosecute individuals who conduct 
criminal activity on the Internet. In so doing, the same privacy 
standards that apply in the physical world remain effective online.
    As the Committee is aware, the Administration recently transmitted 
to Congress a legislative proposal addressing various issues relating 
to cyber-security. Two portions of the bill relate directly to today's 
discussion. First, the Administration supports raising the statutory 
standards for intercepting the content of electronic communications so 
they are the same as those for intercepting telephone calls: high-level 
approval, use only in cases involving certain predicate offenses that 
are specified by statute, and statutory suppression of evidence derived 
from improper intercepts. Second, the Administration bill requires 
federal judges to confirm that the appropriate statutory predicates 
have been satisfied before issuing a pen register or trap-and-trace 
order. Those changes would apply to the use of Carnivore, and in 
important respects wouldsimply confirm by statute the policies and 
procedures already followed by the Department of Justice. The 
Administration supports a balanced updating of laws to enhance 
protection of both privacy and public safety, and the bill contains 
important provisions that would be most helpful in the ongoing fight 
against cyber-crime.
    We recognize that, notwithstanding the limited use of the software 
and the many protections in place, concerns remain about the computer 
program. To address those concerns, the Attorney General has asked for 
an independent technical review of Carnivore to evaluate whether it 
performs the functions it was designed to perform, and does so without 
any greater threat to privacy or to the smooth operation of private 
service providers then would be posed by any other system that allows 
compliance with the law relating to court-ordered interceptions. The 
technical reviewers will have whatever access they need to discharge 
their responsibilities, and their report will be made public to the 
maximum extent that is consistent with otherwise applicable law or 
contractual obligations and with preserving the continued effectiveness 
of the software as a law-enforcement tool. The report will also be 
reviewed by a high-level Departmental panel, chaired by the Assistant 
Attorney General for the Justice Management Division and including the 
Attorney General's Chief Science & technology Advisory, the 
Department's Chief Privacy Officer, the Assistant Director of the FBI 
in charge of the Bureau's Laboratory Division, and me. That panel will 
consider the positions of interested parties, such as industry and 
privacy groups, concerning the technical review, and will report to the 
Attorney General.
    Mr. Chairman, the Department of Justice takes privacy concerns 
seriously and takes a proactive leadership role in making cyberspace 
safer for all Americans. The cornerstone of our cybercrime prosecutor 
program is the Criminal Division's Computer Crime and Intellectual 
Property Section, known as CCIPS. Founded in 1991 as the Computer Crime 
Unit, CCIPS became a Section in 1996. CCIPS has grown from five 
attorneys in 1996 to nineteen today, and we need more to keep pace with 
the demand for their expertise. The attorneys in CCIPS work closely on 
computer crime cases with Assistant United States Attorneys known as 
``Computer and Telecommunications Coordinators,'' or CTC's, in U.S. 
Attorney's Offices around the nation. Each CTC receives special 
training and equipment and serves as the district's expert on computer 
crime cases. CCIPS and the CTC's work together in prosecuting cases, 
spearheading training for local, state and federal law enforcement, 
working with international counterparts to address difficult 
international challenges, and providing legal and technical instruction 
to assist in the protection of this nation's critical infrastructes. 
CCIPS also provides its expertise to the public through its Internet 
website, www.cybercrime.gov. We are very proud of the work these people 
do and we will continue to work diligently to help stop criminals from 
victimizing people online.
    I also note that public education is an important component of the 
Attorney General's strategy on combating computer crime. As she often 
notes, the same children who recognize that it is wrong to steal a 
neighbor's mail or shoplift do not seem to understand that it is 
equally wrong to steal a neighbor's e-mail or copy a proprietary 
software or music file without paying for it. To remedy this problem, 
the Department of Justice, together with the Information Technology 
Association of America (ITAA), has embarked upon a national campaign to 
educate and raise awareness of computer responsibility and to provide 
resources to empower concerned citizens. The ``Cybercitizen Awareness 
Program'' seeks to engage children, young adults, and others on the 
basics of critical information protection and security and on the 
limits of acceptable online behavior. The objectives of the program are 
to give children an understanding of cyberspace benefits and 
responsibilities, an awareness of consequences resulting from the 
misuse of the medium and an understanding of the personal dangers that 
exist on the Internet and techniques to avoid being harmed.
            Conclusion
    Mr. Chairman, thank you again for allowing me this opportunity to 
address our efforts to fight crime on the Internet and preserve the 
privacy rights conferred by the Fourth Amendment and statute. The need 
to protect the privacy of our citizens from criminals as well as the 
government, is a paramount consideration in all our activities. The 
public is undoubtedly concerned about their on-line privacy, and the 
potential for criminals, private industry, and the government to 
infringe upon it. The public is also deeply concerned about their 
safety and security when exploring and using the ever-expanding reaches 
of the Internet. By deterring and punishing those criminals who violate 
individual privacy, ensuring the ability of law enforcement to fight 
cyber-crime both promotes the safety and security of Internet users and 
enhances user privacy. The Department of Justice stands ready to work 
with the Members of this Committee and others to achieve these 
important goals.
    Mr. Chairman, that concludes my prepared statement. I would be 
pleased to answer you questions

    The Chairman. Thank you so much.
    Mr. Cerf, we will take your testimony at this time.

                  STATEMENT OF VINTON G. CERF

    Mr. Cerf. Thank you very much, Mr. Chairman. It is a 
pleasure to be here. Good morning, Senator Leahy. It is a 
pleasure to see you again as well.
    I am here representing the Internet Society, although for 
purposes of identification, the chairman is quite correct, I 
also serve as senior vice president at WorldCom for Internet 
Architecture and Technology.
    For many, many years I worked on the Internet, and for a 
long time many of you know that getting the Internet protocol 
out there was an important goal. So I even had a T-shirt made 
to commemorative. It reads ``IP on everything,'' and that is 
what I have been doing for a long time.
    However, the FBI is now confronted with a serious problem 
because now that the Internet protocol is going everywhere, 
everyone wants to put all new applications on top of it. So, as 
a result, we have Internet telephony and television and radio 
and e-mail and World Wide Web. So now I have another T-shirt 
that says ``Everything on IP,'' although one could read this 
``IP Under Everything,'' which is another way of thinking about 
it.
    That is the problem confronting the FBI today, is that 
these communications----
    Senator Leahy. You have made sure this will be the one 
thing that we will remember from this hearing. [Laughter.]
    The Chairman. If you had any guts, you would have worn 
those T-shirts.
    Senator Leahy. Don't encourage him, Mr. Chairman. 
[Laughter.]
    Mr. Cerf. I don't know if I want to go there any further. 
Thank you, Mr. Chairman.
    The Chairman. But I have met a lot of your associates in 
this business and they wear T-shirts.
    Mr. Cerf. My purpose today is entirely technical. I am not 
prepared to, and I don't even consider myself competent to 
speak to the policy side of these questions. But I do want to 
make some attempt to explain how difficult it is to achieve 
what the Carnivore system tries to do, so let me remind you a 
little bit about the Internet.
    First of all, think of the packets that flow through it as 
if they are postcards. Postcards don't necessarily stay in 
order as they go through the Postal Service. This is true on 
the Internet as well. They get lost. In fact, in the Internet 
world sometimes we have to duplicate them in order to get 
reliable delivery to the far end.
    The other thing which is characteristic of the Internet is 
that it works with computers with a lot of software in them and 
the software is structured in layers. So the lowest layer is 
the Internet protocol layer, but there are layers on top of 
that, each one depending on the ones below it for performing 
the functions that achieve reliability or implement things like 
electronic mail.
    So as an example of what happens when someone is sending e-
mail from place to place on the Net, let me start with an 
example. This is a simple little e-mail from Tom Bell to Vinton 
Cerf, and we will pretend like this is the original message 
that--for people back there, there you are. That is the 
original message that is prepared by the sender. But by the 
time the FBI gets a chance to look at it through the Carnivore 
System, what they will see is, in fact, not this message, but 
rather a series of envelopes which I have numbered 1, 2, 3 and 
4.
    They may not see them in this order. They may see them in 
the order 1, 3, 2 and 4, depending on where the Carnivore 
system is actually located in the network. If it is close to 
the source of the messages, then it may actually see them in 
order. But because of retransmissions and other things, you may 
still see them out of order.
    What is more interesting is that when you open up one of 
these Internet packets to see what is in inside, what you 
discover is only a piece of the e-mail that started out as one 
whole message. And, in fact, you may not be able to tell from 
looking inside who it is from or where it is going because not 
all of the message is there. All of the header information that 
says ``to Vint Cerf'' and ``from Tom Bell'' may not be visible 
in the particular packet that you happen to have detected.
    So it is a big challenge for the Carnivore system to have 
its parameters set to filter out only those packets that have 
information in them that is useful to the surveillance. In 
fact, because of the way this system has been implemented, it 
is looking at each packet one at a time. It doesn't assemble 
them together and then look at them. It sees each one as if it 
were through a keyhole.
    As a result, if you don't see enough information in here, 
you will have discard it because you won't, in fact, be able to 
identify it as useful to the surveillance. So they actually 
lose quite a bit of information. They don't see as much as they 
would if they were trying to assemble everything. The result is 
that they will see, for example, a subset of all the messages I 
may send and receive to someone as e-mail.
    If, on the other hand, they are permitted to record all of 
the information because the court order says they can see 
everything, then after they have captured these packets, you 
can put them back together and examine the complete messages 
and extract from them the part of the information that you are 
permitted to extract.
    Now, in order to do that properly, you are going to 
actually see everything in the message and you will have to 
filter out the part that says ``to'' and ``from'' because the 
physical way in which you pull these things together allows you 
to see the entire thing if you are permitted to see all of the 
traffic. If you are only permitted to see the packets, then you 
will just see those messages that happen to have in them enough 
information to identify this as an e-mail from Vint Cerf to a 
particular target.
    So I would argue that, technically speaking, the Carnivore 
system sees less than would be absolutely allowed in the case 
that they are only permitted to see the ``to'' and ``from'' 
addresses. If, however, they are permitted to see everything, 
they can, in fact, see everything and then have to filter that 
out and discard the portion of the traffic which is not 
relevant.
    Then the other thing that I want to point out, then, is 
that the placement of the Carnivore system is pretty crucial to 
all of this. I would like to make an analogy, if I could.
    Let's imagine for the sake of argument that our postal 
services are done with post office boxes, that we have no home 
addresses, we have no home delivery of postal mail. We all have 
to go to our post office boxes in order to retrieve our 
messages. The Internet behaves a lot like that because the mail 
systems are like post offices that contain postoffice boxes.
    The FBI's problem is that if they were trying to observe 
the traffic going from one party to another, from one post box 
to another, the only thing that they can see is traffic going 
between post offices, not post office boxes. All they get to 
see in the Internet packet is something that says this is the 
Annandale post office and this is the Springfield post office, 
and that is all the traffic they can see. You have to open it 
up and look deeper to figure out from which post office box it 
is going.
    That is why there is such concern that you may be seeing 
more than you are allowed to see. But my understanding of the 
way the Carnivore configuration is set up is it is very limited 
in its ability to capture packets with respect to the ``to'' 
and ``from'' addresses or the equivalent post office box 
addresses.
    So the last thing I would like to point out in this 
discussion is that the technology that allows people to protect 
privacy makes life even harder for the FBI in the course of 
doing this surveillance because if you use what is called end-
to-end cryptography--and there is plenty of that now available 
both domestically and internationally--the object that they had 
to look at that was inside this packet to figure out the ``to'' 
and ``from'' addresses of the mail could be encrypted. As a 
result, the target may not be visible. So this makes the job of 
the FBI even more difficult in the event that end-to-end 
cryptography is used.
    I see that I have overstayed my welcome, but let me stop 
there and say that the FBI's implementation of Carnivore 
attempts, in my estimation, to limit the amount of information 
that is being captured, but it is very, very hard to do that 
successfully, and the cryptography makes their job even more 
difficult.
    I would be happy to answer any questions that may come 
about as a consequence of further discussion at this point. 
Thank you very much.
    [The prepared statement of Mr. Cerf follows:]

                Prepared Statement of Dr. Vinton G. Cerf

    Mr. Chairman, my name is Vinton Cerf. I am present on behalf of the 
Internet Society; a non-profit educational and research institution 
devoted to the continued evolution and spread of the Internet on a 
global basis. For purposes of identification only, I am also senior 
vice present at WorldCom where I am responsible for Internet 
Architecture and Technology, but my testimony today is on behalf of the 
Internet Society where I serve as a trustee. I served a the founding 
president of the Society from 1992 to 1995 and have served on its board 
of trustees since 1992. In 1997, President Clinton awarded the National 
Medal of Technology to me and to Dr. Robert E. Kahn for our roles in 
the invention and implementation of the Internet.
    The purpose of my testimony today is technical. I hope to provide 
you, Mr. Chairman and the other members of the committee with a sense 
for how the Internet works and how the FBI Carnivore system operates 
within the architectural framework of the Internet. I thank you for 
this opportunity to share these technical ideas with you and I hope 
that they will prove to be useful as the committee considers the policy 
implications of the Carnivore technology.
    Let me begin by offering a simple analogy that has proven to be 
helpful in the past to explain some basic principles by which the 
Internet functions. To begin with, the Internet is not a single network 
but, rather a network of networks interlinked on a global scale. The 
precise figure is not known but there are probably on the order of 
300,000 networks, worldwide, interconnected to form the Internet. There 
are an estimated 100 million service computers on the Internet and 
approximately 330 million users. These figures do not include laptops, 
desktops, mobile telephones and Internet-enabled appliances that are on 
the Internet on a sporadic basis. The technology used by the Internet 
to switch data among the computers on the network is called ``packet 
switching'' and is quite different from the technology used to support 
conventional voice telephony services.
    In the traditional voice telephone network, the end devices 
(telephones and fax machines, typically) ``dial'' each other up and the 
network forms end-to-end electronic circuits the pair of communicating 
devices. The connection remains in place until one or the other device 
``hangs up'' or, as occasionally happens, the telephone system 
accidentally disconnects the parties. As far back as 1961, it was 
recognized by a few individuals that a very different mode of operation 
would be appropriate to link networks of communicating computers. That 
technology eventually became known as ``packet switching.''
    In principle, computers communicate with each other in a ``bursty'' 
fashion. That is, they compute for a while and then emit a burst of 
information, then go back to computing. This is particularly true in 
time-shared machines that serve many users concurrently. Each user 
feels as if he or she has the computer resource all to himself or 
herself, but in fact the computer is so much faster than the user, it 
is possible to appear to be a dedicated resource when, in fact, the 
machine serves each user in turn. The service rate is fast enough that, 
most of the time, the sharing is not noticed by users. Of course, if 
the resources of the serving computer are over-subscribed, users may in 
fact find themselves waiting for service.
    A ``packet'' is a brief computer message of perhaps a few thousands 
bits (up to a thousand or so characters) containing some indication of 
the source of the message and the destination in addition to the 
content. The best analogy that I have been able to come up with so far 
is to compare a packets to ordinary post cards.
    Each postcard has a ``from:'' address and a ``to:'' address. So 
does each Internet packet, but the packet addresses are Internet 
addresses that are something like telephone numbers. A postcard has a 
finite amount of content, and so does an Internet packet. When you put 
a postcard into the postal system, it is picked up from the postbox and 
transported to the destination, passing through one or more post 
offices and carried by truck, plane, train, boat or even on foot on its 
way to the destination. Similarly, an Internet packet may be carried 
over optical fiber, telephone twisted pair copper lines, coaxial 
television cables, point to point radio or satellite.
    When you put a postcard into the postal system, there is no 
guarantee that it will come out! The same is true of an Internet 
packet! When you put two postcards into the postal system there is not 
guarantee that they will come out in the same order they went in, even 
if addressed to the same destination. The same is true of Internet 
packets. The Internet does one other thing that the Post Office does 
not do. Occasionally it will deliver duplicate packets to the 
destination--that's not a feature of the U.S. Postal Service, as far as 
I am aware.
    As postcards are routed through the postal service, they are 
forwarded from one post office to another until they reach the 
destination post office after which they are delivered to the target 
address. Devices called ``routers'' serve the same function in the 
Internet as post offices in the sense that they take in packets 
andforward them from router to router until the destination is reached.
    The Internet uses what is called the Internet Protocol to forward 
packets between computers in what is, effectively, a kind of computer 
post card service. A ``protocol'' is simply a set of conventions and 
formats used to achieve communications. The postal service dictates 
that addresses take a certain format and occupy certain places in a 
postcard--Internet packets have their own format and procedures for 
being injected into and taken out of the Internet. The standards and 
procedures used by the Internet are essentially developed by a body 
called the Internet Engineering Task Force and the architecture of the 
Internet is looked after by the Internet Architecture Board. These two 
groups operate under the auspices of the Internet Society.
    There is more, however, to Internet than the basic Internet 
Protocol (the electronic postcard system). The Internet architecture is 
called a ``layered'' system because there are actually several layers 
of procedures. Each higher level procedure or protocol relies on the 
lower level protocol(s) to perform basic functions. One sometimes hears 
or reads the expression ``TCP/IP'' in association with the Internet. 
TCP stands for Transmission Control Protocol and IP stands for Internet 
Protocol. These are the two basic protocols that Bob Kahn and I began 
working on in 1973 and they form the basis of the Internet as we know 
it today. The Internet Protocol was designed to operate on top of 
virtually any digital transmission and switching system and, in fact, I 
have had a T-shirt made to emphasize this notion. The T-shirt reads 
``IP on Everything''!
    The Internet Protocol, as you should now realize, does not 
guarantee the reliability of the packets it transports, nor does it 
assure ordering, or the path over which the packets are transported. 
But there are a great many applications that require these features, 
and more, to function successfully. The Transmission Control Protocol 
(TCP) was designed to make up for the deficiencies of the Internet 
Protocol by keeping things in sequence, recovering from loss and 
filtering out duplicates.
    To see how TCP does this, another analogy is useful. Let us suppose 
that Senator Hatch wants to send a book to Senator Leahy by means of a 
postal service that can only carry postcards. How would he set about 
accomplishing this task? He would first have to remove pages of the 
book and cut them up to fit on post cards. Then he would notice that 
not every postcard had a page number so Senator Leahy might have 
difficulty piecing the post cards back in the right order, so he would 
decide to number each page. Then he would remember that not all the 
postcards would necessarily reach Senator Leahy, so he would keep 
copies of them in case duplicates had to be sent. Then he would wonder 
how he would know when to send duplicates. Senator Leahy might then 
think of a good idea: he would occasionally send a postcard back to 
Senator Hatch to say that he'd gotten every postcard up to, say, number 
402. But then Senator Leahy would remember that his postcard might not 
reach Senator Hatch. At this point, both Senators would conclude that 
Senator Hatch will have to have some kind of time-out, after which he 
would begin sending copies of postcards that had not been acknowledged, 
until he receives confirming postcards from Senator Leahy. Finally, 
Senator Leahy would remind Senator Hatch that his mailbox can hold only 
a finite number of postcards. If the book Senator Hatch wants to send 
turns into 1000 postcards but Senator Leahy's mailbox can only hold 200 
at a time, both Senators might conclude that if by a miracle, the US 
Post Office actually delivered all 1000 postcards at the same time, 
some of them might get lost if they didn't fit into Senator Leahy's 
mailbox. This would lead them to conclude that they should agree that 
Senator Hatch won't send more than 200 postcards at a time and would 
not have more than that ``outstanding'' until Senator Leahy has 
confirmed their receipt.
    Well, in principle, that is the way the TCP protocol turns the 
simpler Internet Protocol into a reliable, sequenced and flow-
controlled service. This isn't quite the way in which Bob Kahn and I 
developed the TCP but it isn't very far away from the basic reasoning!
    At this point, it is possible to explain how the FBI`s Carnivore 
observation system makes use of the Internet and to outline the 
limitations of its operation. In this brief exposition, I will assume 
that the Senate Judiciary Committee members are well-acquainted with 
the legal basis on which the FBI occasionally is granted permission to 
intercept domestic communications in the course of enforcing the laws 
of the United States. As I understand the law, such surveillance is 
carried out only after the conduct of judicial proceedings intended to 
assure that any such surveillance is documented and justified. In the 
past, such surveillance has been associated with the interception of 
telephone-based communications but just like the rest of the citizens 
of the United States, law-breakers are making increasing use of 
electronic mail and other kinds of Internet-based communication, 
including such things as chat rooms, in the conduct of their 
activities.
    The FBI, in recognition of this trend, has developed new methods of 
observing computer-based communications and one such system has been 
named ``Carnivore.''
    To understand what Carnivore is and how it works, we need to take 
one more foray into the world of analogies. I mentioned earlier that 
the Internet architecture is ``layered''--that is, it consists of a 
number of different protocols each one layered on top of the other and 
each layer relying on the one below it for certain functions. For 
example, the Internet Protocol layer that performs the forwarding of 
packets relies on the lower levels to actually transport the bits of 
information that make up each packet. The TCP layer relies on the 
Internet Protocol to deliver packets, and TCP makes sure they are put 
back in order and retransmitted if any are lost. The electronic mail 
service has its own protocol (called Simple Mail Transport Protocol or 
SMTP) and that service makes use of TCP. It turns email messages into 
TCP streams of data that are broken up into Internet packets and sent 
by varying paths toward the destination where the packets are 
reassembled first into a sequenced stream of information by TCP and 
parsed into messages again by the SMTP.
    The layered architecture is mirrored in the implementation of the 
software that uses the protocols. The email client software that is 
used to compose email produces the text of messages that look something 
like:

Date: Tue, 05 Sep 2000 19:27:05 +0100
From: <tom.bell@wcom.co.uk>
Subject: Thank you
To: <Vinton.G.Cerf@wcom.com>

    Dear Sir,

I would like to thank you for the very useful information that you 
included in reply to my request.

            Sharon Bell

    This text is to be sent to the electronic mail box of user 
Vinton.G.Cerf on the computer on the Internet that has the ``domain 
name'' wcom.com (``To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e0b6898e948f8ecea7cea3859286a0978f8dce838f8d">[email&#160;protected]</a>''). However, the email 
composition program knows that the TCP service does not know where 
computer ``wcom.com'' is on the Internet. So it ``looks up'' the name 
of this computer in a distributed directory called the Domain Name 
System, and discovers that the Internet address of this computer is: 
204.176.69.71. You can think of this as a kind of Internet telephone 
number forpurposes of this exercise.
    The email composition program creates a kind of envelope that it 
addresses to 204.176.69.71, puts a return address of the Internet 
address of the computer that is sending the email, say 170.127.34.16, 
and places the email message in the envelope. In spirit, the envelope 
looks something like:

From: 170.127.34.16
To: 204.176.69.71

(Attention: For the SMTP service via the TCP program)

    The TCP program takes this envelope and cuts it into pieces 
(including the contents!!) and sends the pieces in smaller envelopes 
that are addressed, again by analogy:

From: 170.127.34.16
To: 204.176.69.71

(Attention: for the TCP Program via the Internet Protocol)

    These smaller envelopes function like the Internet Postcards that 
were introduced in the earlier part of this testimony. They are sent 
through the series of computers we call ``routers'' that serve in the 
same fashion as post offices, to forward the traffic by potentially 
different paths to the destination.
    At the destination computer (``wcom.com''), the process is reversed 
and the small Internet Protocol envelopes are opened, the contents 
reassembled by the TCP program into a message and the result is handled 
to the SMTP receiving program. That program puts the received message 
away in the mailbox associated with Vinton.G.Cerf on the wcom.com 
computer. Later, when user Vinton.G.Cerf runs the email reading and 
composition program he will be able to see the message and to respond 
to it.
    The important concept to take away from these preliminary remarks 
are:
          1. The concept of packets (``postcards'');
          2. The idea that packets do not always stay in order, may be 
        lost, and may even travel on distinct paths through the 
        Internet;
          3. The understanding that there are tens of thousands of 
        Internet Service Providers around the world operating hundreds 
        of thousands of networks that make up the Internet and that 
        traffic may flow through a number of such networks as it flows 
        from source to destination; and
          4. The concept of layering and the notion that each layer 
        ``envelopes'' the information generated by the layer above and 
        that anyone observing traffic on a particular circuit that 
        carries Internet packets will actually be observing pieces of 
        messages (or files or bits of digitized sound) carried in the 
        small Internet Protocol envelopes.
    The Carnivore system is a computer that tries to observe the 
traffic (Internet packets) flowing on a circuit within the Internet. 
Its objective is to try to find only those packets that may be relevant 
to an ongoing investigation and to ignore theirs (both for legal 
reasons and simply to deal with the potentially enormous flow of 
traffic that may require filtering). It's a bit like trying to find a 
particular shrimp in the intake of a baleen whale!
    The physical location of the Carnivore computer is important. If it 
is observing traffic somewhere in the middle of the Internet, it may 
not even see all the packets that correspond to a particular exchange 
between computers or even a complete transmission from one computer to 
another. One could try to place Carnivore computers at different 
locations in the Internet, hoping to catch all the requisite traffic 
but in fact, the only way to achieve reasonable success is to locate 
the Carnivore computer so it can observe all the traffic going to and 
from the computer under observation. That may mean locating the 
Carnivore computer where it can see everything going into and out of 
the location of the subject of surveillance, watching all traffic going 
to and from the subject's laptop or desktop, or locating the Carnivore 
computer at the Internet Service Provider who serves that subject and 
placing it in such a way that the traffic going to and from the 
subject's email server computer can be observed.
    Furthermove, since the Carnivore looks at each individual Internet 
packet and does not perform reassembly of the packets in real time, 
there are some limits to what the software can do to recognize relevant 
traffic. It can plainly see the ``to:'' and ``from'' Internet address 
of the Internet packets (e.g., 170.127.34.16). It may not be able to 
see the ``To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dd8bb4b3a9b2b3f39af39eb8afbb9daabeb2b0f3beb2b0">[email&#160;protected]</a>'' in every packet because this is 
NOT contained in every Internet packet. One has to reassemble the 
massage at the SMTP level of protocol (two layers above the Internet 
Protocol) to be assured of seeing this. But this may require that all 
the packets or most of the Internet packers carrying the email be 
intercepted and this may or may not be assured, depending on the rate 
at which these Internet packets must be examined by Carnivore and 
whether most of the packets are actually present on the circuit being 
monitored.
    The Carnivore operators have the ability to be very precise about 
which Internet addresses are of interest and can ignore all other 
traffic. They can tell which protocols are being carried in these 
Internet packets (TCP, among others, including steaming protocols based 
on the so-called User Datagram Protocol). If the contents of the IP 
packers are NOT encrypted they will be able to see for what layer of 
protocol above TCP or UDP the traffic is intended so they could 
distinguish email (SMTP) from file transfer (FTP) from World Wide Web 
traffic (HTTP).
    If the contents of the TCP traffic is encrypted, as it often is 
with the World Wide Web for financial transactions, it is not possible 
in real time for the Carnivore system to see any deeper into the 
traffic than to know that it is World Wide Web traffic. The encryption 
is often quite robust, using up to 128 bit keys and strong 
cryptographic codes.
    Some of the more recent standards for security for the Internet 
even introduce cryptography at the level of the Internet Packet so that 
it contents are encrypted end to end. Both the current version 4 IP 
protocol and the more recent version 6IP protocol have provisions for 
such encryption using the so-called IPSEC standard.
    The Carnivore system has been configured so that it is possible to 
limit the amount of information retrieved from any particular packet so 
that, for example, the only information that might be collected is the 
source or designation address of the Internet packet and none of the 
content. It is may understanding that the Carnivore implements have 
gone to considerable length to build in mechanisms to restrict traffic 
capture to conform to the limitations that any particular court-
approved surveillance may impose.
    In summary, the Carnivore system is fairly basic system that must 
do itswork by observing single packets of traffic at a time and attempt 
to determine based on a limited set of parameters whether this packet 
is relevant to the desired surveillance. It is not a system that is 
capable of observing all the traffic flowing through the Internet at 
once nor even all the traffic flowing through any one reasonably-sized 
Internet Service Provider's system.
    It is also important to note that this system is not unlike 
commercially available tools that help network operators debug problems 
in the network by analyzing the protocols that are in use and observing 
the states that these protocols go through in the course of an 
interaction. These protocol analyzers generally do not capture packet 
contents but rather work their way up through the ``envelopes'' to 
understand the sequences of events that may be causing a problem for 
the users or operators of a particular ISP or a collection of them.
    Readers of this testimony should remember that reasoning by analogy 
can sometimes lead to incorrect conclusions. I hope the use of analogy 
has been educational and not misleading, but precision answers about 
Carnivore should be sought from the engineers who have designed it, and 
not drawn solely on the basis of the analogies I have tried to use to 
explain the concepts behind its operation.
    Thank you.

    The Chairman. Thank you, Mr. Cerf.
    Professor O'Neill, we will turn to you.

                  STATEMENT OF MICHAEL O'NEILL

    Mr. O'Neill. Chairman Hatch, Senator Leahy, I welcome this 
opportunity to testify regarding a topic that should obviously 
be of great interest to us all, and that is, namely, the 
appropriate way in which law enforcement interests should be 
balanced against what Justice Douglas once called our 
fundamental right to be left alone.
    I think I would also like to just take a second and just 
thank Mr. Cerf, as well, for helping to design something that 
has helped break the grip that TV formerly held on my life.
    I do not wish to belabor points that have already been 
made, nor am I here to make claims that Carnivore is going to 
eat the Constitution or that if we fail to deploy it that crime 
will somehow run rampant. I think it is safe to say that none 
of us in this room likely wishes to live in a police state, nor 
do we particularly wish to live in a state of anarchy either.
    We live now in a time of profound technological change, and 
the communications revolution has been a part of that change. 
Change, however, is not without its costs. Privacy, one of the 
fundamental rights underpinning our society, is presently under 
assault as perhaps never before, and not only by the 
government, but also by business interests.
    On the other side of the equation, however, criminal 
enterprises have been increasingly willing to utilize 
technological innovations to achieve their own ends and thereby 
threaten our personal security. While we may stand at the brink 
of a new world in terms of information, however, we still have 
old rules, rules that have served to guide us well for over 200 
years and that will continue to serve as a guide for us for our 
understanding and ultimately controlling the many technological 
transformations surrounding us.
    With that in mind, I would like to address two fundamental 
issues. One, is Carnivore, at least as I understand the 
software to operate, compatible with the requirements of the 
Fourth Amendment? And, two, what role should Congress play in 
ensuring that both significant privacy and security interests 
are addressed?
    Our Constitution presupposes that, as citizens, we enjoy a 
sphere of action free from governmental interference. To this 
end, the Drafters of the Bill of Rights had the foresight to 
include as a fundamental guarantee to protect the right of the 
people in their persons, houses, papers and effects against 
unreasonable searches and seizures. The term ``unreasonable'' 
is really key here. We are protected, at least from the 
government, only against those searches that are per se 
unreasonable.
    The fourth amendment's reasonableness requirement has an 
important application to today's debate; namely, after all, 
what is deemed unreasonable is entirely and ultimately a social 
construct. It is, at the end of the day, for the people to 
decide what is and is not a reasonable intrusion into their 
private affairs.
    The difficulty I have in coming before you today is that I 
am not at all confident that I know what is reasonable in this 
particular context. If polled, most individuals, I suspect, 
would assume and likely prefer that their e-mails be every bit 
as secure, if not more so, than standard snail mail.
    The evolution of the privacy/security struggle has been 
well defined in the development of fourth amendment law. In 
Olmstead v. United States, a 1928 case that was sort of the 
harbinger of the wiretap and ultimately the electronic 
surveillance revolution, the Supreme Court considered whether 
warrantless wiretapping violated the fourth amendment. The 
Court found ultimately no constitutional violation because 
surveillance was accomplished without intruding upon the 
defendant's physical property.
    Justice Brandeis, however, penned a thoughtful dissent in 
which he observed that constitutional principles were 
undermined to the extent that the Court focused exclusively on 
the means of communication. He reasoned that the Constitution 
must be interpreted with technological advancements in mind to 
preserve fundamental rights and liberties.
    Foreshadowing those advancements, he warned that, quote, 
``Discovery and invention have made it possible for the 
Government, by means far more effective than stretching upon 
the rack, to obtain disclosure in court of what is whispered at 
in the closet.''
    Now, the Court ultimately adopted Justice Brandeis' view 
toward wiretapping. In Katz v. United States, it declared that 
the Fourth Amendment protects people, not places, and held 
wiretapping permissible only after the issuance of a valid 
warrant. This decision expressly overruled Olmstead, replacing 
the previous focus on the means of the communication with an 
appreciation for the fact that the communication itself was the 
source of the constitutional right.
    The Court subsequently revisited this area in Maryland v. 
Smith, a 1979 case that you have heard the executive branch 
relied upon to justify its claim that there is no expectation 
of privacy in an Internet address. In Smith, however, the Court 
reasoned that there is no legitimate expectation of privacy in 
a number being dialed on a telephone.
    It is important to understand, however, that the Court 
found that individuals do not have this expectation of privacy 
because pen registers themselves do not acquire the contents of 
communications. The technology in question was limited to this 
single function. This neat categorization, however, may not 
apply to technologies such as Carnivore which may have far 
greater information-gathering abilities.
    A URL, for example, can disclose specific pages visited, 
sites visited, or even items that have been purchased or 
browsed on the Internet. And as people move more of their lives 
online, a list of e-mails sent or Web sites visited can provide 
a very detailed dossier of activities, all available without 
the heightened standards of a wiretap or even a regular fourth 
amendment warrant. This is far more akin to walking into 
somebody's office and snooping around in their file cabinet 
than it is to standing on the street corner and writing down 
their physical address.
    Given the wealth of information obtainable by means of an 
Internet address, perhaps it is time to rethink our privacy 
expectations online. Indeed, I think it is increasingly 
difficult to say that you don't have an expectation of privacy 
in information that is in the hands of a third party. If the 
vision of an open, PC-less Internet world is to come to pass, 
it will be the case that much of our lives will be in the hands 
of third parties.
    Indeed, currently I do all of my banking and manage my 
meager stock portfolio all on the Internet. All of this 
information is contained online. To simply treat the ``to'' and 
``from'' lines in e-mails as though they were the phone numbers 
that you dial out on just doesn't make sense anymore.
    Moreover, the physical ease with which information is 
obtained becomes important. Ordinarily, a search is limited by 
a number of physical properties. You have to be on site, you 
have certain time limitations. Internet searches, however, make 
the retrieval of vital data, even otherwise public data, far 
more routine. For example, while property tax assessment 
records are public, people generally had to take the time and 
hassle to schlep on down to the court house to retrieve them.
    In a matter of minutes, however, just the other night I was 
able to retrieve fairly easily Chairman Hatch's property tax 
records. And basically now I know what the value of his current 
assessed land is. I know how many bedrooms he has in his house.
    The Chairman. I wouldn't mind knowing that myself. 
[Laughter.]
    Mr. O'Neill. Well, sir, I would be happy afterwards--I 
won't submit this for the record, but I will be happy to give 
it to you after we have finished.
    Now, again, that is public information, information that is 
always obtainable at the court house. But the mere fact that 
late last night, in a process of about, I don't know, maybe 
half a dozen keystrokes and a matter of about five minutes or 
so I could obtain all this information, should give us at least 
some cause for pause about what we are getting ourselves into.
    Mr. Cerf. You are not making a threat, are you?
    Mr. O'Neill. Oh, not at all.
    Mr. Cerf. OK; I am just checking.
    Mr. O'Neill. I used to work for him, so I felt it was okay.
    Mr. Cerf. OK.
    Mr. O'Neill. But I did the same thing for Senator Leahy as 
well.
    Senator Leahy. I was thinking. I mentioned to the chairman 
that he must have paid you too much if you have got a stock 
portfolio.
    Mr. O'Neill. Senator, I was smart; I married a doctor.
    The Chairman. That is a typical Democrat comment--failing 
to recognize the importance of the Internet and all of these 
other great programs that we have.
    Senator Leahy. We Democrats try to keep down the cost of 
Government. That is why.
    The Chairman. We hadn't noticed that. [Laughter.]
    Mr. O'Neill. I will try to remain silent on that issue.
    Similarly, I think another problem that we have to address 
is we don't even know how certain Fourth Amendment doctrines 
will apply in this field and to a device like Carnivore which, 
although it may have physical limitations and may, in fact, be 
limited in its application, may be configured or updated in 
ways that we are not necessarily aware of. It may have the 
potential of reading e-mail or looking at other addresses that 
people visit.
    The plain view doctrine, for example, permits, among other 
things, law enforcement officers to seize items in their plain 
view when they are executing a warrant. Well, if we allow law 
enforcement to filter nonspecific pieces of mail, does that 
mean that they can seize anything else that they may happen to 
find of a criminal nature which is not necessarily contained 
within the plain language of the warrant? These are among the 
fundamental issues that we will ultimately need to address as 
the law struggles to cope with technological advancements.
    Now, I don't want to go too far over the red light here, 
but I have ten fairly specific recommendations that I would 
consider that perhaps Congress ought to consider in terms of 
deciding and securing our privacy online. I will actually 
submit those for the record and I won't belabor those points 
now.
    But I think that this hearing is an important first step in 
looking at these important privacy issues as they come before 
us, and one simple suggestion that I might make is that 
government, specifically the Congress of the United States, 
should set itself up as the primary protector of people's 
liberty and security interests. And it is not a bad idea at 
all, I think, either to place within the Intelligence Committee 
or perhaps one of the other committees of jurisdiction careful 
congressional oversight of precisely the types of information 
and the sources of information that the Department of Justice 
is seeking to obtain when it does things such as Carnivore to 
search out people's private information.
    But, again, I will submit those and the remainder of my 
remarks for the record. I again thank you for this opportunity 
to testify and look forward to answering any questions you may 
have later.
    The Chairman. Well, thank you, professor. I think the FBI 
and Justice are going to want to look at your ten suggestions 
those fairly carefully because there are some very interesting 
suggestions there.
    [The prepared statement of Mr. O'Neill follows:]

                 Prepared Statement of Michael O'Neill

    Chairman Hatch, Senator Leahy, and members of the Committee, I 
welcome this opportunity to testify regarding a topic that should be of 
great interest to us all, namely the appropriate way in which law 
enforcement interests should be balanced against what Justice Douglas 
once called our fundamental right ``to left alone.'' [U.S. v. Davis, 
328 U.S. 582 (1946).
    I do not wish to belabor points that have already been made. Nor am 
I here to make claims that Carnivore will eat the Constitution, or that 
if we fail to deploy it, crime will run rampant. I think it is safe to 
say that none of us in this room likely wishes to live in a police 
state, nor, however, do we desire to live in a state of anarchy.
    We live in a time of profound technological change, and the 
communications revolution has been a vital part of that change. Change, 
however, is not without its costs. Privacy, one of the fundamental 
rights underpinning our society, is presently under assault as perhaps 
never before. On the other side of the equation, however, criminal 
enterprises have been increasingly willing to utilize technological 
innovations to achieve their own ends and thereby threaten our personal 
security.
    While we may stand at the brink of a new world in terms of 
information, however, we still have old rules, rules that have served 
us well for over 200 years, and that continue to serve as a guide to 
understanding, and controlling, the transformations surrounding us.
    With that in mind, I would like to address two fundamental issues: 
(1) is Carnivore, at least as I understand the software to operate, 
compatible with the Fourth Amendment? And (2) What role should Congress 
play in ensuring that both significant privacy and security concerns 
are addressed?
    Our constitution presupposes that as citizens, we enjoy a sphere of 
action free from governmental interference. to this end, Drafters of 
theBill of Rights had the foresight to include as a fundamental 
guarantee to protect ``the right of the people * * * in their persons, 
houses, papers, and effects, against unreasonable, searches and 
seizures.'' The term ``unreasonable'' is the key here * * * we are only 
protected against those searches that are unreasonable. The Fourth 
Amendment's reasonableness requirement has an important application to 
today's debate. After all, what is deemed ``unreasonable'' is 
ultimately a social construct * * * it is at the end of the day for the 
people to decide what is and is not a reasonable intrusion into their 
private affairs.
    The difficulty I have in coming before you today is that I am not 
at all confident that I know what is ``reasonable'' in this particular 
context. If polled, most individuals, I suspect, would assume, and 
likely prefer, that their e-mails be every bit as secure, if not more 
so, than their snail mail.
    The evolution of the privacy/security struggle has been well-
defined in the development of Fourth Amendment law. In Olmstead v. 
United States (1928), the Supreme Court considered whether warrantless 
wiretapping violated the Fourth Amendment. The Court found no 
constitutional violation because the surveillance was accomplished 
without intruding on the defendant's physical property. Justice 
Brandeis, however, penned a thoughtful dissent in which he observed 
that constitutional principles were undermined to the extent the Court 
focused exclusively on the means of communication. He reasoned that the 
Constitution must be interpreted with technological advancements in 
mind to preserve fundamental rights. Foreshadowing those advancements, 
he warned that: ``Discovery and invention have made it possible for the 
Government, by means far more effective than stretching upon the rack, 
to obtain disclosure in court of what is whispered in the closet.''
    The Court ultimately adopted Justice Brandeis' view toward 
wiretapping. In Katz v. United States, it declared that the Fourth 
Amendment ``protects people, not places'' and held wiretapping 
permissible only after the issuance of a valid warrant. This decision 
expressly overruled Olmstead, replacing the previous focus on the means 
of communication with an appreciation of the fact of communication as 
the source of the constitutional right.
    The Court subsequently revisited this area in Maryland v. Smith 
(1979), a case the executive branch has often relied upon to justify 
its claim that there is no expectation of privacy in an internet 
address. In Smith, the Court reasoned that there is no legitimate 
expectation of privacy in a number being dialed on the phone. It is 
important to understand, however, that the Court found that individuals 
do not have a reasonable expectation of privacy in such information 
because ``pen registers do not acquire the contents of communications. 
Smith v. Maryland, 442 U.S. 735, 742 (1979). The technology in question 
was limited to this single function. This neat categorization may not 
apply to technologies such as Carnivore, however, which may have far 
greater information gathering abilities.
    An URL, for example, can disclose specific pages visited, sites 
visited, or even items purchased or browsed. And as people move more of 
their lives online, a list of e-mails sent or web sites visited can 
provide a very detailed dossier of activities--all available without 
the heightened protections of a wiretap or even a standard Fourth 
Amendment warrant. This is much more akin to walking into someone's 
office and snooping around in their file cabinet than it is to standing 
on the street corner and writing down their address. Given the wealth 
of information obtainable by means of an internet address, perhaps it 
is time to re-think our privacy expectations on-line. Indeed, I think 
it is increasingly difficult to say that you don't have an expectation 
of privacy in information that is in the hands of a third party. If the 
vision of an open, pc-less internet world is to come to pass, it will 
be the case that our entire lives will be in the hands of third 
parties. To treat the ``To'' and ``From'' lines in e-mails as though 
they were just the same as the phone numbers that you dial makes little 
sense.
    Moreover, the physical ease with which information is obtained 
becomes more important. Ordinarily, a search is limited by a number of 
physical properties. Internet ``searches,'' however, make the retrieval 
of vital data, even otherwise public data, far more routine. For 
example, while property tax assessment records are public, people 
generally had to take the time, and hassle, to go to a court house to 
retrieve them. In a matter of minutes, however, I was able to easily 
retrieve [hold up records] Chairman Hatch's property tax data. Don't 
worry, I won't disclose it * * * but I do know how many bedrooms, 
bathrooms, and fireplaces you have in your home * * *!
    Similarly, we don't know exactly how certain Fourth Amendment 
doctrines will apply to a device, such as Carnivore, that has the 
potential of reading personal e-mail, as well as, via the internet 
address, entering the individual's hard drive and scoping it out. The 
plain view doctrine, for example, permits (among other things) law 
enforcement officers to seize items in their ``plain view'' when they 
are executing a warrant. Well, if we allow law enforcement to filter 
non-specific pieces of mail, does that mean they can seize anything 
they happen to find? These are among the fundamental issues that will 
need to be addressed as the law struggles to cope with technological 
advancements.
                what questions ought congress be asking?
    Law enforcement has pointed out that the law must be changed to 
preserve its mission to prevent and punish crime, while the civil 
liberties community has warned of grave dangers to personal privacy and 
the Fourth Amendment. Although each group may emphasize different 
aspects of the problem, each agrees that the law must be updated to 
keep pace with technological change. Remarkably, the 1986 Electronic 
Communications Privacy Act was the last significant update to the 
privacy standards of the electronic surveillance laws. Significant 
changes have occurred since then, including--the development of the 
Internet; data convergence; the creation of wireless systems; and the 
movement of information out of people's homes and offices onto networks 
controlled by third parties. As a result of these developments, more 
information is being held and communicated in configurations where it 
is in the hands of third parties and not afforded the full protections 
of the Fourth Amendment.
    The following steps might therefore be in order.
    (1) With respect to Carnivore itself, Congress ought to obtain 
briefings, classified, if necessary, to get a better understanding of 
what Carnivore is designed to do and how it does it, and whether there 
exists potential for abuse.
    (2) Congress ought to determine what the statutory authorization 
for Carnivore is and whether law enforcement has the authority to 
insist that a service provider install Carnivore.
    (3) If implemented in some fashion, Congress should require that 
statistics be maintained by the Justice Department, and that these so-
called ``audit trails'' be routinely provided for legislative 
oversight.
    (4) Congress should seek to learn whether Carnivore can easily be 
defeated by encryption software or E.A. Poe type purloined letter 
schemes.
    More broadly,
    (5) Hearings out to be conducted to determine whether all internet 
trap and trace orders should be issued only on the basis of a judicial 
finding that reasonable cause exists to believe that a target has or is 
about to commit a crime;
    (6) The executive branch ought to be required to provide consumers 
with notice whenever the government obtains information about their 
Internet transactions;
    (7) Specific statistical reports for Internet trap orders similar 
to the reports required under Title III ought to be require;
    (8) Congress should explicitly provide that Internet queries, e-
mail subject lines, URL's of sites visited and other information which 
provides more than the equivalent of a dialed number cannot be 
disclosed without a probably cause order.
    (9) Congress should consider requiring notice and an opportunity 
for defendants to object when civil subpoenas seek personal information 
about Internet usage.
    (10) Finally, Congress ought to provide enhanced protection for 
information on networks: including the establishment of probably cause 
for seizure without prior notice, and providing a meaningful 
opportunity to object to subpoena access.
    At bottom, I would urge a cautious, thoughtful approach when it 
comes to expanding surveillance capabilities. The conflict between 
increased security and enhanced privacy protection is not easily 
resolvable, nor will it likely ever be. But Congress ought to seize the 
moment to ensure that robust debate occurs before law enforcement's 
powers are enhanced, and regardless of how the balance is struck.

    The Chairman. Mr. Dempsey, we will turn to you.

                 STATEMENT OF JAMES X. DEMPSEY

    Mr. Dempsey. Mr. Chairman, Senator Leahy, good morning. 
Thank you again for holding this hearing and for giving me the 
opportunity to testify. I am at a certain point, I think, going 
to use just one overhead, if I could, but in order not to delay 
things I will talk while they are setting up the projector.
    I think I wanted to start out by responding to one of the 
points that the FBI and the Justice Department make which they 
regularly make and I think which needs to be regularly rebutted 
or balanced, and that is the point about the use of the 
Internet by criminals.
    Undoubtedly, criminals do use the Internet, but I think if 
you look at the facts over the past two or three years, it is 
clear that the Justice Department and the FBI have been 
extremely successful in using the new technology to track 
criminals online and to make cases, including some cases that 
they probably couldn't have made in the offline environment.
    Online surveillance and tracking led to the arrest of the 
Phonemasters, who were stealing and selling credit card numbers 
worldwide; Solar Sunrise culprits, one of whom was tracked down 
to Israel; an intruder on NASA computers who was arrested and 
prosecuted in Canada; the thieves who broke into the Citibank 
computers and who were tracked and arrested in Russia; Ardita, 
who was tracked down electronically to Argentina; the creator 
of the Melissa virus. All of these people were tracked online 
using this very technology.
    Innocent Images is another example of where FBI agents are 
able to pretend online to be young girls or to be pedophiles 
and to legally entrap people. In the Emulex case that you 
referred to, Mr. Chairman, investigators said that they learned 
within hours of the stock's plunge where the computer was 
located that the perpetrator had used, and they obviously have 
arrested that person.
    Back in August, two Kazhaks were arrested in a cyber 
extortion case. Their communications went from Kazhakstan to 
London and to the target in New York, which was Bloomberg. Yet, 
they were traced back using this very technology, and in 
response to that Bloomberg pointed out these arrests show that 
our law enforcement agencies can find, catch, and bring 
criminals to justice online. Criminals believe that they have a 
totally anonymous presence on the Internet. They believe that 
they can intimidate companies. This operation shows that they 
do not have that kind of anonymity.
    So I think we need to recognize--and Professor O'Neill in 
his online search showed us how easy it is to find so much 
information. And I think, if anything, what we need to do is to 
not abandon the traditional rules that we have had to protect 
privacy but, in fact, to strengthen those rules in the face of 
the surveillance and investigative power of this new 
technology.
    Now, turning specifically to Carnivore, the first problem 
that we have with Carnivore is that we don't know really what 
it is and how it works. It is something that is now totally 
controlled by the FBI. It is a black box. They have refused to 
share publicly the details of that, and they have put out a 
request for proposal to conduct an independent review, which is 
a good idea even if it were conducted outside of the public 
light.
    But the FBI and the Justice Department have set out for 
this independent review so many restrictions and they have put 
such burdens on anybody who would sign up to do that, such 
secrecy burdens, that a lot of the good people are backing out 
of that, are backing out, it seems, from competing for that. 
And it does call into question, with the kinds of restrictions 
the FBI has set, whether they will be able to get the best 
people to do that review.
    Today, in USA Today Online, there is a story by Will Roger 
in which he states that MIT, Purdue University, Dartmouth, the 
University of Michigan, and the Super Computer Center at the 
University of California at San Diego have all indicated their 
reluctance to participate in that review, given the constraints 
that the FBI has posed in terms of pre-review, and so on.
    The second issue I would like to emphasize is that 
Carnivore is fundamentally inconsistent with the way that 
wiretaps have been done in the past, and fundamentally 
inconsistent with the understandings of this committee 
repeatedly over the years.
    Traditionally, we have not allowed the FBI into the 
networks, into the switching systems and into the property of 
ISP's. A major, major problem with Carnivore, and I think a lot 
of the source for the concern about it, is that it is a black 
box that the FBI imposes on the ISP.
    Now, this committee in 1986, when it was adopting ECPA--and 
Senator Leahy was the prime author of that legislation in the 
Senate--this committee in its report on ECPA emphasized 
telephone company customers have a reasonable expectation, 
traditionally enhanced by telephone company practice and 
policies, that their company will not become, in effect, a 
branch of government law enforcement.
    The committee went on to say that they understand that the 
practice has been that the telephone company premises are not 
used for wiretap activity. And the committee actually 
directed--I don't know if it happened--the Justice Department 
in its wiretap manual to state that there would be a statement 
there in the manual that U.S. attorneys should not attempt to 
compel any company to make its premises available for wiretap 
activity.
    And the committee in 1986 asked for notification if there 
was a change in that policy and if the Justice Department did 
decide to try to compel carriers to make their premises 
available and what is Carnivore to basically latch this 
software and hardware into the network.
    Again, in CALEA, in 1994, this committee reemphasized that, 
and there is section 105 in CALEA which specifically says that 
telephone companies--CALEA does not apply to the ISP's, but it 
is the principle here that the committee cared about quite 
strongly. CALEA says that a telecommunications service provider 
shall design its system so that a wiretap is activated within 
the switching premises and controlled by telephone company 
personnel, not by law enforcement personnel, precisely because 
this committee was concerned about the problem of remote FBI 
access to the actual guts of the network of a service provider.
    I think a lot of the concerns that people have with 
Carnivore would be mitigated if the software and the ability to 
control the software were placed in the hands of the service 
providers rather than held and controlled by the FBI.
    Now, I wanted to talk a little bit about the way----
    The Chairman. How can you trust the service providersany 
more than you trust the FBI?
    Mr. Dempsey. Well, I think what we have to do is we have to 
have a system of checks and balances; that is, we have to have 
some buffer or barrier between the customer and the Government.
    The Chairman. It is one thing for the telephone companies 
to have control over how the transmission is made. It is 
another thing to have the ISP's--who have tremendous software 
capabilities themselves in control of the transmissions.
    Mr. Dempsey. Well, many of the ISP's already perform and 
comply with court orders, as Dr. Kerr made clear. Many ISP's do 
not need Carnivore, do not accept Carnivore, and do comply on 
their own with the court orders.
    Mr. Cerf. May I? I have just two comments to make. One 
observation is that the Carnivore equipment is a passive 
device. In other words, it doesn't actively enter into the 
control stream or anything like that. It simply taps 
information. In fact, as was pointed out by the FBI, it is 
prohibited technically from transmitting anything into the Net. 
So in that sense, that is helpful because it is passive.
    I would certainly debate the advisability of having the ISP 
personnel setting the parameters and managing the capture of e-
mail-related information. In fact, I would be more concerned 
about----
    The Chairman. I think it is a different situation than 
phone companies.
    Mr. Cerf. Sir?
    The Chairman. I think it is a different situation than 
phone companies--much broader.
    Mr. Cerf. Well, even going and setting parameters, let 
alone inventing software, the side effect of having the ISP 
personnel do that is that you may not get protection of the 
evidence in the evidentiary chain. You may get exposures of 
information that are not legal. The FBI operators are well 
aware of those restrictions, but the ISP operators are probably 
not.
    So I am not sure that I would be as comfortable as you 
sound like.
    Mr. Dempsey. We have headed pretty far down the road in 
allowing ISP's who can perform to do so. Of course, the FBI can 
go back and say you didn't give us everything that we wanted, 
and that process can go forward.
    In the telephone realm, the way we are heading in CALEA is 
that it will be an intercept function that is activated by 
carrier, pursuant to an order----
    The Chairman. Yes, but collected by the FBI.
    Mr. Dempsey [continuing]. To isolate and identify what is 
the stream of communications. In the Internet, it is harder 
because we do not have a circuit-switched system.
    Mr. Cerf. You actually have to work your way up in those 
layers of protocol in order to see what is going on. In fact, 
the simple analogy here, these little letters, is that if you 
watch a stream going from a customer's personal computer going 
into or coming from the Internet, it could contain a variety of 
information all at the same time. There could be some voice 
communication, there could be video, there could be e-mail, 
there could be a World Wide Web exchange, all of this happening 
at once. And the stream of packets going by in these little 
envelopes have to be opened up and examined in order to figure 
out which one is it.
    The Chairman. One of the questions I am going to have is 
how does the FBI protect this information from the ISP 
collecting it? That is a question that I think----
    Senator Leahy. But the ISP could look at it any time they 
wanted anyway.
    The Chairman. Yes, but they may not know what they are 
looking for, where the FBI knows what they are looking for.
    Mr. Cerf. In order for the ISP to perform the same function 
that the Carnivore system does, they would have to essentially 
build the same kind of software that the FBI is using and 
configure it to capture the portion of the stream that is of 
interest. In a sense, they would have to reproduce all of the 
technology that goes into Carnivore.
    There are systems like that. They are called sniffers, but 
they are not as sophisticated, in fact, at restricting the 
information that is captured. Moreover, there are none of the 
safeguards that the Carnivore system has for keeping track of 
who did what.
    Senator Leahy. Well, are you saying by that then that no 
ISP system today, whether they have sniffers or not, can match 
Carnivore? And if so, does that mean the FBI are going to have 
to say, well, we have always got to use our own system because 
you are not good enough?
    Mr. Cerf. What I am saying is that the devices that are 
available that are used to help debug problems on the network 
that will allow you to crawl up and down in the so-called 
layers can capture everything. The problem is that that is not 
what the FBI wants to do. What it wants to do is to capture 
only that part that is----
    Senator Leahy. But that goes, then, to my particular point. 
Are you saying that nobody today can duplicate what the FBI is 
doing? Thus, the FBI whenever they have one of these court 
orders is going to have to use their own?
    I see Ms. Stansell-Gamm shaking her head no, but I just----
    Mr. Cerf. What I am trying to say is that the technology 
exists to capture information off the Net. An ISP has that 
capability because these are off-the-shelf devices. The 
implementation of Carnivore is intended to constrain the way 
that capture is done and the ISP doesn't have the particular 
motivation to go and do that, to invest in all that.
    The Chairman. They don't have the same interests as the 
FBI. They are not going to be doing that.
    Mr. Cerf. That is correct.
    The Chairman. Well, let me finish with Mr. Dempsey and then 
go to Professor Rosen.
    Mr. Cerf. I am sorry I interrupted you.
    Mr. Dempsey. If I could, to round out this dialog, I think 
that there is an answer to the dilemma here, and that is to 
take the Carnivore software and make it available to the ISP's 
so that they know what it is, know how it works. They can 
configure it, they can set the parameters as ordered by the 
court order. And then you do have that protection in the middle 
that you don't have the FBI, in essence, taking control of a 
part of a network or inserting itself into the network. I think 
that a lot of the concerns about Carnivore would be mitigated 
if this software technology were disclosed and made available 
to ISPs.
    The Chairman. Well, let's go to Professor Rosen, but I have 
a lot of problems with that because then you have a nonlaw 
enforcement agency--a private company--being able to do 
whatever they want to do with people's knowledge andpeople's 
information.
    You have made some interesting suggestions. I want to 
really look at those because I don't know what the answer is 
here. All I can say is that I don't want to have 1984 in 2004, 
but we are already there. With nanotechnology coming up now--if 
you read Kurtzweil's book--it is enough to scare the living 
daylights out of every one of us. And if you read Bill Joy's 
article, I mean, my gosh, it is mind-boggling.
    Senator Leahy. But, Orrin, they can do this now.
    The Chairman. Yes, I know.
    Senator Leahy. The ISP's can do this now anyway.
    The Chairman. They can do it now anyway.
    Senator Leahy. They can step through and get most of this 
now. They might have a different reason, a different purpose, 
but they can do it.
    The Chairman. But they don't need to have the assistance of 
the FBI to do it.
    Mr. Dempsey. If I could, Mr. Chairman, just before you go 
to Professor Rosen--and we can go back to this later in the 
questions--I just wanted to lay out two other areas that I 
think merit discussion here, one of which is the question of 
whether Carnivore constitutes a search for fourth amendment 
purposes and an interception for title III purposes. I believe 
that, at least as the FBI has explained it on their Website, 
Carnivore does constitute a search and seizure for 
constitutional purposes and an interception for title III 
purposes.
    Finally, I would just like to say that once again we are 
back to the question of how do you translate the wiretap laws 
to the Internet. And Professor O'Neill, I think, referred to 
this quite well, but by developing Carnivore and by controlling 
and programming Carnivore and putting it out there, the FBI has 
basically decided that question technologically by saying that 
Carnivore can collect, under a pen register order, e-mail 
``to'' and ``from'' addresses and other Internet addressing and 
routing information without ever finishing a debate which we 
started back here, I think, in May before this committee, which 
is the question of what should be the legal standards for 
application of pen registers to this very different medium of 
the Internet.
    So with that, I will conclude. Thank you, Mr. Chairman.
    [The prepared statement and attachments of Mr. Dempsey 
follow:]

                 Prepared Statement of James X. Dempsey

    Mr. Chairman, and members of the Committee, thank you for calling 
this hearing and giving CDT* the opportunity to testify on the FBI's 
``Carnivore'' initiative and its implications for Fourth Amendment 
privacy protections in the digital age.
---------------------------------------------------------------------------
    * The Center for Democracy and Technology is a non-profit, public 
interest organization dedicated to promoting civil liberties and 
democratic value on the Internet. Our core goals include ensuring that 
the Constitution's protections extend to the Internet and other new 
media. CDT also coordinates the Digital Privacy and Security Working 
Group (DPSWG) a forum for more than 50 computer, communications, and 
public interest organizations, companies, and associations working on 
information privacy and security issue.
---------------------------------------------------------------------------
Summary
    We can all appreciate that new communications technologies pose 
challenges to law enforcement agencies carrying out important duties. 
But as a black box controlled by the FBI and inserted into the network 
of an Internet service provider to search through thousands or millions 
of messages, including those of innocent people, Carnivore is not the 
right solution. It is not consistent with the way that electronic 
surveillance was conducted in the past. It is not consistent with the 
Fourth Amendment nor with the Supreme Court's image in the Katz and 
Berger decisions of how electronic surveillance could permissibly be 
conducted. It is not consistent with the federal wiretap statute, Title 
III. And it is not consistent with CALEA. The FBI has to find a better 
way to conduct surveillance of Internet communications, one that does 
not entail taking control of a portion of the network of a service 
provider and that does not entail a general search through the 
communications of innocent persons.
    In order to moot the serious questions about Carnivore's legality, 
the FBI should immediately cease insisting that it be installed outside 
the control of Internet service providers (ISPs). Instead, the FBI 
should immediately begin making the technology of Carnivore available--
including the source code and the right to modify it--to any ISP that 
needs it to comply with a surveillance order. (Most ISPs don't need 
it.) If any ISP needs to adopt Carnivore or something like it, the ISP 
should control its own network, isolating and delivering to the 
government only what the government is entitled to intercept, and thus 
serving as a buffer between the government and the communications of 
their innocent customers. This would reinstitute the kind of checks and 
balances we depend on to preserve our rights.
    Looking more broadly, Carnivore is the latest in a series of wake-
up calls about the perils facing personal privacy in the digital age. 
Carnivore illustrates the extend to which the FBI claims the authority 
to actually control the design or functioning of communications 
networks.\1\ Yet the deployment of Carnivore and other design or 
functional mandates for surveillance creates new and largely 
unappreciated threats to the security of communications. Moreover, even 
apart from FBI efforts to control the technology, it is clear that, 
despite the ways in which the newer digital technologies are harder to 
tap, on balance the government is acquiring far more surveillance 
powers as a result of the digital revolution: Market-driven changes in 
the technology and the ways we use it mean that we are generating more 
electronic information than ever before about our lives and making it 
available on networks and computers where it can be readily obtained by 
the government. Law enforcement agencies are not loosing ground--they 
are gaining surveillance and tracking capabilities by leaps and bounds. 
For all of these reasons, Carnivore highlights the need for Congress to 
enact greater privacy protections in the outdated statutory framework.
---------------------------------------------------------------------------
    \1\ For other examples, see Neil King Jr. and David S. Cloud, Hang-
Ups: Global Phone Deals Face Scrutiny from New Source: the FBI, Wall 
Street Journal, August 24, 2000, at A1. The implementation of CALEA has 
been one long struggle over the FBI's insistence on dictating very 
precise surveillance features to the telephone industry. See United 
States Telecomm Assoc. v. FCC, No. 99-1442 (D.C. Cir Aug. 15, 2000).
---------------------------------------------------------------------------
    Among the specific points we would like to make about Carnivore:
    <bullet> The first problem with Carnivore is that we do not know 
how it works. There is little understanding of how Carnivore searches 
are limited, and little chance for judicial or public oversight. Such a 
situation is ripe for mistake or misuse. The government should embrace 
an open source model allowing public scrutiny of Carnivore's design. 
Unfortunately, the ``independent review'' promised by the Justice 
Department at this point is so circumscribed and under such control of 
the FBI and the Department that it holds little promise of giving 
Congress, industry or the public reliable answers.
    <bullet> So long as Carnivore is a black box owned and controlled 
by the government, its forced installation in the network of an ISP 
means that, in essence, the government takes control of part of the 
ISP's network. ISPs should control their own networks. Installing a 
closed Carnivore system outside of ISP control introduces new risks to 
the security of these networks. ISPs are in the best position to 
respond to court orders in a fashion that protects user privacy.
    <bullet> As far as we can tell, Carnivore searches more information 
than the government is legally entitled to search. Indeed, based on 
current description. Carnivore, when controlled by the FBI, has to be 
characterized as an unconstitutional governal search and an 
interception in violation of Title III. If Carnivore is used as a pen 
register under the pen register statute as currently interpreted by the 
DOJ, it is likely that it searches (and intercepts, in Title III terms) 
content of the target. Even worse, whether used under the pen register 
order or a Title III probable cause order, it searches and intercepts 
the communications of innocent persons outside the scope of any 
properly issued Title III order.
    <bullet> Carnivore's use as a pen registers has pre-judged--in fact 
has surrendered to Executive Branch discretion and ex parte legal 
proceedings--the important public policy question of what data should 
the government collect about Internet transactions under the weak 
privacy standard of the pen register statute. Without explicit 
statutory language, the Justice Department is asserting that it can use 
the rubber-stamp pen register authority to collect information from the 
Internet that is much more revealing than the information collected by 
pen registers from telephone lines. There seems to be a growing 
consensus that the low legal standard authorizing their use should be 
raised for plain old telephones. But if the government is to collect on 
the Internet transactional information more personally revealing than 
that collected on telephone lines, then it would seem that an 
intermediate standard must be developed for Internet transactional 
data.
Context: Privacy and Surveillance in the Internet Age
    The Internet has already demonstrated its potential to promote 
democracy, spur economic growth, and enhance human development. 
Individuals, civil society, businesses and governments are all rushing 
to use the Internet for work, activism, education, social services, 
human contact, artistic expression and consumerism. The Internet has 
become a necessity in most workplaces and a fixture in most schools and 
libraries. Soon, it may converge with the television and wireless 
phones, and thereby become nearly ubiquitous.
    Every day, Americans use the Internet to access and transfer vast 
amounts of private data. Financial statements, medical records, and 
information about our children--once kept on paper and secure in a home 
or office--now travel through the network. Electronic mail, online 
reading and shopping habits, business transactions and Web surfing can 
reveal detailed profiles of people's lives. And as more and more of our 
lives are conducted online and more and more personal information is 
transmitted and stored electronically, the result has been a massive 
increase in the amount of sensitive data available to government 
investigators.
    While the Justice Department frequently emphasizes the ways in 
which digital technologies pose new challenges to law enforcement, the 
fact is that the digital revolution has been a boon to government 
surveillance and information collection. The FBI estimates that over 
the next decade, given planned improvements in the digital collection 
and analysis of communications, the number of wiretaps will increase 
300 percent. Computer files are a rich source of evidence: In a single 
case last year, the FBI seized enough computer evidence to nearly fill 
the Library of Congress twice. As most people sense with growing 
unease, everywhere we go on the Internet we leave digital fingerprints, 
which can be tracked by marketers and government agencies alike. The 
FBI in its budget request for FY 2001 sought additional funds to ``data 
mine'' these public and private sources of digital information for 
their intelligence value.
Wiretapping the Internet
    Our legal framework for electronic surveillance was developed in an 
era of circuit-switched telephone networks, where it was relatively 
easy to isolate the communications of a particular target to the 
exclusion of the communications of innocent persons, and where it was 
relatively easy to distinguish between transactional data, which was 
limited and not very revealing, and Constitutionally-protected content. 
Even at the time CALEA (the Communications Assistance for Law 
Enforcement Act) was adopted in 1994, the telephone system, while going 
digital, was still largely based on a circuit-switched architecture, 
and CALEA assumed that central telephone company switches, if loaded 
with special software, would provide ready access to the communications 
and call-identifying information of surveillance subjects. This 
Committee, in drafting CALEA, wisely excluded the Internet from CALEA 
specifically because those technical assumptions did not apply to the 
packetized, decentralized Internet.
    By design, the Internet's architecture is not like that of the 
phone system. It is not centralized. It does not dedicate a channel or 
circuit to one conversation. It does not have permanent addresses. But 
surely these technological differences do not mean that we can abandon 
the principles of the fourth Amendment. As the D.C. Circuit recently 
made clear in the CALEA appeal, the mere fact that government agencies 
are encountering a new technology does not give them the authority to 
redefine the rules of interception, even where the government promises 
it will not record or use the information it is not entitled to. 
Instead, we must find ways to ensure that the fundamental distinctions 
of the law are maintained, and where they cannot be, the government 
must meet the higher, not the lower, legal standard. ``Wiretapping'' 
the Internet may require greater oversight and protection. If pen 
registers on the Internet reveal more than the ``numbers dialed'' they 
once provided for telephones, then the standard must be higher than the 
standard for telephone pen registers. And we must recognize that the 
government's desire to translate every current telephone surveillance 
capability into the Internet world (with a kind of 100% guaranteed 
success rate never really available with traditional telephone 
surveillance) would require a new technical architecture for the 
Internet with huge security risks.
    It is in this context that the FBI's Carnivore initiative must be 
viewed.
Questions about Carnivore
    Carnivore reportedly serves at least two functions. Installed at an 
ISP, it monitors communications on the ISP network and records messages 
sent or received by a targeted user. This is presumably designed to 
effectuate an electronic ``wiretap'' order served on an ISP. Carnivore 
can reportedly also isolate the origin and destination of all 
communications to and from a particular ISP customer. This is 
presumably designed to satisfy what law enforcement claims is the 
Internet equivalent of ``pen register'' and ``trap and trace'' orders, 
which in the telephone context provide digits dialed and incoming phone 
numbers. (Note that there are fundamental questions about what 
information pen register and trap and trace orders should collect in 
the Internet context.)
    There are many unanswered questions about Carnivore:
    How does Carnivore isolate and record only the information that the 
government is legally entitled to collect under a particular wiretap or 
pen register order? Carnivore has the potential to capture the content 
of communications even when a pen register order would limit collection 
to addressing information. Indeed, as we explain below, getting the 
addressing information the government claims it is entitled to often 
requires capturing and analyzing content. Does Carnivore avoid that? 
Moreover, since Carnivore operates on a network link, it has the 
potential to capture the traffic of customers who are not the subjects 
of an order. For example, Internet Protocol (IP) addresses may be used 
to identify the communications of a target. But in many systems such 
addresses are dynamically allocated (meaning that the same address will 
be assigned to many users sequentially, and a given user will not have 
the same address from day to day or hour to hour), making it quite easy 
to monitor the wrong user.
    Is Carnivore itself a secure system? Can it be compromised? Does it 
provide secure audit trails, and is it tamper resistant? Is it true 
that Carnivore installed on an ISP's system can be remotely accessed 
and reprogrammed by the FBI? If Carnivore, an eavesdropping device with 
access to a vast stream of traffic independent of any ISP control, were 
itself somehow compromised, the damage to privacy and security could be 
tremendous.
    The technical community has developed a method to improve trust in 
complex systems: Open source review. Review of the source code and 
design specifications by a community of experts might reveal mistakes, 
bugs, or security holes unknown to the FBI. Such mistakes are quite 
common in the design of complex technical systems. Open source review 
of Carnivore's hardware, software, and technical design is essential to 
ensuring that Carnivore does not exceed its legal authority. It would 
also seem necessary for defense lawyers and judges to test in the 
adversarial process the reliability of evidence it generates.
    Undoubtedly, the FBI will initially argue that revealing source 
code will compromise the effectiveness of Carnivore. If true, one must 
question the general security and usefulness of a system that can be so 
easily circumvented by anyone with knowledge of its operation.
    The Department of Justice has promised to contract for an 
``independent review'' of Carnivore. Unfortunately, the review has been 
wrapped in conditions and controls that undermine its credibility and 
seem to be discouraging the best experts from participating.Two in 
particular are especially troubling: (1) The contract documents for the 
review specify that the government will retain control over what 
portions of the reviewers' comments are released to the public. The 
government says that it will release as much as possible, consistent 
with contractual obligations and ``preserving the effectiveness of 
Carnivore.'' This would seem to preclude release of conclusions about 
the vulnerability or effectiveness of Carnivore. Since the FBI has 
claimed that its contractual obligations preclude it from disclosing 
even the name of the company that built Carnivore, that could be 
another huge justification for censoring the contractor's report. (2) 
The implications of this are compounded by the blanket non-disclosure 
agreement that contractor personnel would be required to sign, in which 
they would promise not to disclose to anyone anything they learned in 
the course of their review without FBI permission. Under the agreement, 
sensitive information is defined as ``any and all information received 
from the FBI'' and ``any and all other information associated with the 
Carnivore device and system.'' This gag order would mean that persons 
who now can talk about Carnivore based on their general understanding 
of it would be permanently silence if they participated in the review.
In a Departure from Tradition and Best Practice, Carnivore Is Not 
        Controlled by ISPs
    Even were there open review of Carnivore's system, installation of 
a ``black box'' out of an ISP's control creates new privacy and 
security risks. The parameters for how Carnivore is used once installed 
are likely to be extremely important. Such parameters could control who 
the targets are, how they are identified, and what information is 
collected about them. Yet with Carnivore, ISPs appear to have no 
control over how the system operates. Such a system provides no checks 
on its use, and is an invitation for misuse or mistake. Indeed, we 
understand that the FBI retains the sole right to alter how Carnivore 
operates when it is in place, and that the FBI can do so remotely, 
without the knowledge or cooperation of the service provider.
    Carnivore is a radical departure from the way interceptions have 
traditionally been performed. In the world of telephone wiretaps, phone 
companies are extremely reluctant to allow law enforcement officials 
into their switching facilities. In the past, and up through the 
present time, telephone companies have been adamant that the would 
activate any interception from within their central offices. (Companies 
would allow law enforcement agents to activate intercepts from access 
points on their outside plant, like neighborhood or apartment building 
junction boxes, but that type of access is disappearing.) The reasons 
were both privacy and security.
    In 1994, Congress confirmed that this principle was an important 
additional check on abuse. So section 105 of CALEA expressly provides 
that wiretaps shall be activated and controlled by telephone company 
personnnel:

          A telecommunications service provided shall ensure that any 
        interception of communications or access to call-identifying 
        information effected within its switching premises can be 
        activated only in accordance with a court order or other lawful 
        authorization and with the affirmative intervention of an 
        individual officer or employee of the carrier * * * 47 U.S.C. 
        1004, Pub. L. 103-414, section 105.

CALEA does not apply to ISPs (and should not be extended to ISPs), but 
Carnivore is a radical departure from the principle that service 
providers must keep government agents out of their systems.
    ISPs themselves are in the best position to comply with lawful 
orders for electronic surveillance. ISPs have a dual duty, to both 
produce information for law enforcement and to protect the privacy of 
their customers by only revealing such information where required by 
lawful order. Moreover, ISPs are in the best position to understand 
their own networks and the most effective ways of complying with lawful 
orders. They are also in the best position to understand potential 
implications or threats from installation of a Carnivore device.
Carnivore Performs an Unconstitutional General Search and an Illegal 
        Intercept Under Title III
    Carnivore operates very differently from an ordinary wiretap or pen 
register. In the telephone world, it has always been possible to 
isolate a pair of wires or a channel or circuit that is dedicated to a 
targeted individual's communication. The Supreme Court's approval of 
wiretapping under the Fourth Amendment was based on the understanding 
that the government would be accessing only the communications on a 
particularly identified line (the ``facility,'' in Title III terms). 
All of the Court's concern about ensuring that on that particularly 
identified line the government only intercepted communications that 
involved specified criminal conduct would be rendered absurd if the 
government could search the lines of many subscribers. See Berger v. 
New York, 388 U.S. 41, 58-60 (1967); Katz v. United States, 389 U.S. 
347, 355-56 (1967).
    According to published accounts, including information on the FBI's 
Web site, http://www.fbi.gov/programs/carnivore/carnlrgmap.htm, 
Carnivore operates by monitoring (according to the FBI's description, 
redirecting and copying) all traffic on the network link where it is 
installed. Carnivore searches through all this traffic. (A copy of the 
FBI's description is attached to this testimony.) In theory, Carnivore 
then only records data appropriate to the order under which it 
operates--i.e., data relating to the target of an order, or even 
narrower information pertaining to pen register or trap and trace 
orders.
    Nevertheless, in Fourth Amendment terms, Carnivore, as it has been 
described, is conducting a ``search'' of all the communications on the 
network segment to which it is attached, including the traffic of 
innocent persons. That is, even if Carnivore functions as promised and 
only records the traffic of the target, it is searching through the 
email of many innocent persons--it is conducting an unconstitutional 
general search. The ISP redirects to Carnivore a stream of packets from 
many different customers. Carnivore filters those packets. That is a 
search. The fact that Carnivore is automated and that no human ever 
reads innocent messages does not make it any less of a search. The use 
of machines to carry out searches does not make them any less a search 
for Constitutional purposes.
    In Title III terms, it also seems clear that what Carnivore does is 
an ``intercept.'' As the Second Circuit states, ``It seems clear that 
when the contents of a wire communication are captured or redirected in 
any way, an interception occurs at that time. * * * Redirection 
presupposes interception.'' United States v. Rodriguez, 968 F.2d 130 
(2nd Cir. 1992), cert. denied, 113 S.Ct 139, 140, 663 (19992). See also 
United States v. Denman, 100 F.3d 399, 403 (5th Cir. 1996), cert 
denied, 117 S. Ct 1256 (1997); United States v. Tavarex, 40 F.3d 1136 
(10th Cir. 1994); United States v. Nelson, 837 F.2d 1519, 1527 (11th 
Cir. 1988), reh'g denied en banc, 845 F.2d 1032 (1988), cert denied, 
488 U.S. (1988). Thus, use of Carnivore under control of the FBI is an 
illegal interception of the redirected communications of innocent 
subscribers.
Pen Registers Do Not Translate Neatly Onto the Internet
    A pen register collects the ``electronic or other impulses'' that 
identify ``the numbers dialed'' for outgoing calls and a trap and trace 
device collects ``the orginiating number'' for incoming calls. 18 
U.S.C. Sec. 3121 et seq. The Supreme Court has held that the numbers 
collected by a pen register on a telephone line reveal so little about 
a person's communication that they are not constitutionally protected. 
Smith v. Maryland, 442 U.S. 735 (1979). The Court has stated, ``Neither 
the surpost of any communication between the callerand the recipient of 
the call, their identities, nor whether the call was even completed is 
disclosed by pen registers.'' United States v. New York Tel. Co., 434 
U.S. 159, 167 (1977). (While the information is not constitutionally 
protected, it is sensitive, and as CDT and others have noted, the 
standard for pen registers in the telephone world is now too low, since 
even phone numbers dialed can draw a profile of a person's life.)
    Carnivore's apparent attempt to extend ``pen registers'' and ``trap 
and trace'' orders to the Internet is not a simple matter. Access to 
Internet transactional data is not clearly supported by the pen 
register statute, which refers to the collection only of ``numbers 
dialed'' on the ``telephone line'' to which the device is attached. 
Moreover, Internet origin and destination addresses can be far more 
revealing than the Supreme Court contemplated in Smith v. Maryland and 
New York Tel. Co.
    Extending the use of pen registers to new telephone devices and 
services--such as pagers, or numbers dialed after a call is completed--
has been the subject of debate \2\ and was one of the issues in the 
CALEA lawsuit where the Court of Appeals reversed the FCC. \3\ But 
Carnivore is indicative of a whole new and problematic expansion of the 
pen register to the Internet. See CDT memo dated April 4, 2000, 
``Amending the Pen Register and Trap and Trace Statute in response to 
Recent Internet Denial of Service Attacks, and to Establish Meaningful 
Privacy Protections,'' http://www.cdt.org/security/
000404amending.shtml.
---------------------------------------------------------------------------
    \2\ See,. e.g., Brown v. Waddell, 50 F.3d 285, 290-91 (4th Cir. 
1995) (refusing to classify a digital display pager clone as a pen 
register).
    \3\ See United States Telecomm Assoc. v. FCC, No. 99-1442 (D.C. Cir 
Aug. 15, 2000).
---------------------------------------------------------------------------
    The first question is what Internet transactional data may be 
collected and under what standard. It is one thing if the FBI were 
using the pen register authority only to collect IP addresses 
(provided, of course, that the isolation were done by the service 
provider rather than by an FBI-controlled Carnivore). In the packet-
switched Internet, the literal ``destination'' of an intercepted 
message is often the Internet Protocol (IP) address of the link on 
which it is observed. This information is found in the header of a 
packet. So is the Ethernet address it is being sent to on a local 
network. If the government is seeking just IP or Ethernet address 
information, it can find it in the header of a packet, which is easily 
separated form the content.
    But if by destination the government means the ``To:'' line of an 
e-mail message, that is often within the packet's content payload, and 
as the DC Circuit recently made clear, intercepting addressing 
information that is commingled with content requires authority to 
intercept content. United States Telecomm Assoc. v. FCC (Aug., 12, 
2000).
    In an effort to illustrate this point, I have attached some packets 
we ``sniffed'' off our own DCT network. Example 1 shows a packet for a 
visit to Chairman Hatch's web page. The header of the packet includes 
the source the destination IP addresses. In this case, the source IP 
address 207.2263.15 is a computer at CDT and the destination 
199.95.76.12 is the U.S. Senate web server. (If you type 199.95.76.12 
into your browser after http://, it takes you to the Senate home page 
just as if you had typed www.senate.gov.) So the header, which can be 
easily separated from the content payload, would provide information 
that might be similar to the information that a pen register would 
provide on a person at CDT who called 224-3121, the Senate switchboard.
    However, if the FBI wanted to know what precise page I was viewing, 
they would need to reach into the content (TCP data) portion of the 
packet. There they would find that I had asked for (``Get'') a copy of 
/-hatch/greeting.ram. Anybody typing that into a browser would find 
that I had downloaded the video greeting on the Chairman's web page. 
Thus, they would know the precise content of my Web viewing.
    In other cases, where law enforcement is apparently seeking origin 
and destination addresses that are more than link IP addresses, they 
will be forced to analyze the contents of packets. For example, 
attached in Example 2 are three sample IP packet ``sniffed'' as they 
went from CDT's network to our ISP. The packets are part of an e-mail 
message from me to Makan Delrahim, a member of the Committee staff. The 
header of each packet shows the IP addresses of the packet's origin (a 
computer at CDT) and destination (our ISP's mail server, which will 
next send the packet to the Senate mail server). To find out to whom 
the e-mail is addressed to, one would need to read and analyze the 
contents of specific packets. Is Carnivore able to pick out only the 
one packet that contains only the ``To:'' information and the one 
packet that contains only the ``From:'' information? It would be nice 
to have some assurance other than the FBI's say-so.
    The e-mail addresses in the To and From lines are much more 
revealing than ``numbers dialed'' in that they are associated with 
specific persons. In the case of a Web site, the URL can disclose 
specific pages visited, books browsed, or items purchases. And as 
people move more of their lives online, a list of e-mail recipients by 
name or web sites visited can provide a very detailed dossier of 
activities--all available without the heightened protections of a 
wiretap or even a standard Fourth Amendment warrant. For example, 
attached in Example 3 is a sample IP packet showing a search for a book 
on the Barnes and Noble web site. Again, the IP address information is 
available in the header; the URL in the body of the message reveals 
information about what books the user is looking at--here, books on 
prostate cancer. (A subsequent URL might indicate that the person 
actually bought the book.) Taken together, a collection of such 
``destination'' information could generate a revealing list of a 
person's interests and activities. In this way, Internet transactional 
information is more revealing than telephone transactional data.
    CDT has long urged, and there seems to be a consensus, that 
Congress should raise the standards for use of pen registers across the 
board. Under the current standards, a judge ``shall'' approve any 
request signed by a prosecutor certifying that ``the information likely 
to be obtained is relevant to an ongoing criminal investigation.'' 18 
U.S.C.Sec. Sec. 3122-23. This is low standard of proof, similar to that 
for a subpoena, and judges are given no discretion in the granting of 
orders. Pen registers are executed with neither public nor judicial 
oversight: in contrast to wiretap orders, there is no requirement that 
the government ever report back to the authorizing judge on the results 
of a pen register and no requirement of notice to the targets of pen 
registers. Unlike wiretaps, there are no national reporting reqirements 
on the use of pen registers. The Justice Department reports on its own 
use, but this does not include numerous federal, state and local use.
    The Carnivore debate raises Fourth Amendment questions for pen 
registers online. Courts have found that consumers have no 
``expectation of privacy'' in the digits they dial on a telephone.\4\ 
Given the revealing nature of Internet transactional information, it 
would seem that users do have a reasonable expectation of privacy in 
the URLs of Web sites they visit and the email addresses of those with 
whom they communicate, such that an intermediate standard is necessary 
for collecting certain Internet transactional data. See 18 U.S.C. 
2703(d) and H.R. 5018, the ``Electronic Communications Privacy Act of 
2000,'' introduced by Reps. Canady and Hutchinson.
---------------------------------------------------------------------------
    \4\See Smith v. Maryland, 442 U.S. 735 (1979). The Court's 
reasoning relied in part on its understanding that ``pen registers do 
not acquire the contents of communications.''
---------------------------------------------------------------------------
Reinvigorating the Fourth Amendment in Cyberspace
    On May 25, 2000, I testified before this Committee about the ways 
in which the statutory and constitutional framework governing 
electronic surveillance has been outpaced by technological change. 
http://www.senate.gov/-judiciary/52520jxd.htm.
    To update the privacy laws, and respond specifically to Carnivore, 
Congress could start with the following issues:
    <bullet> Increase the standard for pen registers across the board.
    <bullet> Define and limit what Internet transactional information 
can be disclosed to the government and under what standard.
    <bullet> Add electronic communications to the Title III 
exclusionary rule in 18 USC Sec. 2515 and add a similar rule to the 
section 2703 authority. This would prohibit the government from using 
improperly obtained information about electronic communications.
    <bullet> Require notice and an opportunity to object when civil 
subpoenas seek personal information about Internet usage.
    <bullet> Improve the notice requirement under ECPA to ensure that 
consumers receive notice whenever the government obtains information 
about their Internet transactions.
    <bullet> Require statistical reports for Sec. 2703 disclosures, 
similar to those required by Title III.
    <bullet> Make it clear that Internet queries are content, which 
cannot be disclosed without consent or a probable cause order.
    <bullet> Provide enhanced protection for information on networks: 
probable cause for seizure without prior notice, and a meaningful 
opportunity to object for subpoena access.
    The recent White House announcement \5\ on privacy and surveillance 
adopts some of these proposals. Extension of the wiretapping 
exclusionary protections to electronic interceptions is a particularly 
welcome step. Increasing the standard for pen registers is an 
improvement, but will not be sufficient if such orders are applied 
broadly (i.e., include URLs) to the Internet. On the other hand, the 
proposed expansion of the Computer Fraud and Abuse Act criminalizes an 
unnecessarily broad range of activities online. The proposal fails to 
address the need for heightened protections for private data held in 
the hands of third parties. And there are other changes buried in the 
proposal that we are still analyzing. CDT is prepared to work with 
Congress and the Justice Department to continue to flesh out the needed 
privacy enhancements, and to convene DPSWG as a forum for discussion 
and consensus building on these issues.
---------------------------------------------------------------------------
    \5\ See Ted Bridis, Updating of Wiretap Law for E-Mail Age is Urged 
by the Clinton Administration, Wall Street Journal., July 18, 2000, at 
A3.
---------------------------------------------------------------------------
Conclusion
    The Carnivore system requires greater public scrutiny. It should be 
controlled by the ISPs. More broadly, it speaks to the need for 
modernization of our surveillance laws and greater privacy protections 
to counteract the real threats to privacy online.
    Protecting national security and public safety in this new digital 
age is a major challenge and priority for our country. On balance, 
however, the new sources of data and new tools available are proving to 
be a boon to government surveillance and law enforcement. We do not 
need to ignore traditional standards in order to respond to the new 
technologies. The attempt to literally translate all current 
surveillance capabilities directly onto the Internet may not be 
possible or desirable in all cases, or may require new privacy 
protections.*ERR03*
[GRAPHIC] [TIFF OMITTED] T4729A.001

[GRAPHIC] [TIFF OMITTED] T4729A.002

[GRAPHIC] [TIFF OMITTED] T4729A.003

[GRAPHIC] [TIFF OMITTED] T4729A.004

[GRAPHIC] [TIFF OMITTED] T4729A.005

[GRAPHIC] [TIFF OMITTED] T4729A.006

[GRAPHIC] [TIFF OMITTED] T4729A.007

    The Chairman. Professor Rosen, we will conclude with you. 
We would like to have some questions here before we finish.

                   STATEMENT OF JEFFREY ROSEN

    Mr. Rosen. Thank you so much, Senator. It is an honor to be 
here. I just want to talk very briefly at the end of this 
hearing about uncertainty, and in particular about the cost of 
the uncertainty that results from covert monitoring on the 
Internet, and this is the uncertainty of innocent citizens who 
can't be sure whether or not their intimate communications are 
being intercepted by State officials or by ISP's.
    It strikes me that even at the end of this fascinating and 
informative hearing, there is a great deal of uncertainty that 
continues to be associated with Carnivore. I was interested and 
encouraged to hear Dr. Kerr testify that Carnivore is only made 
available to ISP's if they are unwilling or unable to conduct 
the search themselves, and that it is removed as soon as the 
court order expires. Surely, this procedural regulation should 
be codified to reduce the uncertainty of innocent citizens who 
may fear that their Government has technical access to their 
messages without their knowledge or consent.
    There are, as you began by saying, Senator Hatch, other 
uncertainties associated with Carnivore. The FBI is legally 
forbidden from monitoring the communications of citizens who 
are not targets, but the mere knowledge that Government agents 
have the technical capacity to read e-mail messages will 
greatly increase the uncertainty of innocent citizens at a time 
of widespread concern over privacy over the Internet.
    It is also true that one of the safeguards of the system, 
the audit trail records that record precisely which 
communications are intercepted, is made available to targets 
only if a prosecution actually results. So innocent citizens 
who are not targets have no notice when they are being 
monitored and no confidence that they are not being monitored.
    Senator Hatch, I would be delighted to give you a copy of 
my book. It is called ``The Unwanted Gaze: The Destruction of 
Privacy in America,'' available everywhere from Random House. 
And I will take this opportunity to note that the title, ``The 
Unwanted Gaze,'' actually describes the consequences when 
people are not certain about whether or not they are being 
observed.
    It comes from a beautiful passage actually in Jewish law 
that describes the anxiety and inhibition that results when 
citizens are being watched without their knowledge. There is a 
body of doctrine called hezzek re'iyyah, which means the injury 
caused by seeing or the injury caused by being seen. So when 
your neighbor puts up a window, observing you in a common 
courtyard, you are entitled not only to prohibit the neighbor 
from observing you, but also actually to require that the 
window be taken down because medieval authorities recognized 
that it was not only the surveillance itself, but uncertainty 
about whether or not surveillance is taking place, that forces 
us to lead more constricted lives and inhibits us from speaking 
and acting freely in private places.
    So, understandably, the consensus among these medieval 
jurists was that the window had to come down even if the 
individual whose privacy was violated failed to protest because 
there was this uncertainty that made everyone act in a more 
inhibited way in spaces that should be considered private.
    I am concerned particularly at this moment of uncertainty 
about the Internet that the Carnivore System, even if it were 
administered scrupulously, would increase the anxiety about 
monitoring on the Internet at precisely the moment when many 
citizens are afraid to use e-mail because of concerns about 
privacy.
    There are several surveys of the health effects of 
monitoring in the workplace that suggest that electronically-
monitored workers express higher levels of depression, tension 
and anxiety, and lower levels of productivity than those who 
are not monitored.
    Now, let me briefly address the constitutional issue which 
has been touched on, but seems to me a very hard one, and this 
is the question does Carnivore violate the fourth amendment. It 
seems to me that one could make a strong argument on either 
side. Is this the quintessential example of an unreasonable 
search or is it the precisely tailored example of the perfectly 
reasonable search?
    Carnivore operates very much like an ingenious and 
hypothetical search that was discussed in a fascinating article 
in the Yale Law Journal recently, and this is a program called 
the worm. So the worm is a form of computer software that the 
Government can dispatch to enter your computer without notice. 
It scans your hard drive for illegal software or specified 
words or images, pornographic pictures or any other evidence 
that the Government is looking for. If the worm finds what it 
is looking for, it can alert the FBI. And if not, it destroys 
itself, leaving no trace of its presence.
    So in some respects, the worm seems very much like 
Carnivore, and it looks precisely like the general warrants 
that the Framers of the fourth amendment meant to prohibit. 
Both Carnivore and the worm can monitor millions of computer 
users without probable cause to believe that a crime has been 
committed, and they search broadly without particularized 
suspicion of people or places.
    But in other respects, the worm, like Carnivore, avoids all 
of the spillover effects that led the Framers of the fourth 
amendment to condemn general warrants in the first place. 
Rather than exposing innocent as well as illegal material, it 
focuses on the illegal material with greater precision.
    So, Senator Leahy, you began by noting that in the 18th 
century if you wanted to read someone's diary, you had to break 
into their house and rifle through their desk drawer, and then 
you would see a lot of innocent information in the course of 
searching for guilty information. Carnivore, if properly 
administered, might be said to avoid all of those effects and 
only reveal the guilty information. So I don't think we should 
be alarmist or hyperbolic about this difficult question of 
constitutional translation.
    Senator Leahy. Are there people who are being alarmist or 
hyperbolic here?
    Mr. Rosen. Are people being hyperbolic? I should say that I 
have a hyperbolic instinct when I hear about Carnivore because 
my fourth amendment knee jerks. But when we think about this 
responsibly, it seems to me a hard constitutional question.
    Senator, let's remind ourselves, too, how far we have moved 
from the world of searches of private diaries in desk drawers. 
In the 18th century, the search of a private diary was 
considered the quintessential example of an unreasonable 
search. We have the story of John Wilkes, the famousEnglish 
patriot whose diary was searched by King George, sued in trespass and 
won ruinous damages. It is only recently that private diaries have lost 
their constitutional protection, we learned from the case of Senator 
Packwood.
    It is also true that in the famous article about the right 
to privacy written by the future Justice Brandeis, he noted 
that if a man wrote in a letter to his wife that he hadn't 
dined with his son that day, not only the content of the letter 
but also a general list of its subject matter would be 
protected from public exposure because it wasn't the 
information itself, but the domestic occurrence.
    We have fallen very far from there to a world where the 
list of the subject matters of e-mails are available on a 
general standard of relevancy. And one of the things you might 
consider, Senator, because I know both of you have been so 
important in thinking about pen registers, is whether a higher 
standard for the subject matter of e-mails, some more like 
reasonable cause, might be appropriate.
    I will conclude by echoing Michael O'Neill's notion that 
the search of this subject matter information seems far more 
invasive than a pen register because they reveal so much more 
identity, both the names of the recipient and the sender, and 
in the case of URL's the bookstores that you have searched and 
the actual search terms themselves. So this is why a reasonable 
cause standard might be appropriate.
    It seems to me that none of the FBI's testimony at previous 
hearings suggests compelling reasons why e-mail interception 
should depart from traditional statutory models for regulating 
wiretaps. I agree with James Dempsey that Internet service 
providers rather than the FBI should at least have the first 
opportunity of producing relevant communications specified by a 
court order, and Carnivore should not be imposed but made 
available to those who can't afford to undertake this search.
    You might also think about other possibilities, keeping 
audit logs for all communications monitored by Carnivore, not 
simply those that result in prosecution, and increasing 
procedural protections for innocent communications to reduce 
the uncertainty of citizens who have no notice about whether or 
not monitoring has occurred.
    But my big point is just the costs of uncertainty are 
great. This is an anxious time for the Internet. At the very 
least, innocent citizens need to be reassured that their 
Government is not observing their intimate messages without 
their knowledge or consent.
    Thank you.
    The Chairman. Mr. Cerf, let me just turn to you first, and 
perhaps I should express the gratitude of the Vice President 
for your assistance in helping him to invent the Internet. 
[Laughter.]
    I just couldn't resist.
    I notice you had some differences, or at least you looked 
like you had some differences with Professor Rosen. I will give 
you a chance to respond.
    Mr. Cerf. Senator, I am sorry. I am having trouble hearing 
you. I am hearing-impaired and my hearing aids are not picking 
you up.
    The Chairman. That is fine. I do have a soft voice, too 
soft--my wife says.
    I noticed you had some difficulties with what Professor 
Rosen was saying.
    Mr. Cerf. I had some reactions.
    The Chairman. I would like to see what you have to say.
    Mr. Cerf. I would like to suggest two things to our 
panelists. One suggestion about putting the Carnivore software, 
or the equivalent thereof, in the hands of the ISPs for 
purposes of having them perform these searches strikes me as 
alarming, frankly.
    If I were a member of the public wondering who is managing 
that software and doing things with it, I would be more 
concerned if it were available to and generally in use by ISP 
personnel, who need not necessarily understand or follow all 
the restrictions and constraints that the FBI would follow. So 
it seems to proliferate that strikes me as being excessive 
compared to what the FBI proposes, as I understand it, which is 
to place the equipment there only during the period of time 
that surveillance is required and then remove it again.
    Have I misunderstood that?
    Mr. Kerr. No. That is correct.
    Mr. Cerf. So in some sense, the proposition puts the 
facility at broader spread than it would otherwise. That is one 
point.
    You wanted to respond to that?
    Mr. Dempsey. Well, I was just going to say that this use of 
Carnivore or unauthorized access to electronic communications 
is equally a crime. The sanctions are the same and the 
definition of the offense is the same----
    Mr. Cerf. No debate there.
    Mr. Dempsey [continuing]. Whether it is done by Government 
officials or by ISP's.
    Mr. Cerf. But I have the feeling that the ISP geeks may be 
less familiar with the penalties and with the restraints than 
the gentlemen from the FBI. So I would propose that that is not 
the best idea in the whole world.
    The other reaction that I had, Mr. Chairman, was any 
comparison of the Carnivore system with the worm is technically 
ill considered. The worm is a very different kind of beast. It 
is a mobile piece of software. That is not the way the 
Carnivore system functions.
    I did have the opportunity to go down to Quantico and have 
a pretty thorough briefing and to see the Carnivore system in 
operation. I regret that other members of the technical 
community appear to have felt unable to do that or are 
reluctant to do so. It was a helpful briefing, and I feel as 
though I have a much more firm understanding of what it can and 
cannot do.
    I still have concerns about it, as you could tell, I hope, 
from my comments on how much you have to look at in order to 
filter appropriate content. But I think the comparison with the 
worm is not well considered and I think should be rethought, 
Mr. Rosen.
    Mr. Rosen. I should suggest I was not making a technical 
comparison between Carnivore and the worm, but simply in the 
nature of the focused search. Limited to that particular 
aspect, it seems to me they are exactly analogous in the sense 
that it only reveals the information it is looking for and 
doesn't reveal to any human agent information it is not looking 
for. That was the limit ofthe comparison.
    Mr. Cerf. OK, then you are not proposing that the Carnivore 
is a mobile piece of software that moves around and jumps into 
millions of machines, which it does not do?
    Mr. Rosen. I am a lawyer, not a technician, sir. I will 
defer to you on----
    Mr. Cerf. I will forgive you for that.
    Mr. O'Neill. If I could just make a point, sort of a means 
of follow-up, I think one of the difficulties and what perhaps 
concerns people is the idea that there is software and also 
hardware, because Carnivore apparently is both, and it is 
unclear precisely what it does or what its capabilities either 
currently are or can be.
    I mean, we all know--and I am not a technician particularly 
either, but we all know that software is not only dependent 
upon what it is, but how it is updatable, how it is modifiable, 
and how in any individual case it can be configured.
    Now, I happen to be not in the camp of those who would like 
to see the Carnivore source code released to the public. I 
think that would, in part, defeat its purpose. But I do think 
that it is important for this body to have oversight to make 
sure that at least someone is watching the watchers. And it 
seems to me that that is the important role that Congress can 
play in this whole decisionmaking process.
    The Chairman. Go ahead.
    Mr. Cerf. Well, I am thinking that the existing 
surveillance mechanisms are in place now and we must have 
someone watching the watchers, I hope. I mean, I would assume 
that that is true. So wouldn't the same watchers who currently 
oversee this----
    Senator Leahy. Don't always assume that, Mr. Cerf.
    The Chairman. No, you can't always assume that.
    Mr. Cerf. I am sorry?
    Senator Leahy. I said don't always assume that.
    Mr. Cerf. Well, all right. If I am incorrect, then we have 
a bigger problem than just Carnivore.
    The Chairman. It is a big problem. We want you to know it 
is a big problem.
    Professor O'Neill, you gave us 10 reasons that you didn't 
define, but let me just go through those. No. 1, you say with 
respect to Carnivore itself, Congress ought to obtain 
briefings, classified if necessary, to get a better 
understanding of what Carnivore is designed to do, how it does 
it, and whether there exists potential for abuse.
    No. 2, Congress ought to determine what the statutory 
authorization for Carnivore is and whether law enforcement has 
the authority to insist that a service provider install 
Carnivore.
    No. 3, if implemented in some fashion, Congress should 
require that statistics be maintained by the Justice Department 
and that these so-called, ``audit trails,'' be routinely 
provided for legislative oversight.
    No. 4, Congress should seek to learn whether Carnivore can 
easily be defeated by encryption software or E.A. Poe-type 
purloined letter schemes.
    More broadly, No. 5, hearings ought to be conducted to 
determine whether all Internet trap and trace orders should be 
issued only on the basis of the judicial finding that 
reasonable cause exists to believe that a target has or is 
about to commit a crime.
    No. 6, the executive branch ought to be required to provide 
consumers with notice whenever the Government obtains 
information about their Internet transactions.
    No. 7, specific statistical reports for pen register or 
trap orders for Internet communications similar to the reports 
required under title III ought to be required.
    No. 8, Congress should explicitly provide that Internet 
queries, e-mail subject lines, URL's of sites visited, and 
other information which provides more than the equivalent of a 
dialed number cannot be disclosed without a probable cause 
order.
    No. 9, Congress should consider requiring notice and 
opportunity for defendants to object when civil subpoenas seek 
personal information about Internet usage.
    And, No. 10, provide enhance protection for information on 
networks, probable cause for seizure without prior notice, and 
a meaningful opportunity to object for subpoena access.
    Then you say, ``At bottom, I would urge a cautious, 
thoughtful approach when it comes to expanding surveillance 
capabilities. The conflict between increased security and 
enhanced privacy protection is not easily resolvable, nor will 
it likely ever be. But Congress ought to seize the moment to 
ensure that robust debate occurs before law enforcement's 
powers are enhanced and regardless of how the balance is 
struck.''
    I thought those were pretty good suggestions, to be honest 
with you. I don't know how the FBI feels, but having heard 
them, what do you think, Mr. Kerr.
    Mr. Kerr. Well, I must say that I have just heard them for 
the first time, as you have read them off.
    But if you would permit me, Mr. Chairman, there were some 
questions and suggestions raised about our interactions with 
the Internet service providers and I think I can help you on 
that.
    The Chairman. Well, let me add to that because it was 
raised here in this article in USA Today, which I have read--it 
appears to cast doubt on whether any university is willing to 
take the study of Carnivore under the restrictions that have 
been placed on such a study by the FBI, or at least the 
restrictions they think are placed by the FBI. In fact, Mr. 
Dempsey has pointed that out, I think, fairly strongly, and I 
would just like you to comment about that in your overall 
comments.
    Mr. Kerr. All right. The first point I should make 
absolutely clear is that the FBI is not soliciting this review. 
It is being done by the Department of Justice, and in 
particular under the auspices of Steve Colgate, the Assistant 
Attorney General, head of the Justice Management Division.
    While I will be part of reviewing the report once it is 
prepared, I will have nothing to do with determining the scope 
of that study or the acceptability of the outcome. We did it 
precisely to avoid having the FBI funding a look at its own 
equipment and capabilities.
    Senator Leahy. Does the FBI support the study, though?
    Mr. Kerr. Yes, absolutely.
    Senator Leahy. Thank you.
    The Chairman. Have you set the restrictions on the study, 
though, or has the Justice Department set the restrictions?
    Mr. Kerr. The Justice Department.
    The Chairman. Mr. Di Gregory, is that right?
    Mr. Di Gregory. That is correct, Senator.
    The Chairman. Why have restrictions?
    Mr. Di Gregory. Well, there are certain restrictions that 
we believe are necessary. The one restriction, for example, is 
the restriction on the release of the source code. We don't 
believe that the source code should be released publicly 
because that could hamper law enforcement efforts.
    The Chairman. I can understand that.
    Mr. Di Gregory. And a general restriction with respect to 
the scope and the nature of the review is that the review is a 
technical review. The review was never intended to be a legal 
review, but a technical review to determine whether or not 
Carnivore does the things it claims it does.
    The Chairman. Then why are these universities having such a 
difficult time taking on that review?
    Mr. Di Gregory. I don't know. That is probably a question 
you would have to ask the particular universities involved, and 
I can't comment any further on the procurement process.
    The Chairman. But am I correct in inferring that all the 
universities approached thus far have refused to take on the 
review?
    Mr. Di Gregory. First of all, I don't know the answer to 
that, and even if I did know, I wouldn't comment on it because 
there are restrictions with respect to commenting on the 
procurement process that I am not completely familiar with, but 
am familiar enough with to know that I don't want to get in 
trouble. So if you wouldn't mind my----
    The Chairman. Well, you don't want to get in trouble with 
us either, do you?
    Mr. Di Gregory. I don't, Senator. [Laughter.]
    The Chairman. I understand.
    Mr. O'Neill. One thing I would add to that, Senator, is it 
is interesting, though, that--and I think the Department of 
Justice ought to be commended for taking these steps, but I 
think it is interesting that it seems to be--if you sort of 
follow the time line, at least, it is in large part because 
Congress chose to take oversight of this because this 
information was leaked to the press that the Department of 
Justice then sought this outside independent review, which is 
entirely the appropriate and proper thing to do, and it is, of 
course, the role that Congress ought to be playing here.
    The Chairman. Well, your ten suggestions are very broadly 
written. I would like you and Mr. Rosen and others, and 
especially you, Mr. Cerf and Mr. Dempsey, to look at these and 
see if you can improve upon them and make suggestions for us 
and for the Justice Department and for the FBI as to how we 
might do this.
    Look, this is something that is really terrifying a lot of 
people around the country. Are we going to have an Orwellian 
type of investigative Government now that we are in this 
Orwellian type of a world which is doubling now in capacities 
in revolutionary ways?
    This is scary stuff. We have people who don't want anything 
to be done in this area. And, of course, we have people that 
are terrified that if we keep allowing the Internet to be used 
as a source for crime and criminal activity, this society is 
going to be very badly damaged. So I would like you all to 
spend some time on that.
    Mr. Cerf, go ahead, and then I will go to Mr. Kerr.
    Mr. Cerf. There is a book that was published recently by a 
gentleman named Amitai Etzione. The title, if I remember 
correctly, is something like ``The Limits to Privacy.''
    The Chairman. Right.
    Mr. Cerf. In that book is what I thought was a fairly 
reasoned and balanced discourse about the protection of 
personal privacy.
    The Chairman. And you think Etzione's discourse would apply 
in this case, in this digital world?
    Mr. Cerf. You say it would not apply?
    The Chairman. No. Do you think it would apply?
    Mr. Cerf. I believe that it would because his premise is 
that there is a balance to be reached, as I think several 
panelists have said, between the protection of personal privacy 
and personal information, and the need to protect the general 
public's well-being from people who don't mean it well, 
criminal elements.
    And what Etzione argues in this book is that it is possible 
that we have gone too far in one direction or another. It is a 
worthwhile book to read, if only to be provoked into thinking 
about what the balance could be or should be.
    The Chairman. Mr. Kerr.
    Mr. Kerr. Two points that I would like to make very 
briefly, Mr. Chairman. First, the suggestion that in any way 
information about Carnivore was leaked to the press and has led 
to hearings and press coverage is absolutely wrong. We have 
been briefing on Carnivore for about 18 months. It has been 
reviewed substantially within the Department of Justice. It has 
been briefed to many companies, many trade associations.
    We have offered two ISP's complete access for them to 
review the product and its performance, and in no way have we 
attempted to conceal its existence or its intended purpose. And 
so I find it rather surprising at this juncture that that is 
still the view. We have briefed many members of the 
congressional staff as well.
    With respect to the concern about ISP's and their access, 
the thing we safeguard is the integrity of the evidence. The 
box where we record the information is locked and accessible 
only to an FBI agent. Also, the PC on which the system is based 
has its keyboard and monitor removed so that, in fact, a 
passer-by can't make a change either maliciously or 
inadvertently. And we don't allow them to use the remote dial-
up access which we employ and log, but that is what tells us 
when the memory is full and an agent needs to go and remove the 
disk.
    So we have tried to design it not only with great 
specificity to respond to the court orders, but, in fact, with 
a view toward maintaining the integrity and authenticity of the 
evidence we collect, and to be able to testify after the fact 
in court that we did so, who had access, when they had access, 
and what the settings of the device were.
    I hope that clarifies the point.
    The Chairman. Well, it helps, except for one thing. As I 
understand your testimony, you indicated that Carnivore has 
been used in some 25 cases so far. Is that correct?
    Mr. Kerr. Yes, sir. It is now between 25 and 30. That is 
correct.
    The Chairman. There are reports that the Attorney General 
was not aware of it--according to press reports, was not aware 
of Carnivore. And I hear from constituents that their concern 
with Government surveillance is not their objection to 
authorized uses of it, but the potential uses without the 
proper checks and balances on Government search and seizure 
that our country and Constitution are based on.
    What concerns most citizens and concerns me deeply are 
reports that the FBI developed and deployed the Carnivore 
system without even the knowledge of the Attorney General 
herself. That may be par for the course for this Justice 
Department, but you cannot take this lightly, given the 
fundamental civil liberties that are implicated here.
    Now, my sense is that much of the controversy surrounding 
Carnivore is due to the apparent perception, rightly or 
wrongly--and I would like you to clarify this--that there is no 
check on its use by the FBI. Now, I would like, Mr. Kerr, you 
and Mr. Di Gregory to explain to us to what extent the 
development and deployment of new surveillance technologies by 
Federal law enforcement have to be authorized by Congress.
    In other words, under what delegated authorities are new 
technologies, in general--and Carnivore in particular--
developed, and was there specific authorization by Congress or 
the Attorney General to develop and use Carnivore or other 
similar systems?
    Are these press reports right that the Attorney General 
didn't even know about it until recently? And answer the 
question as far as what rights do you have to go ahead with it.
    Mr. Kerr. Mr. Di Gregory is going to give the first part of 
the answer and I will give the second.
    The Chairman. Okay, that will be great.
    Mr. Di Gregory. From what I understand, Senator, without 
knowing of the name ``Carnivore'' or without knowing of the 
specific program--this is my understanding--the Attorney 
General was aware of the FBI's capacity to do this kind of 
surveillance. I think Ms. Stansell-Gamm may have some more 
detail about that.
    The Chairman. But the Attorney General was unaware of the 
actual software that was being developed or has been developed?
    Ms. Stansell-Gamm. I simply don't know at what point the 
Attorney General became aware of this specific tool or the name 
of the tool.
    The Chairman. Then answer the second question. What 
authority do you have to do this and to have used it in 25 
cases? Has Congress given you any authority?
    Mr. Kerr. Well, in fact, Congress appropriated the money, 
pursuant to our budget request, within which there is a 
specific line related to electronic surveillance, and 
particularly the development of tools for access to data 
networks, the Internet, and the like. It has been in our budget 
for a number of years. It is part of our continuing response to 
be able to carry out our mission to lawfully intercept 
communications as technology evolves.
    The Chairman. We are happy to have Mr. Parkinson and Ms. 
Stansell-Gamm here with us today.
    Ms. Stansell-Gamm. I would like to answer your question 
another way, if I could. It has been at least 3 years ago since 
the Attorney General made a press announcement about the case 
called Ardita, which Mr. Dempsey referred to, kindly, as one of 
our law enforcement success stories. And she briefed that case 
in great detail to the press, and the core of that story was 
what we were able to do and how we were able to do it.
    It involved an electronic wiretap at a network at Harvard 
University that this hacker, who turned out to be in Argentina, 
was using as a platform for attacking DOD systems all over the 
world. The investigative problem that we had was how to find 
the needle in the haystack, how to find Mr. Ardita's 
communications in the haystack of legitimate traffic.
    The Attorney General understood how we were able to do 
that, which was supervised very closely by a court in Boston. I 
think there were two separate title III orders. And because the 
tool that we were using to do that was a tool that was not as 
sophisticated as Carnivore but, as Mr. Cerf has pointed out, 
captured a great deal more hay than the needle, the minimizing 
process was far more exacting, required several steps and, in 
fact, required an agent to look at some text strings.
    The irony of all of this is that while----
    Senator Leahy. Instead of carnivore, was that omnivore?
    Mr. Stansell-Gamm. No, that was not omnivore. In fact, it 
was a tool developed by the Navy called NIDS, Network Intrusion 
Defense System. The Air Force has one that they call Sniffy. 
You know, they all have their different names, but these tools 
have been used by law enforcement in a variety of agencies for 
some time, under the strict supervision of courts.
    As I say, the irony of all of this is that the tool 
Carnivore is the most selective, the most discreet, the most 
controllable, the one that is most likely to be able to reach 
in and pull out only the needle, although, as you say, it is a 
very hard problem.
    The Chairman. Maybe bits of needles.
    Ms. Stansell-Gamm. Bits of needles, exactly, while the 
haystack is moving by.
    The Chairman. Right.
    Ms. Stansell-Gamm. It is a very difficult technological 
challenge. So this represents, in my view, quite a good-faith 
attempt on the part of the FBI engineers to respond to the 
challenge of collecting information on the Internet in ways 
that comply strictly with our legal authorities, and to do it 
in very discreet, controlled ways that create records. That is 
what this tool does.
    The Chairman. Let me turn to Senator Leahy. I have taken 
long enough.
    Senator Leahy. You know, it is interesting as we examine 
these issues to look back at lost opportunities. A few years 
ago, I suggested some better procedures for applying for 
warrants on pen registers, and so forth, and the FBI has always 
been reluctant to talk about that.
    Now, I find, since Carnivore came out, some of my 
colleagues in the House have proposed that we change not just 
the procedures, but also the standard for pen registers and 
traps and traces to an extent that I think that probably 
Justice and the FBI would wish that they had paid more 
attention to the suggestions that Imade. But I assume from the 
fact that they haven't expressed any change of heart about my prior 
proposal that, they reject that and would prefer that I support the 
legislation, for example, of Representatives Canady and Hutchinson, 
H.R. 5018, which proposes a more stringent standard for pen registers, 
trap and trace, and similar devices that would identify e-mail 
addresses, like Carnivore.
    That legislation would require specific and articulable 
facts reasonably indicating that a crime has been or is being 
or will be committed, plus a showing of relevance of the 
information sought to the investigation of that crime. Another 
bill introduced by Representatives Barr and Emerson, H.R. 4987, 
would apply that same greater standard to all pen registers and 
traps and traces, whether or not they would identify e-mail 
addresses.
    Since the source and destination information about e-mail 
may have content in a way that a dialed telephone does not, 
should we change the standard for pen registers and traps and 
traces, or do my earlier suggestions now suddenly sound better 
to you?
    Mr. Di Gregory. As you may know, Senator, the 
administration has put forth a proposal which would elevate the 
standard required for trap and trace or pen register 
information, though not quite the same standard that is put 
forth by Barr and Canady. Our standard would require the 
prosecutor--the one that is proposed would require the 
prosecutor to submit a factual statement rather than merely a 
certification, and that that factual statement would be viewed 
by a court and a court would determine whether or not the 
factual statement was sufficient to establish that the 
information to be obtained from pen register or trap and trace 
was information relevant to an ongoing criminal investigation.
    Senator Leahy. Does that mean you don't like their 
legislation?
    Mr. Di Gregory. There are problems with their legislation. 
The one that comes to mind initially is that the legislation 
submitted by specifically Representative Canady is e-mail-
specific. It is not even Internet-specific, but it is e-mail-
specific, and that creates a problem.
    As we have said in other contexts and have said before 
Chairman Canady's subcommittee, we believe that any legislation 
that is developed with respect to the substantive criminal law, 
or even the procedural criminal law as it relates to the 
Internet should be as much as possible technology-neutral. We 
don't think that there should be a different standard for the 
interception of e-mails versus the interception of telephones--
excuse me; I used the word ``interception''--for a pen register 
or a trap and trace for e-mails as opposed to a pen register or 
trap and trace for telephones.
    Senator Leahy. Dr. Kerr, do you feel the same way?
    Mr. Kerr. I will take the easy-out, sir. As you know, I am 
a physicist and I don't normally opine on matters of the law.
    Senator Leahy. Thank you. There is nothing wrong with that 
answer.
    We got a letter from the FBI last month that described the 
operation of Carnivore. It said, ``It does not snoop through e-
mail traveling through an ISP network by searching for key 
words or reading the subject line or any other content.''
    But the nature of how the Internet works, as I see it 
anyway, is that the specific communications or addressing 
information of a suspected criminal, one who has been targeted 
under a court order, are mixed all up like a stew with all the 
other packets of different Internet users carried by the ISP.
    Somehow, Carnivore has to snoop through all these other 
different packets to find the right one, the needle in the 
haystack. Is that correct?
    Mr. Kerr. Let me start to answer and certainly welcome any 
assistance Mr. Cerf would like to give, but go back to his 
envelopes for a minute. What we are looking at in the first 
instance is the address on the outside of the envelope. With 
the address matching the one we are authorized to capture, we 
collect the envelope and we subsequently go and we only take 
from that envelope the information we are authorized to take.
    But we use the addressing properties of the Internet 
itself, the Internet protocols, to select out just those 
packets. We don't read them at that point. The machine is doing 
it. There is no content being viewed by any human. And, in 
fact, those packets that contain information we are not 
authorized to obtain disappear at that point. We don't control 
them.
    Senator Leahy. But to use the envelope thing, it is like 
getting a big bag of envelopes and you are looking just for the 
one addressed to Dr. Kerr, but there is also an envelope in 
there to Mr. Parkinson, Mr. Di Gregory, and on and on. I mean, 
you have got to go down through all those envelopes at some 
point.
    Mr. Kerr. Well, think of it better perhaps, you are 
standing at the post office and all the envelopes are going by 
you on a conveyor belt. And we are just picking off those 
envelopes that have the right address on them. The others go 
away; they are not in our life anymore.
    Senator Leahy. Mr. Cerf.
    Mr. Cerf. If I could interject, the problem here is a 
language and terminology problem. The term ``address'' 
unfortunately is overused for a variety of different purposes 
even in the Internet. And so we speak, for example, of Internet 
addresses, by which we sometimes mean 170.127.34.16, which is a 
numeric indicator of where a computer is in the Internet. It is 
sort of like a telephone number.
    On the other hand, we also say what is your Internet 
address, and by this we often mean what is your e-mail address, 
which in my case would be <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9debfef8effbddf0fef4b3f3f8e9b3">[email&#160;protected]</a> Those are different, 
and so the way the Carnivore works is it starts with the 
lowest-level physical numeric addresses of the source and 
destinations that are under observation. And it only selects 
out--the conveyer belt model is a good one--it only selects out 
those ones that happen to contain those physical addresses.
    Now, we can argue separately about whether you have got the 
right addresses. I mean, there are some issues about the 
stability of IP address assignment and whether or not a 
particular computer has the same IP address forever and ever or 
whether it changes from time to time. I am sure that the 
members of this committee don't want to know all the details 
right here on the spot, though I am prepared to provide them if 
needed.
    But after you have selected the set of envelopes thatmay 
contain information of interest, only then do you then look inside. And 
if I have any concerns at all--and I want the FBI folks here to know I 
do have concerns--you do have to see quite a bit; you have to suck into 
the Carnivore machine quite a bit before you can find that part which 
you are interested in after you have determined that this envelope 
might contain something of interest.
    The point that the Carnivore programmers make is that the 
software is intended to look at the collection of material that 
makes up an e-mail message like this one, that amount of which 
happens to be in one packet, and only if it finds, for example, 
a ``to'' and ``from'' e-mail does it capture that packet. If it 
can't find that, if it can't parse the contents, it throws it 
away. That is the design, that is the intent, and that is the 
way it is used. So it is true that the machine pulls in more 
than is needed, but it then is programmed to throw away that 
part which doesn't match their search criteria.
    Senator Leahy. And what you are saying, Dr. Kerr, is you 
can't go back to the machine and find out what was thrown away?
    Mr. Kerr. That is correct.
    Mr. Cerf. Except in the case, of course, where you have 
been authorized to obtain and capture content as well. I don't 
know whether you are ever allowed to do that.
    Mr. Kerr. The answer I was giving was that packets that we 
have discarded aren't available to us at all.
    Mr. Cerf. They are not. They have disappeared on the 
conveyor belt and have gone away. So it is a multilevel filter 
that is being applied, and at each stage in the filtering 
process less and less information is retained.
    Senator Leahy. Mr. Dempsey, you wanted to add something to 
that.
    Mr. Dempsey. Yes, Senator. I have two comments, one of 
which addresses the question which is, is it good enough that 
Vint Cerf has looked at Carnivore and has come away relatively 
satisfied with it. And I have to say that----
    Mr. Cerf. I won't take any offense if you say that it isn't 
because I would agree with you.
    Mr. Dempsey. That it isn't good enough?
    Mr. Cerf. That is right.
    Mr. Dempsey. And so we have to somehow get beyond the fact 
that one person has been in, or that several people have been 
in. I really don't think we have had the kind of review of 
Carnivore that would really satisfy this committee and satisfy 
the public, and I do agree with the chairman that somehow the 
FBI needs to work and the Justice Department needs to work on 
that independent review.
    I would note in response to Dr. Kerr's comments it is a 
Justice Department review, but this nondisclosure agreement 
which Vint Cerf signed but which other people are rather 
reluctant to sign--the nondisclosure agreement is between the 
contract personnel and the FBI. You are signing an agreement 
with the FBI and you are responsible to the FBI as to what you 
can say and not say.
    I also think that I am a little bit reminded of the----
    Senator Leahy. Responsible to the FBI, even though the 
review is that of the Justice Department, or did I miss the 
point?
    Mr. Dempsey. Well, the question was who is controlling 
the----
    Senator Leahy. You are talking about when it goes in.
    Mr. Dempsey. Controlling the review.
    Senator Leahy. Yes, OK.
    Mr. Dempsey. Who is controlling the review, and Dr. Kerr 
made the point, well, people needn't worry; it is a Justice 
Department-controlled review. And I am making the point that 
the nondisclosure--people are going to be bound to the FBI.
    Mr. Cerf. May I just interject that I agreed to sign the 
nondisclosure on the principle that when you are dealing with 
surveillance, just as you would with other intelligence 
situations, sources and methods are always a sensitive issue.
    Mr. Dempsey. But the concern on the part of people, as I 
understand it, is that this agreement is so broadly drafted 
that it will prohibit people from talking more broadly or more 
generally. Now, you feel comfortable coming here today and 
speaking, but other people are worried, particularly if they 
would be critical as opposed to moderately supportive, that 
they would then be accused that they had--particularly if they 
talk about ways in which Carnivore may be vulnerable, may be 
subject to abuse, may be avoidable or evadable, that they 
would--the point is we need to get beyond one person knowing.
    Mr. Cerf. Absolutely, and I believe that the FBI has, in 
fact, introduced this system to more than one person.
    But I just want to emphasize two things. First of all, I am 
conscious of the concern over methods of collection and I 
recognize the need to keep those reasonably under control. 
However, I do agree with Mr. Dempsey that one person is not 
enough and that you need a broader substantiation that this 
system does what it, in fact, claims to do. So I would 
certainly agree with what I think Mr. Dempsey is suggesting, is 
that there be a broader review of this system and some 
confirmation coming back to this committee that it does as it 
is advertised.
    Senator Leahy. I would like that.
    And let me ask you--I think this would probably be for the 
FBI or DOJ--the D.C. Circuit Court of Appeals had a recent 
decision on the FCC's implementation of CALEA and it raised 
some interesting questions both about the legality of 
Carnivore, but also I think the liability of ISP's. The court 
agreed with the FCC that a standard adopted by 
telecommunications carriers could provide both packet headers 
and the content or payload to law enforcement.
    The carriers argued, though, that they couldn't technically 
separate the two, while the FBI said, that is OK, we have got 
equipment that could, ``distinguish between a packet's header 
and its communications payload, and make only the relevant 
header information available for recording or decoding.''
    Now, I assume the FBI was referring to its Carnivore 
equipment when it made that representation to the court. It 
actually made the same representation to the FCC. The reason I 
say this is the representation was critical, since both the FCC 
and the court noted that, ``privacy concerns could be 
implicated if carriers were to give to law enforcement packets 
containing both the addressing information and the content, 
when only the former''--that is, the addressing information--
``was authorized.''
    Now, both the FCC and the court noted that CALEA imposes an 
affirmative duty on carriers to protect the privacy and 
security of communications not authorized to be intercepted. It 
also requires that they do not give lawenforcement access to 
any communications or addressing information not covered by a court 
order.
    I put all that as a basis to this question: do you believe 
that the way in which Carnivore operates gives law enforcement 
access to more than just the communications or addressing 
information covered in a court order? And if so, could it put 
the ISP in jeopardy of violating its duty under CALEA of 
protecting the privacy and security of communications not 
authorized to be intercepted?
    Mr. Kerr. The very simple answer to your question is that 
CALEA covers telecommunications carriers. The Internet service 
providers are not covered under CALEA. We have only used 
Carnivore in conjunction with the networks of Internet service 
providers.
    We did, in fact, brief the standards committee for the 
companies and others involved in CALEA on the technology used 
in Carnivore in order that they would be aware of it as they 
develop a CALEA-based standard for telecommunications carriers 
using packet-switched networks. But there is no carryover 
between CALEA and what we have been talking about with 
Carnivore.
    Senator Leahy. Then what did the FBI mean, after the 
carriers had argued they couldn't separate packet headers and 
content--I am talking about telecommunications carriers when 
they argued that before the court, and the FBI said, well, that 
is OK, we have got equipment that could distinguish between 
packet headers and communications payload. Were they referring 
to Carnivore?
    Mr. Kerr. I think they were likely referring to Carnivore, 
but as a demonstration of a technical approach. To repeat, we 
have not used and don't expect to use Carnivore in a CALEA-
covered intercept.
    Senator Leahy. Mr. Di Gregory, is that your understanding, 
too?
    Mr. Di Gregory. My understanding of what the FBI intends to 
use?
    Senator Leahy. Yes.
    Mr. Di Gregory. As I understand it, the FBI only intends to 
use Carnivore when the ISP is unable to provide the information 
or not willing to do so.
    Senator Leahy. Mr. Dempsey.
    Mr. Dempsey. Well, Senator, Dr. Kerr is 100-percent correct 
when he says that CALEA does not apply to ISP's. And I have to 
say that was one of the smartest decisions that was made in the 
course of CALEA because implementing CALEA for the telephone 
companies has been a nightmare. It would be even worse trying 
to apply CALEA to the Internet and to ISP's.
    But I think what the court and----
    Senator Leahy. It is a matter that we thought of at the 
time, as you recall. You were involved in some of that debate 
at that time.
    Mr. Dempsey. Yes, I was, Senator. I take responsibility for 
all the mistakes we made there.
    Senator Leahy. No, no, no.
    Mr. Dempsey. But keeping the Internet out was your and 
Congressman Edwards' decision, and it was a wise one, it turns 
out.
    I think what the FBI was referring to was not Carnivore, 
per se, but this notion that we will let the technology make 
this distinction, this constitutionally-based distinction 
between content and something other than content.
    We have a huge issue on the Internet about what about this 
transactional information? It is not just numbers dialed, and 
what should be the standard? Professor O'Neill referred to 
that. But assuming that you can distinguish between content and 
noncontent, the FBI said in the CALEA debate if the carriers 
can't separate it, give it all to us. Even under a pen register 
order, give us the whole packets and we, the FBI, will sort it 
out, and we will only keep what we are authorized to keep. We 
won't look at or keep what we are not authorized to keep. And 
if it is a pen register, content, we are not authorized to keep 
content. We have a machine, we have a capability to disregard 
that.
    And what the court of appeals said, I think, is that is not 
good enough. The technology, the FBI, the Commission, the 
industry cannot modify the constitutionally-based rules for 
interception of content, and that in order to obtain and grab 
and look at and analyze and redirect content, you need a full 
probable cause-based order. And the FBI is using Carnivore 
under the pen register authority on the ``trust us'' standard 
that our technology will solve the problem of what is the 
distinction.
    Now, Mr. Cerf has said it is very hard to distinguish 
between what is content and what is, ``addressing 
information.''
    Mr. Cerf. No, I didn't say it was hard to distinguish 
between the two. What I said is that you have to capture a lot 
before you can filter out the part which is considered header. 
Yes, you must capture it. Because of the structuring of the 
protocols, you have to capture essentially a lot of this piece 
of text before you can then find the part that you want to 
capture.
    Mr. Dempsey. That poses huge constitutional problems.
    Mr. Cerf. Hang on, folks.
    Senator Leahy. Just a minute. To make sure I understand it, 
part of the problem is the ``just trust us'' standard, but it 
actually even goes beyond that, the fact that it is even being 
collected to begin with. Is that what you are saying, Mr. 
Dempsey?
    Mr. Dempsey. Yes.
    Mr. O'Neill. If I may interject, this is part of the 
difficulty, I think, that Congress has to deal with. The fact 
that the Department of Justice--and I was very proud to have 
worked for the Department of Justice, and frankly in a lot of 
circumstances I much prefer the Department of Justice having 
any personal or private information about me than I do some 
industry groups or whether the ISP does. I mean, that is sort 
of my general default.
    Part of the difficulty, though, is that the Department of 
Justice perceives its mission, and rightly so, as making sure 
that we are secure in our homes, preventing and stopping crime. 
In an effort to do that, what the Department has done, and 
rightly so, is to make sure that it stays technically relevant.
    The Internet is a big change over the way people 
communicated in the past. In order for the FBI to be able to 
fight and deal with the perceived threat and the actual threat, 
whether it is crime or international terrorism or what have 
you, it then develops software and it develops new and 
innovative approaches to collect information to continue doing 
what it has done in the past.
    The difficulty and I think the challenge for Congress is to 
make sure that all of this technological innovation,all of 
these changes in the way that the FBI or Federal law enforcement 
assembles information-- that someone is watching it. Judges frankly are 
in a very poor position to monitor this because judges frankly don't 
have the information available. They are only trained as lawyers. They 
are not in a situation like the U.S. Congress is to have people who are 
expert in these very complicated, and as we have seen from the 
discussion here today, very esoteric parts of technology.
    Congress frankly is in the best position to be able to do 
that, and I think it is in Congress where the American people's 
trust has to reside to make sure that this just doesn't happen 
with nobody watching it, to make sure the Department of Justice 
isn't too good in fulfilling its mission, and that there is a 
public watchdog, namely the Congress, making sure that the 
appropriate balance between personal security and personal 
privacy is maintained.
    Senator Leahy. Well, I would agree there. I am happy we are 
having this hearing. Whether Congress is going to be adequate 
in this kind of oversight--I mean, we can be if we want to be. 
It is whether we set that as a priority, and you have worked up 
here and you know that there are a million things coming 
through at any given time, some substantive and some symbolic, 
and we tend to spend a lot of time on one or the other 
depending on what we are doing.
    But the Sunday afternoon emergency court order is not going 
to be--the oversight is not going to be in the Congress, but it 
is going to be at the Department of Justice.
    Mr. O'Neill. But Congress should be setting the baselines.
    Senator Leahy. I agree.
    Mr. O'Neill. And once the baselines are set, then judges 
and the FBI and law enforcement can properly administer those 
baselines when they are out there in the field.
    Mr. Rosen. Can I just make a point on that?
    Senator Leahy. Well, Mr. Cerf had been trying to respond.
    Mr. Cerf. Only to support Mr. O'Neill's argument. It seems 
to me that it is inescapable that this technology will 
proliferate, not the Carnivore technology, the Internet 
technology, and that it will become the basis for most of our 
communications. Even if the other systems survive and persist, 
the Internet will carry television and telephony and radio, and 
so on.
    So we need to learn how to deal with that. We need to deal 
with it in the context of the problems that the Justice 
Department and the FBI have, and other law enforcement people 
do, at the same time trying to protect individual rights to 
privacy. That balance has to be struck, and the terms and 
conditions for it surely lie squarely with our Congress.
    Senator Leahy. Mr. Rosen.
    Mr. Rosen. I wonder if I could make a concrete suggestion 
about striking that balance, to pick up on the suggestion. We 
have been focusing on the different standards for different 
forms of technology, for pen registers, for content, for header 
information. There is another approach that Congress took in 
the title III area which is really a model for protecting 
privacy and striking the balance that we are thinking about 
here, and that is limiting the most intrusive searches to the 
most serious crimes. A search of a diary, for example, might be 
reasonable in the context of the Unabomber, but not for a 
relatively trivial civil suit.
    Now, there is a tendency, as you know, for the list of 
these crimes to expand exponentially. So originally the title 
III list was limited to really serious and violent crimes, and 
now it includes all felonies. But for searches of e-mail and 
for any content-based searches, you have the ability and the 
opportunity right now to really create a very limited number of 
crimes that can justify these searches.
    And I think that citizens would just feel much more 
comfortable about having intimate information revealed when 
they know that there are violent and serious criminals involved 
than when they think that any of them may be caught up in a 
relatively trivial offense.
    Senator Leahy. What you are saying is the constitutional 
threshold remains the same, no matter what the crime is, but we 
will just simply say that constitutional threshold or not, you 
can only do these searches for certain types of crimes.
    Mr. Rosen. I guess the notion is the constitutional 
threshold is reasonableness, and a search is more likely to be 
reasonable if a serious crime is involved than if it is not. So 
in trying to substantiate that constitutional standard, just 
make sure that the list is limited when the searches are 
intrusive.
    Senator Leahy. Mr. Cerf, there is something I have always 
meant to ask you. Are you relation to the late Vincent Cerf?
    Mr. Cerf. To whom?
    Senator Leahy. The late Vincent Cerf.
    Mr. Cerf. Are you thinking of the late Bennett Cerf, 
perhaps?
    Senator Leahy. Well, there is also a Vincent Cerf.
    Mr. Cerf. There is a Vincent?
    Senator Leahy. Yes.
    Mr. Cerf. Gee, no, not that I am aware of. I am related to 
Bennett Cerf, both of them. One of them is my son and the other 
one, of course, is the former publisher at Random House. But I 
do not know Vincent Cerf.
    Senator Leahy. Bennett Cerf has the ability to come up with 
some of the wildest puns, as you probably know.
    Mr. Cerf. It is a genetic defect and it runs in the family.
    Senator Leahy. I have been accused of using some from years 
back.
    Obviously, you are an acknowledged pioneer of the Internet, 
and you were kind enough to help out the Internet Caucus, and 
so on. You worked on ARPANet, which is the precursor to the 
Internet. You were there when the Internet was first discussed 
and began being developed into what it is today. I suspect that 
neither you nor anybody else could have envisioned just how 
quickly it has gone so far. You may have known that it would go 
like this, but the fact that it has moved so quickly.
    But Congress also played an essential role. We funded not 
only ARPANet, but also the NSPNet and the backbone that led to 
the Internet. The reason I ask this is that some--I wouldn't 
suggest anybody on this committee, but some have poked fun at 
Al Gore on this issue. But I think they fail to acknowledge his 
role in Congress when he pushed fordevelopment and saw the 
potential of the Internet years ago when a lot of others didn't.
    I remember back in the 1980's--and I remember this because 
his office was down the hall from mine--that then Senator Gore 
chaired a hearing that had the first ever live computer 
demonstration exhibiting the possibilities of a high-speed 
computer network. I know of nobody else who had done it up to 
that point.
    So would you at least agree with me that the Vice President 
played a significant role in pushing for funding and 
development of what became the Internet, and may deserve some 
praise for his vision in that regard?
    Mr. Cerf. I would have to agree with that, Senator. The 
Vice President while he was Senator, in fact, was one of the 
first in this august body to realize that there might be 
something important about super computers and optical fiber and 
computer networking. He held a number of hearings, some of 
which had a direct impact and influence on legislation that 
supported the research that has led to the continued evolution 
of the Internet.
    He has been a strong supporter, as I am sure you are aware, 
both in his senatorial role and as Vice President. And so I 
think it is quite proper for him to receive some credit for 
that interest and that support. I regret, as I suspect he does, 
the slip of the tongue that led him to characterize his role 
more broadly than I think it deserves.
    Senator Leahy. More broadly than he intended, too, I think.
    Mr. Cerf. I believe that is correct. On the other hand, I 
feel very strongly that he does deserve considerable credit for 
his consistent support for the Internet and related 
technologies.
    Senator Leahy. One of the national news media gave me what 
I thought was too flattering, but I am not going to ask for a 
retraction, profile referring to me as the Cyber Senator. I 
have got to admit that a lot of that interest came from then 
Senator Gore. When we were coming back from votes, he would 
start pounding my ear and then would grab me into office and 
keep on going until I agree that, yes, I would learn more about 
it, and then he would turn me loose.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Well, I want to thank all of you for being 
here today. This has been an excellent hearing. We have raised 
a lot of issues that are important. Naturally, all of us want 
to support law enforcement, it seems to me, in legitimate 
pursuit of those who are breaking the laws. I certainly do. On 
the other hand, we certainly want to be concerned about the 
privacy aspects of individual citizens in our society.
    There are no easy answers to all of these very significant 
questions, but we are hopeful that you can continue to help us 
to understand this. So we will keep the record open for a week 
for any additional comments or statements anybody cares to make 
and any additional materials you would want to submit to us.
    Senator Leahy. Mr. Chairman, could I emphasize regarding 
submitting anything further, if you have further thoughts on 
that court of appeals case, I think it would be very helpful to 
both the chairman and myself if any of you would like to add to 
it. I mean, that is not a trick question in any way whatsoever, 
as you know. I am trying to figure out where it goes. So if you 
want to add something, if you want to ask your own question and 
answer it, please feel free to do so.
    The Chairman. We will keep the record open for that.
    We want to thank each and every one of you. You have been 
great here today, and this has helped us to understand this 
much better.
    So with that, we will recess until further notice.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]
                              ----------                              


                         Questions and Answers

      Responses of Donald M. Kerr to Questions From Senator Hatch

    Question 1. Is Carnivore set up to intercept all of the 
communications of all of the ISP Subscribers Within an ISP's Computer 
Network?
    Answer 1. No. First of all, the FBI intentionally works closely 
with the computer network Administrator to decide on the best and most 
appropriate interception access point. This access point is determined 
with the specific purpose of finding the smallest segment within that 
ISP's computer network into which the criminal subject's communications 
traffic can be funneled, so as to minimize the amount of network 
traffic involved. Technically speaking, most ISPs can and do identify 
such a limited segment within the overall ISP network which contains 
the criminal subject's communications traffic. Second, the FBI uses a 
commercial device to attach Carnivore to, yet isolate it from, the 
network.
    More to the point, the FBI has absolutely no intention of being put 
into a situation where Carnivore would have to interface with an entire 
ISP network. If someone had the erroneous idea that the FBI might 
desire to ``capture'' all such ISP network traffic--which it certainly 
does not want to and will not do--the Carnivore system could very 
quickly be overwhelmed with traffic. That is, Carnivore software is 
deployed on a standard PC and the largest hard drive that has been 
deployed is 18Gb. With the total traffic of many ISPs running at 
thousands of Mbps, even if this hard drive was storing only 100Mbps of 
network traffic, the Carnivore system would fill up in about three 
minutes.
    The only exception to the aforementioned rule would be with regard 
to very small ISPs where all subscribers' communications traffic was 
traversing the same segment of the network as the criminal subject's 
traffic. Of course, under this unusual circumstances, Carnivore would, 
as it always does, filter out all of the traffic other than that of the 
criminal subject.

    Question 2. Does the use of the Carnivore System legitimately raise 
the concern of Carnivore broadly conducting illegal searches as to 
other innocent, non-criminal subject subscribers' communications 
addressing information or communications content?
    Answer 2. No. It is important to understand that Carnivore's 
filtering operates in stages--and that all filtering occurs exclusively 
within the ``Carnivore box.'' Carnivore's first operation is 
exclusively to detect the criminal subject's identifying information. 
The first stage of filtering in the Carnivore system is to match (in 
purely binary computer code) the ``pattern'' of ``1's'' and ``0's'' in 
the computer bit stream that matches the subject's ``pattern,'' based 
upon the criminal subject's identifying information, as set forth in 
the court order. So, in a very simplified example, with the filter 
exclusively set to detect the criminal subject's computer bit pattern 
``1100,'' if the first bit in the compute bit stream was an ``0,'' 
Carnivore would automatically conclude that since ``0'' and ``1'' are 
not a match, that this circumstances does not meet the filter pattern 
criteria, and it would quickly move on to conduct the next pattern 
match effort. If the first digit is a match, Carnivore would then go to 
the next digit in the computer bit stream, and repeat the process, 
until an exact, complete match is arrived at.
    Importantly, nothing happens at all, by way of any interception of 
communications content or acquisition of communications addressing 
information, unless and until the criminal subject's unique identifying 
information has been matched. Then, and only then, does Carnivore move 
on to the second stage of filtering, in terms of applying the 
appropriate filters required to filter either for communications 
addressing information acquisition or for full communications content 
interception, depending upon the particular authorization found within 
the court's order.
    Finally, FBI personnel only receive and ``see'' the communications 
addressing information or communications content of the criminal 
subject, as appropriate--based upon the court's order--after all of the 
Carnivore filtering has been completed exclusively within the Carnivore 
box.
    In short, Carnivore never conducts a search of the communications 
addressing information or communications content of any innocent, non-
criminal subject at all. Indeed, even with the criminal's subject's 
communications traffic, Carnivore filters the criminal subject's 
``machine readable only'' binary code exclusively within the box; and 
FBI personnel only obtain, in a humanly intelligible format--and 
``outside of the box''--the criminal evidence sought after Carnivore 
has completely concluded its programmed filtering efforts within the 
box.

    Question 3. Does the FBI ``view'' computer network traffic as it 
passes through the Carnivore System?
    Answer 3. No. First of all, Carnivore's filtering program renders 
Carnivore effectively blind to any network traffic other than that of 
the criminal subject, concerning whom a court has issued an order 
authorizing the acquisition of communications addressing and 
transactional information or the interception of communications 
content, all based upon identifying information unique to the criminal 
subject. Only such information about or communications content of the 
criminal subject is collected by Carnivore. Second, the computer 
network traffic passes through the Carnivore system at a speed far 
beyond human comprehension. The network traffic consists solely of a 
series of ``machine readable only'' 0's and 1's, flashing through 
Carnivore at a rate of 40 million ``0''s/``1''s per second (and often 
at much higher speeds). Whenever any network traffic is stored on the 
Carnivore system, it remains in the same format of 0's and 1's; and, 
importantly, it is not turned into a format intelligible to humans 
until after it is transferred from the Carnivore system. Again, it 
bears repeating that Carnivore is a configurable system that will 
provide FBI personnel only that information that it has been programmed 
to deliver through its filtering--information that equates with the 
information authorized for interception/acquisition in the court's 
order.

    Question 4. If the FBI were to conduct a pen register type 
investigation, wherein Carnivore would be programmed to only acquire 
the criminal subject's addressing information, and if the subject 
visited different web sites, would the carnivore system acquire 
information such as URL subdirectories? For example, if the subject 
went to Amazon.com to buy a book, would the FBI be able to tell what 
book he/she bought?
    Answer 4. No. URL subdirectories are not acquired. The IP address 
and port number for Amazon.com alone would be acquired. Hence, the FBI 
would only know that the subject went to Amazon.com, and whether or not 
the subject established a ``secure'' connection (i.e., secure socket 
layer (SSL)).

    Question 5. Can the FBI use Carnivore to intercept computer network 
communications other than e-mail?
    Answer 5. Yes. Carnivore can be configured to intercept various 
types of computer network communications which match its filters. It 
has been used to intercept several protocols in the TCP/IP protocol 
suite (e.g., Telnet, FTP, IRC, and HTTP). Of course, in all instances, 
the appropriate legal process under Title III, FISA, or the ECPA would 
first have been obtained. If the electronic surveillance is for 
communications ``content,'' a full Title III court order (probable 
cause showings and more) would be required.

    Question 6. Does Carnivore interfere with the service or operations 
of an ISP computer network?
    Answer 6. No. By design, Carnivore does not interfere with an ISP 
network.
    First, the FBI works closely with the ISP computer network 
Administrator to decide on the appropriate interception access point. 
This access point is determined with the specific purpose of finding 
the smallest segment within that ISP's computer network into which the 
criminal subject's communications traffic can be funneled, so as to 
minimize the amount of network traffic involved. Then, importantly, a 
commercial device is used to attach Carnivore to, yet isolate it from, 
the network, such that, as a technological matter, it physically cannot 
and will not transmit anything whatsoever into the network or otherwise 
intrude into the network.
    Second, by design, Carnivore's attachment to a network will not 
crash or interrupt network service. Recent comments reported in the 
media suggesting that Carnivore had interrupted or ``crashed'' the 
service or operations of a major ISP are completely false. In reality, 
a small loss of bandwidth did occur with the ISP in question, within 
only one segment of that ISP's network, when technicians from the ISP 
chose on their own to alter their software code to facilitate 
interception access. In fact, Carnivore was not even attached to the 
ISP network at the time when this ISP network problem arose.

    Question 7. Does the Carnivore System use trojan horses or viruses 
to collect a criminal subject's communications content or addressing 
information?
    Answer 7. No. The Carnivore system is totally passive. No software 
is added to a subject's computer.

    Question 8. Once Carnivore has been deployed, can the filters be 
accessed and changed remotely?
    Answer 8. Yes. Carnivore can be accessed remotely and the filters 
may be changed--but, (1) only a select few technical persons specially 
dedicated to the Carnivore program, (2) only when those few persons are 
privy to the specific dial-up access number, (3) only when those 
persons possess a hardware security device that is specifically 
required for remote access, and (4) only when such persons have the 
necessary two-tiered password access authority required.
    Currently, within the FBI there are only a limited number of 
technically-trained personnel who implement the Carnivore program. As 
noted, the dial-up access is secured by both hardware and software 
protections, and any access, or attempted access, automatically 
generates a series of recorded logs which disclose precisely who, if 
anyone, has ever accessed Carnivore remotely and/or changed the filters 
in any given case. Importantly, any filter changes would be based upon 
some significant reason, such as a change in the legal process (e.g., 
moving from a pen register or trap and trace investigation to a full 
Title III, pursuant to obtaining a Title III court order), the 
termination of the surveillance period and Carnivore's attendant 
``shutdown,'' or for technical ``trouble-shooting,'' if some technical 
problem or glitch arose.
    Although investigative personnel have limited remote access 
capabilities for investigative purposes only--that is, to access the 
raw data that subsequently, through later processing, will constitute 
the evidence in the investigation--they are never given the second tier 
password required to access or change the Carnivore filter sets.
                                 ______
                                 

     Responses of Donald M. Kerr to Questions From Senator Thurmond

    Question 1. Dr. Kerr, please explain the obstacles that law 
enforcement faces in getting information on electronic communications, 
especially with less encryption controls and with the increased use of 
digital messages.
    Answer. As your question correctly suggests, technological 
obstacles to electronic surveillance are arising in the environment of 
electronic communications. These obstacles are varied and pose 
significant challenges to the law enforcement community's lawful 
conduct of court-ordered electronic surveillance.
    In working with the vast array of large, medium, and small size 
Internet Service Providers (ISPs), we have encountered some unusual 
network-based obstacles. For example, even though the FBI always works 
very closely with such ISPs (both by desire and necessity) before we 
ever undertake an electronic surveillance effort, we have nonetheless 
encountered some unusual, non-standardized, and proprietary network 
protocols and other network controls within such ISP networks; and 
these complicate electronic surveillance efforts. Indeed, somewhat 
remarkably, we have found, in some instances, that a given ISP's most 
expert technical personnel themselves may not always be fully aware of, 
or conversant with, the protocols being utilized within their network 
and/or how they have been implemented. Such a situation can adversely 
impact upon the smooth effectuation of certain electronic surveillance 
orders.
    In another vein, certain very high-speed electronic communications 
can likewise challenge, or threaten to undermine, the ability of law 
enforcement to fully and properly execute electronic surveillance court 
orders.
    Finally, the use of encryption by criminal subjects (absent some 
lawful and efficacious law enforcement decryption capability), can 
threaten to undermine Federal District court electronic surveillance 
orders and the ability of law enforcement agencies to investigate and 
prevent serious acts of terrorism, espionage, and violent criminality.
    As to the foregoing challenges and many others, the FBI 
historically has worked (and continues to work) closely with various 
business and technological components within the electronic 
communications industry. and, by necessity, the FBI also steps in and 
develops its own tools, as necessary, when commercial tools are not 
available which fully meet legal, evidentiary, investigative, and 
operational requirements placed upon law enforcement's lawful conduct 
of electronic surveillance.

    Question 2. Dr. Kerr, there has been considerable concern about the 
F.B.I. possibly using Carnivore to search randomly through all e-mails 
or other electronic communications that contain specific words or 
phrases like ``bombs'' or ``drugs''. Does the F.B.I. have the authority 
to gather intelligence on non-specific targets in this manner?
    Answer 2. First of all, the FBI's Carnivore system simply does not 
work, as suggested by some, in a fashion of randomly searching through 
all E-mails or other communications that contain specific words or 
phrases like ``bombs'' or ``drugs,'' etc. To the contrary, Carnivore is 
a ``filtering'' tool which the FBI has developed to carefully, 
precisely, and lawfully conduct electronic surveillance of electronic 
communications regarding a specific criminal subject--based upon that 
criminal subject's identifying information (e.g., his/her IP address)--
occurring over a particular computer network, in complicance with the 
Constitution and the Federal electronic surveillance laws.
    Whenever Carnivore is used, the FBI never deploys it without the 
cooperation and technical assistance of the ISP network technicians 
and/or engineers. Further, through working with the ISP, Carnivore is 
positioned and isolated in the network so as to focus exclusively upon 
just that small segment of the network traffic where the criminal 
subject's communications can be funneled. This is roughly analogous to 
using an electronic surveillance device only within in a single trunk 
or cable within a telephone network. Stated differently, and contrary 
to the assertions of some critics, Carnivore does not access `in a big 
Brother mode, all subscriber communications throughout an ISP network.'
    Carnivore's filtering operates in stages. Carnivore's first action 
is to filter only within a small portion of an ISP's network. 
Specifically, Carnivore filters binary code--streams of 0's and 1's 
that flow through an ISP network, for example, at 40 mega-bits per 
second, and often at much higher speeds. To visualize this, imagine a 
huge screen containing 40 million 0's and 1's flashing by on this 
screen for one screen for one second, and for one second only. 
Carnivore's first effort--entirely within the Carnivore box--is to 
identify within those 40 million 0's and 1's whether the particular 
identifying information of the criminal subject, such as his/her IP 
address, (for which a court order has been authorized) is there. If the 
subject's identifying information is detected, the packets of that 
criminal subject's communication associated with the identifying 
information that was detected, and those alone, are segregated for 
additional filtering or storage. However, it's very important to 
understand that all of those 40 million 0's and 1's associated with 
other communications are instantaneously vaporized after that one 
second. They are totally destroyed; they are not collected, saved, or 
stored. Hence, FBI personnel never see any of these 40 million 0's and 
1's, not even for that one second.
    After exclusively segregating the criminal subject's information 
for further machine processing, then a second stage of filtlering is 
employed. At this point, and again all within the Carnivore box, 
Carnivore checks its programming to see what it should filter and 
collect for processing. In other words, it determines, as required by 
the specific wording of the court order, if it's supposed to 
comprehensively collect communications content--in a full Title III or 
FISA mode--or, alternatively, whether it's only to collect pen register 
or trap and trace transactional and addressing information. Only that 
information specified in the court order is being collected and passed 
on to FBI personnel by Carnivore.
    As to the second part of the question, the FBI does not have the 
authority to--certainly does not--gather intelligence on non-criminal 
targets in some broad brush manner. FBI electronic surveillance under 
title III and the ECPA focuses on gathering hard evidence about 
particular criminal subjects with regard to particular facilities being 
used by such criminal subjects and with reference to particular crimes 
and criminal communications, and with reference to identified co-
conspirators.

    Question 3. Dr. Kerr, what controls exist on the F.B.I. to insure 
that Carnivore is not misused for a fishing expedition or to obtain 
electronic communications that lie outside of the scope of a court 
order?
    Answer 3. There are numerous legal, technological, and 
administrative controls that prevent the misuse of Carnivore for a 
fishing expedition or for intercepting communications outside the scope 
of the court order.
    Legal Controls: First of all, the law itself is a powerful control 
to ensure that only properly authorized, lawful electronic surveillance 
occurs. The FBI certainly is of this opinion. As such, the FBI only 
conducts electronic surveillance--whether conducted through the use of 
Carnivore or otherwise--pursuant to a lawful court order or lawful 
voluntary consent of a party to the communication. This has been the 
case since 1968, when the first Federal electronic surveillance laws 
were enacted in the Title III legislation. Importantly, the FBI has an 
outstanding record of compliance with the electronic surveillance laws 
since their enactment over 30 years ago. In addition, it is very 
noteworthy that the electronic surveillance laws contain stringent 
deterrents to unauthorized (illegal) electronic surveillance, including 
criminal (felony) and civil sanctions for any individual who violates 
the law. Further, under the Constitution, suppression of illegally 
obtained evidence (and fruits thereof) may be applied by Federal courts 
if electronic communications content is unlawfully intercepted.
    Technological Controls: The Carnivore system, by design and 
functionality, is set up to establish an ``audit record'' for 
evidentiary purposes. Of course, a secondary aspect and value of this 
design and functionality would be to aid in the prevention of any 
potential infringement of privacy rights. Moreover, as you may be 
aware, Carnivore, by design, is a device which only functions to filter 
out. In its first filtering action, carnivore filters out anything not 
associated with the unique and specific identifier associated with a 
particular criminal subject's service, as identified in a given court 
order. Stated differently, Carnivore ``ignores'' and is ``blind to'' 
anything not associated with a criminal subject's unique identifier 
that relates to the specific authorization set forth in the court's 
order. In its second filtering action, Carnivore filters out content 
when the order is only for communications addressing and transactional 
information. Thus, as a special purpose electronic surveillance tool, 
Carnivore fundamentally and purposely works as a ``filter.'' By 
contrast, Carnivore fundamentally and purposely does not work, 
descriptively speaking, as a ``vacuum cleaner'' which, by design, would 
purposely acquire electronic communications broadly and 
indiscriminately from all network users, including those of innocent 
subscribers. Hence, Carnivore's design does serve as an effective check 
against any potentiality of infringing upon privacy rights.
    Adminstrative Controls: There are numerous administrative and 
criminal justice system-based controls which preclude the errant use of 
Carnivore, both in terms of internal and external oversight to control 
how Carnivore is being used at any point in time. To begin with, it 
should be emphasized that the FBI does not deploy or use Carnivore or 
any other non-consensual electronic surveillance tool in a vacuum. With 
regard to applications for pen registers or trap and trace devices, 
section 3121 of Title 18 of the United States Code prohibits 
Carnivore's use, as such a device, without a court order. In order to 
acquire a court order, the FBI may not act alone, but must seek the 
approval of an appropriate official within the Department of Justice. 
Section 3122 mandates that an ``attorney for the government'' be the 
applicant for a pen register or trap and trace device. Typically, this 
requires the approval of the Office of United States Attorney for the 
district in which the device is to be used. Of course, more stringent 
requirements, mandating high-level Department of Justice approval, are 
found in Title III/FISA provisions and practices controlling the 
interception of electronic communications.
    Within the FBI itself, there are also a number of administrative, 
technological, and physical access controls which prevent the 
unauthorized use of any electronic surveillance tool, including 
Carnivore. First, as a general matter, all covert electronic 
surveillance equipment is carefully controlled and overseen within the 
FBI by FBI Headquarters program managers and by each field officer's 
Technical Advisor (TA). Second, with regard to Carnivore specifically, 
there are only a few Carnivore devices and only a limited number of FBI 
personnel who are trained to operate this special purpose tool, under 
FBI Headquarter's overnight. Third, to use Carnivore in any given case, 
such personnel must be privy to the specific access number for a 
targeted account number. Fourth, such personnel can use Carnivore only 
when they possess a hardware security device that is specifically 
required for access. And fifth, such personnel can use Carnivore only 
when they have the necessary two-tiered password access authority 
required.
    Finally, if any FBI employee ever were to conduct such unlawful 
activity, he/she would be terminated from employment with the FBI. 
There is ``zero tolerance'' for any such illegal conduct within the 
FBI.
    In sum, Carnivore has many legal, technological, and administrative 
controls. Such controls effectively act to prevent any ``fishing 
expedition'' or infringement of privacy rights when using Carnivore.

    Question 4. Dr. Kerr, is Carnivore used in routine criminal 
investigations or is it limited to rare cases when the information 
cannot be obtained through the Internet Service Provider or another 
manner?
    Answer 4. Carnivore has been used in important ECPA-based criminal 
investigations and in important FISA-based national security 
investigations. As noted in our testimony, we have used Carnivore when 
the interception of electronic communications content or the 
acquisition of electronic communications addressing information could 
not be fully or properly effectuated by the Internet Service Provider 
(ISP) (with reference to legal, evidentiary, investigative, and 
operational requirements which need to be met) or when the ISP has 
indicated that it is ill-equipped to effect the interception or that it 
would be more efficient for the FBI to effectuate the order using 
Carnivore.

    Question 5. Dr. Kerr, some have called upon the F.B.I. to release 
the source code for Carnivore. What impact would this have on the 
ability of Carnivore to operate?
    Answer 5. To begin with, in enacting the first comprehensive U.S. 
electronic surveillance laws, Title III of the Omnibus Crime Control 
and Safe Streets Act of 1968 (Title III), 18 U.S.C. 2510-2522, as 
amended, the Congress instituted a balanced regime which both affords 
clear statutory authority and Constitutionally-compliant procedures to 
enable law enforcement to lawfully conduct electronic surveillance 
pursuant to court order and which criminalizes the unauthorized conduct 
of electronic surveillance in order to underscore the Congress' 
intention of preventing unlawful searches and seizures and of 
preserving communications privacy. To advance both of these principles, 
the Congress also crafted Title III provisions to prevent the 
proliferation of surreptitious electronic surveillance interception 
devices. See 18 U.S.C. 2512 (Manufacture, distribution, possession, and 
advertising of wire, oral, and electronic communication intercepting 
devices prohibited). The only two categories of users exempted under 
Section 2512 are providers of wire or electronic communication service, 
with regard to equipment utilized by them in the normal course of 
providing their service, and governmental officials, with regard to 
equipment utilized by them in the normal course of carrying out 
governmental activities.
    Similarly, there are statutory and regulatory U.S. export control 
regimes which govern the export of electronic surveillance-related 
equipment (e.g., the Arms Export Control Act, as implemented by the 
International Traffic in Arms Regulations, and the Export Control Act, 
as implemented by the Export Administration Regulations). Depending 
upon the type of electronic surveillance equipment involved, one or 
both of these regimes will likely govern the export of electronic 
surveillance equipment.
    In short, electronic surveillance equipment generally, and that 
used by the FBI in particular (at least that electronic surveillance 
equipment used in covert, non-consensual efforts--i.e. surreptitious 
electronic surveillance devices) is treated as sensitive, at a minimum. 
In many cases, such equipment may also be classified. Hence, in light 
of the above, and as a starting point, the FBI is concerned about the 
legal and policy constraints associated with the disclosure of such 
electronic surveillance equipment, including its software.
    With regard to Carnivore, and again in light of the above laws, 
controls, and constraints, we believe that it would be improper to 
disclose to the public generally the source code of Carnivore. The 
source code, after all, is for a special purpose surreptitious 
electronic surveillance system which should be treated with 
circumspection. Public disclosure of the source code could lead to the 
unintended and harmful effect of facilitating unauthorized, and hence 
unlawful, electronic surveillance. Further, it may be that disclosure 
could inform the criminal community about aspects of Carnivore that 
might suggest some potential for circumvention.
    However, as you may be aware, the FBI will disclose the Carnivore 
source code to the independent, outside review team which the Attorney 
General has called for (the Illinois Institute of Technology and 
Research Institute (IITRI)) in a controlled environment and under 
controlled circumstances, in order to give assurance to the public that 
Carnivore operates properly and lawfully, as the FBI claims it does.

    Question 6. Dr. Kerr, do you think the name Carnivore has 
contributed to public perceptions about the program being extremely 
intrusive?
    Answer 6. It's probably fair to say that the name ``Carnivore'' has 
unintendedly and unhappily lent itself to some negative comments by 
those who have not understood Carnivore's actual use, functionality, 
and core purpose in making electronic surveillance efforts more--not 
less--surgical and precise. As noted in our testimony, in a number of 
regards, Carnivore is superior, as an electronic surveillance tool, to 
the ``sniffers'' that are sold commercially and often used by ISPs for 
network trouble-shooting and management (such sniffers were never 
intended for use as a law enforcement electronic surveillance tool). 
Indeed, in the furor, the public appears to have lost sight of the core 
fact that the FBI has spent considerable time, money, and energy in 
trying to develop an electronic surveillance tool which better meets 
the dictates of the Constitution and the Federal electronic 
surveillance laws.

      Responses of Donald M. Kerr to Questions From Senator Leahy

    Question 1. By letter dated August 16, 2000, the FBI informed me 
that ``Carnivore is only used in those small number of instances when 
an ISP cannot on its own deliver what the court order instructs,'' 
suggesting that Carnivore is an investigative tool of last resort. 
Others have expressed the view that Carnivore should be a tool of first 
resort because the responsibility for executing court orders for 
electronic surveillance and protecting privacy rights is best 
discharged by the Department of Justice, not private ISPs. What is your 
view?
    Answer 1. In the past, the FBI's decision to use Carnivore or to 
permit an ISP to implement a court-authorized electronic surveillance 
order for either the full interception of electronic communications 
content or for the acquisition of electronic communications addressing 
and transactional information within an ISP's network has been decided 
on a case-by-case basis. Given the complexities and the great number of 
variables related to any given court-authorized electronic surveillance 
technical effort within an ISP network, the FBI has always viewed such 
electronic surveillance efforts from a tactical and effectiveness 
perspective. Central factors considered by the FBI in making 
determinations have been the ISP's ability to implement a particular 
order fully, properly, securely and in a timely manner. If the ISP can 
meet these requirements, we would normally let the ISP implement the 
order.
    Further, it is important to remember that both as a technological 
and practical matter, the FBI's conduct of electronic surveillance 
within such ISP's computer network always requires a cooperative and 
collaborative effort between the ISP and the FBI. This is so because an 
ISP's network administrators and engineers are really the only ones 
possessing the knowledge required as to their network to identify 
within it the transmission pathway(s) of a particular criminal subject, 
the best access vantage point(s), the protocols being used, etc.--all 
of which are required to effectively execute a surveillance order.
    Hence, the FBI believes the best approach will continue to be a 
case-by-case approach, based upon considerations such as those outlined 
above.

    Question 2. The FBI has testified that Carnivore has been used, as 
of September 6, 2000, in approximately 25 instances and that ``in many 
instances, ISPs, particularly the larger ones, maintain certain 
technical capabilities which allow them to comply, or partially comply, 
with court order.''
    A. Is it fair to say the majority of court orders for electronic 
surveillance of Internet communications or source and destination 
information of Internet communications are executed by ISPs without the 
use of Carnivore?
    B. Since the FBI employs Carnivore only on rare occasions when its 
use is necessary, should the FBI retain the right to use Carnivore in 
all cases?
    C. Should the government be required to make a showing that use of 
Carnivore is necessary and obtain court permission before using this 
tool?
    D. Would concern about abuse of Carnivore be allayed if its use 
were limited to circumstances when a court has granted explicit 
permission for the electronic surveillance order to be executed by law 
enforcement on the ISP's premises?
    Answer 2 A and B. Again, owing to a number of factors and 
variables, as outlined above in Answer #1, and their interrelationship, 
we cannot give an unqualified answer. Generally speaking, certain very 
large ISPs do tend to have greater electronic surveillance capabilities 
than the small ISPs. For example, if the electronic surveillance order 
were for the interception of E-mail content, certain ISPs could 
``clone'' the E-mail and accomplish, or very substantially accomplish, 
such an interception effort. When the ISP can meet electronic 
surveillance requirements, we have permitted the ISP to effect the 
surveillance effort. However, since most ISPs have developed with 
little emphasis being placed on conducting electronic surveillance for 
law enforcement, and since the ``tools'' that they might typically 
resort to in order to effect such efforts (e.g., ``commercial 
sniffers'') were never designed for such a law enforcement electronic 
surveillance purpose, surveillance shortfalls can occur. By comparison, 
the FBI's Carnivore system was specially designed to effect such 
surveillances. In this regard, it bears noting that, when an ISP does 
lack the capability to implement a court order fully, properly, 
securely, and in a timely manner, the ISP usually is the first to 
recognize that it is more effective for the FBI to use its electronic 
surveillance tools.
    Given the different and sometimes unique factors and variables that 
arise from case to case, as noted above, we believe that the FBI must 
retain the right to use its electronic surveillance equipment in order 
to ensure that electronic surveillance orders can be implemented fully, 
properly, securely and in a timely manner. However, in the rare 
instances where a dispute may arise between the government and the ISP, 
as with any matter in contention, resolution of such matter is through 
the courts, with a judge or magistrate resolving it. Resolution is 
never dictated unilaterally by the government, much less by the FBI.

    Answer 2 C and D. We believe, based upon different factors and 
variables, as outlined above, as well as our past experience in this 
area, that the best course is one where the ISP and the FBI work 
closely together in a consultative, cooperative, and collaborative 
fashion to implement a particular electronic surveillance order in the 
best way possible, so that the court's order is properly implemented 
and not frustrated. The technical and administrative staff of an ISP is 
best positioned, in concert with law enforcement, to make complex 
technological judgments, which often arise only after the court issues 
its order. Relatedly, the FBI does not have the resources that would be 
required to initiate in-depth discussions with all the ISPs (some in 
industry estimate the number of ISPs to be in the thousands) that 
conceivably could be involved in a potential future court-ordered 
electronic surveillance interception (with an eye to pre-determining 
what technological approach might be best) prior to the time when an 
actual and specific order may in fact be issued by a particular court. 
Further, and as indicated above, suchpre-determination could, at best, 
only be general and tentative in nature since, as noted, many different 
technological variables and factors come into play, and, importantly, 
they change over time as the ISPs' networks change over time. Thus, 
especially in fast-paced investigations where time is of the essence, 
such as in computer hacker cases, to require in advance a specialized 
demonstration of need to a court in order to utilize Carnivore, as 
suggested, would impose very problematic procedural delays. Neither FBI 
nor ISP engineers would be in a position to make a final determination 
until after a particular order authorizing interception or acquisition 
of particular information had been issued at a particular juncture in 
time with reference to the then technological state of the given ISP's 
network.
    As to the issue of concern about abuse, as noted in our hearing 
testimony, Carnivore has a built-in audit record. This audit record 
feature was designed into Carnivore for the purpose of making a 
permanent record as to the particular filter settings that have been 
used in each case with Carnivore--and hence what information has been 
acquired by Carnivore--at any point in time. Thus, this Carnivore 
feature creates a record to afford assurance to any interested party 
(FBI managers, Offices of the United States Attorney, U.S. District 
Courts, juries, criminal defendants, and defense counsel) as to 
precisely what Carnivore is or is not acquiring at any point of time in 
each investigation. Also, as with any type of electronic surveillance 
within any service provider network (wire or electronic), the criminal 
and civil penalties within our electronic surveillance laws, along with 
close DOJ and FBI administrative oversight, prevent misuse of 
electronic surveillance. Indeed, the FBI has an outstanding record of 
compliance with the electronic surveillance laws since their enactment 
over 30 years ago.

    Question 3. The FBI and Department of Justice have asserted that 
Carnivore is the functional equivalent of pen register and trap-and-
trace devices used on telephone lines. The Supreme Court held in Smith 
v. Maryland, 442 U.S. 735 (1979), that telephone callers do not have an 
expectation of privacy in dialed numbers used in placing a call since 
such numbers are necessarily divulged to a telephone company, which 
makes a permanent record for purposes of billing operations and 
maintenance of the service. The Court specifically distinguished such 
dialed numbers from ``content,'' which are protected by the Fourth 
Amendment.
    A. An Internet user may go to a particular URL that specifies not 
only the computer on the Internet on which a particular document can be 
found, but also the directory in which the document is located, the 
file name of the document and the page within the document that the 
user seeks and retrieves. Does such a URL or ``Internet address'' 
contain more or less information about the subject of a communication 
than a dialed telephone number?
    B. Is Carnivore capable of intercepting information about a 
specific URL searched by an Internet user who is the subject of a pen 
register order? If so, at what point in the searching, or addressing, 
information would the Justice Department believe that the line has been 
crossed into ``content''?
    C. Is Carnivore capable of intercepting information about all the 
URLs visited by an Internet user who is the subject of a pen register 
order during a particular session?
    Answer 3 A, B, and C. To clarify, a Uniform Resource Locator (URL) 
is simply an electronic Internet Protocol (IP) domain name address 
(e.g., xyzcorp.com). Further, also riding underneath the alphabetic URL 
address is a numeric address associated with the server that is 
supporting the contacted URL. Accordingly, when, pursuant to a pen 
register court order, the FBI uses Carnivore and acquires URL address 
information that is all that is being acquired--i.e., the fact that a 
criminal subject has electronically connected to a given URL address. 
As such, the URL address information does not include any subdirectory 
or any other information about the site. In such a case, the FBI would 
only know that the criminal subject had contacted the xyzcorp.com site 
and whether or not his/her computer had established a ``secure'' 
connection (i.e., secure socket layer (SSL))--no more. Hence, in light 
of the foregoing, we believe that such URL information is essentially 
identical to a telephone number within a telephone network that a 
criminal subject may dial. Thus, it is worth noting that a Carnivore-
based pen register would provide the FBI with virtually the same 
information as a telephone pen register would, i.e., the telephone 
number dialed by the criminal subject reflecting that a communication 
to XYZ Corp. had occurred. No ``content'' information (substance, 
purport or meaning) is gleaned from either type of pen register as to 
the nature of the call.

    Question 4. Under current law, a judge must issue a pen register 
order upon a prosecutor's certification that the information likely to 
be obtained is relevant to an ongoing investigation. I have proposed in 
the E-RIGHTS Act, S. 854, that the law be changed to authorize a judge 
to issue such an order upon finding that the prosecutor has shown that 
the information is likely to be relevant. The Administration has 
proposed a similar change in current law. By contrast, Professor 
O'Neill suggested at the hearing that Congress should consider whether 
all Internet trap and trace orders should issue only on the basis of a 
judicial finding that probable cause exists to believe that a target 
has or is about to commit a crime. Representatives Canady and 
Hutchinson have proposed a bill that would require a prosecutor seeking 
e-mail source/destination information to show specific and articulable 
facts reasonably indicating that a crime has been, is being or will be 
committed, plus a showing of relevance of the information sought to 
investigation of that crime. A bill sponsored by Representatives Barr 
and Emerson would apply that standard to all pen registers and traps-
and-traces whether or not they would identify e-mail addresses. What 
modifications, if any, to the existing standard for pen registers and 
traps-and-traces do you favor?
    Answer 4. We believe now, as we did in 1986 when agreement was 
reached in the Congress (and amongst all of the interested parties) in 
enacting the Electronic Communications Privacy Act of 1986 (ECPA), that 
the current (ECPA) standard with regard to the use of pen registers and 
traps and traces is appropriate for the acquisition of non-content-
based pen register-related addressing and transactional information. On 
March 28, 2000, Director Freeh testified in support of S. 2092, a bi-
partisan bill co-sponsored by Senator Schumer and Senator Kyl. The FBI 
believes S. 2092 maintains the appropriate 1986 ECPA standard with 
regard to the acquisition of non-content-based ``addressing and 
routing'' information while rendering the pen register statute 
technologically neutral.

    Question 5. According to the FBI, Carnivore operates by sifting 
through network traffic where a subject's communications are expected 
to be found ``roughly analogous to using anelectronic surveillance 
device . . . on a single trunk or cable within a telephone network.'' 
In your view, does the manner in which Carnivore operates give law 
enforcement access to more than just the communications or addressing 
information covered in a court order and, if so, would a 
telecommunications carrier that is also serving as an ISP be put in 
jeopardy of violating its duty under CALEA of protecting ``the privacy 
and security of communications . . . not authorized to be 
intercepted''? (47 U.S.C. 1002).
    Answer 5. As to the first part of your question, the way Carnivore 
operates, as described at some length in Answer #9(B), below, does not 
give the FBI more than the communications or addressing information 
covered by a particular court order. As to the second part of your 
question, no, we believe that the CALEA directive concerning protecting 
``the privacy and security of communications not authorized to be 
intercepted'' applies only to those technological approaches and 
technical requirements that are developed to provide solutions covered 
by CALEA.

    Question 6. Professor O'Neill has suggested a number of steps to be 
taken by Congress to address questions raised by Carnivore, including 
obtaining answers to the following questions:
    A. Please explain the legal authority for law enforcement to insist 
that an ISP install Carnivore?
    B. Can Carnivore be easily defeated by encryption software or does 
this tool capture IP addresses that are more difficult to encrypt than 
the contents of messages?
    Answer 6A. The primary legal authority for the FBI and the United 
States Attorney's Office requiring that an ISP cooperate in installing 
Carnivore would be to avoid the ``frustration'' of a particular court 
order. The prospect of frustration, in the first instance, would stem 
from an ISP's inability to implement a given order fully, properly, 
securely, and in a timely manner. Both the Title III and the pen 
register/trap and trace statutes have specific ``assistance'' 
provisions addressed to, among others, ``providers of wire or 
electronic communications service'' for the purpose of avoiding 
frustration of court orders. The statutes state that such providers 
``shall furnish . . . [the] investigative or law enforcement officer 
forthwith all information, facilities, and technical assistance 
necessary to accomplish [the Title III interception or the installation 
of the pen resister].'' Accomplish necessarily means fully accomplish, 
such that valuable evidence is not lost and such that its accuracy/
integrity is not challengeable. Second, it is to be done securely. And 
third, as indicated by the statutory language (``forthwith''), a 
service provider must be able to assist very promptly. 18 U.S.C. 
2518(4), 18 U.S.C. 3124, respectively. The language in the ``assistance 
order'' issued by the judge or magistrate usually mirrors the statutory 
language exactly.
    As emphasized in the FBI's testimony, anytime the FBI has a 
surveillance order where an ISP can (1) fully and properly accomplish 
the surveillance, (2) do it securely, (3) do it very promptly, the FBI 
has been content to permit the ISP to implement the order. However, 
noting the foregoing statutory and court order language, the FBI and 
the United States Attorney's Office legitimately and properly could 
insist upon an ISP's cooperation with regard to the use of FBI 
electronic surveillance equipment (whether it be Carnivore or other 
equipment) that would work to execute an order fully, properly, 
securely, and in a timely manner, whenever the ISP does not have the 
capability to satisfy such requirements. Of course, if there were to be 
a dispute in this regard between the FBI and the ISP, as with any 
matter in contention, the resolution of the matter would be through the 
court, with a judge or magistrate resolving the issue. Resolution would 
not be dictated unilaterally by the government, much less by the FBI.

    Answer 6B. Carnivore was not designed to address encryption. Any 
encryption that was encountered would require decryption through other 
means or devices.

    Question 7. At the hearing, Dr. Kerr testified that Carnivore had 
recently been updated and improved. Presumably, the FBI will continue 
to update and improve Carnivore even after the independent technical 
review for which the Attorney General is now arranging. According to 
the FBI, one way to monitor Carnivore's use and modifications after 
conclusion of the technical review is by a so-called ``audit trail'' 
which allows a defendant to see how the FBI conducted a Carnivore 
search keystroke-by-keystroke. If the search was improperly conducted, 
the defendant might have grounds for suppression. Even if the audit 
trail operates as advertised, however, it will only be available to 
criminal defendants against whom prosecutors seek to introduce evidence 
obtained by Carnivore. How do we assure the law-abiding public after 
the anticipated technical review that Carnivore will not infringe on 
privacy rights? Should Congress consider an independent monitor for 
that purpose?
    Anwser 7. There are numerous legal, technological, and 
administrative controls in place that prevent the misuse of Carnivore 
and any infringement upon privacy rights.
    Legal Controls: First of all, the law itself is a powerful control 
to ensure that only properly authorized, lawful electronic surveillance 
occurs. The FBI certainly is of this opinion. As such, the FBI only 
conducts electronic surveillance--whether conducted through the use of 
Carnivore of otherwise--pursuant to a lawful court order or lawful 
voluntary consent of a party to the communication. This has been the 
case since 1968, when the first Federal electronic surveillance laws 
were enacted in the Title III legislation. Importantly, the FBI has an 
outstanding record of compliance with the electronic surveillance laws 
since their enactment over 30 years ago. In addition, it is very 
noteworthy that the electronic surveillance laws contain stringent 
deterrents to unauthorized (illegal) electronic surveillance, including 
criminal (felony) and civil sanctions for any individual who violates 
the law. Further, under the Constitution, suppression of illegally 
obtained evidence (and fruits thereof) may be applied by Federal courts 
if electronic communications content is unlawfully intercepted.
    Technological Controls: As you note in your question, the Carnivore 
system, by design and functionality, is set up to establish an ``audit 
record'' for evidentiary purposes. Of course, a secondary aspect and 
value of this design and functionality would be to aid in the 
prevention of any potential infringement of privacy rights. Moreover, 
as you may be aware, Carnivore, by design, is a device which only 
functions to filter out. In its first filtering action, Carnivore 
filters out anything not associated with the unique and specific 
identifier associated with a particular criminal subject's service, as 
identified in a given court order. Stated differently, Carnivore 
``ignores'' and is ``blind to'' anything not associated with a criminal 
subject's unique identifierthat relates to the specific authorization 
set forth in the court's order. In its second filtering action, 
Carnivore filters out content when the order is only for communications 
addressing and transactional information. Thus, as a special purpose 
electronic surveillance tool, Carnivore fundamentally and purposely 
works as a ``filter.'' By contrast, Carnivore fundamentally and 
purposely does not work, descriptively speaking, as a ``vacuum 
cleaner'' which, by design, would purposely acquire electronic 
communications broadly and indiscriminately from all network users, 
including those of innocent subscribers. Hence, Carnivore's design does 
serve as an effective check against any potentiality of infringing upon 
privacy rights.
    Administrative Controls: There are numerous administrative and 
criminal justice system-based controls which preclude the errant use of 
Carnivore, both in terms of internal and external oversight to control 
how Carnivore is being used at any point in time. To begin with, it 
should be emphasized that the FBI does not deploy or use Carnivore or 
any other non-consensual electronic surveillance tool in a vacuum. With 
regard to applications for pen registers or trap and trace devises, 
section 3121 of Title 18 of the United States Code prohibits 
Carnivore's use, as such a device, without a court order. In order to 
acquire a court order, the FBI may not act alone, but must seek the 
approval of an appropriate official within the Department of Justice. 
Section 3122 mandates that an ``attorney for the government'' be the 
applicant for a pen register or trap and trace device. Typically, this 
requires the approval of the Office of the United States Attorney for 
the district in which the device is to be used. Of course, more 
stringent requirements mandating high-level Department of Justice 
approval, are found in Title III/FISA provisions and practices 
controlling the interception of electronic communications.
    Within the FBI itself, there are also a number of administrative, 
technological, and physical access controls which prevent the 
authorized use of any electronic surveillance tool, including 
Carnivore. First, as a general matter, all covert electronic 
surveillance equipment is carefully controlled and overseen within the 
FBI by FBI Headquarters program managers and by each field office's 
Technical Advisor (TA). Second, with regard to Carnivore specifically, 
there are only a few Carnivore devices and only a limited number of FBI 
personnel who are trained to operate this special purpose tool, under 
FBI Headquarter's oversight. Third, to use Carnivore in any given case, 
such personnel must be privy to the specific access number for a 
targeted account number. Fourth, such personnel can use Carnivore only 
when they possess a hardware security device that is specifically 
required for access. And fifth, such personnel can use Carnivore only 
when they have the necessary two-tiered password access authority 
required.
    Finally, if any FBI employee ever were to conduct such unlawful 
activity, he/she would be terminated from employment with the FBI. 
There is ``zero tolerance'' for any such illegal conduct within the 
FBI.
    In sum, Carnivore has many legal, technological, and administrative 
controls. Such controls effectively act to prevent any infringement of 
privacy rights when using Carnivore.
    As to the second part of your question, we believe that it would be 
imprudent for the Congress to contemplate as a course of action, in the 
context of the concerns expressed with regard to Carnivore, the 
establishment of an outside ``independent monitor.'' There are a number 
of reasons why resort of such an independent monitor would be 
problematic, including, but not necessarily limited to, the following. 
First, there is a likely separation of powers issue with regard to the 
Executive Branch's Constitutionally-reserved right to fashion and 
utilize proper sources and methods in order to lawfully and fully 
execute warrants and court orders (including electronic surveillance 
orders). Second, as a general proposition, such an approach, if 
adopted, could give rise to the unintended result of casting the 
independent monitor in the awkward role of being a sort of ``electronic 
surveillance technology police,'' a role particularly ill-suited to a 
complex environment of fast-moving technology and the associated need 
for nimble electronic surveillance response. Third, it would appear to 
use that for this approach to really work the independent monitor may 
also have to assume an unprecedented and ongoing supervisory role 
throughout the duration of an execution of a given court-ordered 
surveillance. As can be seen, significant philosophical and legal 
including Constitutional) problems arise with the prospect of having 
the government itself ``surveilled'' by an ``independent monitor'' as 
the FBI proceeds to lawfully execute a warrant or court order.
    If assuring the propriety of FBI surveillance is the core issue, as 
noted immediately above, other effective checks and balances are in 
place. Also, although the focus of the instant suggestion pertains to 
Carnivore, as a matter of precedent, the notion associated with using 
an independent electronic surveillance monitor could in principle be 
applied to every piece of electronic surveillance equipment that might 
be designed and used by the FBI, by other Federal law enforcement and/
or security agencies, and by State and local law enforcement agencies. 
We would strongly recommend against pursing such an approach.

    Question 8. Some universities interested in responding to DOJ's 
solicitation of bids to conduct the independent technical review of 
Carnivore have reportedly criticized certain terms of a non-disclosure 
agreement which the chosen contractor would be required to sign. One 
witness at the hearing said that the FBI would be a party to the 
required agreement. Please provide a copy of the non-disclosure 
agreement, identify the terms that have been criticized and explain why 
they are necessary.
    Answer 8. Attached at the end of this document is a copy of the 
``Sensitive Information Nondisclosure Agreement'' (NDA) executed by the 
Carnivore review team contractor.
    In the recent Senate hearing on Carnivore, Mr. James Dempsey cited 
a USA Today On Line story where certain universities reportedly had 
indicated a reluctance to participate. One point noted in the story was 
that ``Universities and any other contractors must agree not to publish 
anything the government deems sensitive.'' Hence, it appears, based 
upon the USA Today's characterization, that the university community's 
objection is more global as to the general proposition of not 
disclosing ``sensitive'' information as opposed to any particular 
``term'' or provision in the NDA.
    To begin with, the attached NDA is derived from a standard FBI NDA 
form (FD 857) which the FBI sues when sharing sensitive information 
with outside entities such as contractors and other persons. Such NDAs 
are also typically included in FBI/DOJ federal contracting. In the 
instant case, the FBI worked with the Carnivore review team contractor, 
the Illinois Institute of Technology Research Institute (IITRI), in 
formulating final NDA language which satisfied the contractor and which 
did not stifle the full review of Carnivore by the contractor.
    As to the second part of the question, electronic surveillance 
equipment, including software, is sensitive and, under law, information 
about it is strictly controlled and constrained.
    As you are aware, in enacting the first comprehensive U.S. 
electronic surveillance laws, Title III of the Omnibus Crime Control 
and Safe Streets Act of 1968 (Title III), 18 U.S.C. 2510-2522, as 
amended, the Congress instituted a balanced regime which both affords 
clear statutory authority and Constitutionally-compliant procedures to 
enable law enforcement to lawfully conduct electronic surveillance 
pursuant to court order and which also criminalizes the unauthorized 
conduct of electronic surveillance in order to underscore the Congress' 
intention of preventing unlawful searches and seizures and of 
preserving communications privacy. To advance both of these principles, 
the Congress also crafted a particular Title III provision to prevent 
the proliferation of surreptitious electronic surveillance interception 
devices. See 18 U.S.C. 2512 (Manufacture, distribution, possession, and 
advertising of wire, oral, and electronic communication intercepting 
devices prohibited). The only two categories of users exempted under 
Section 2512 from using such devices are providers of wire or 
electronic communication service, with regard to equipment utilized by 
them in the normal course of providing their service, and governmental 
officials, with regard to equipment utilized by them in the normal 
course of carrying out governmental activities.
    Similarly, there are statutory and regulatory U.S. export control 
regimes which govern the export of electronic surveillance equipment 
(e.g., the Arms Export Control Act, as implemented by the International 
Traffic in Arms Regulations, and the Export Control Act, as implemented 
by the Export Administration Regulations). Depending on the type of 
electronic surveillance device involved, one or both of these regimes 
govern the export of electronic surveillance equipment.
    In short, electronic surveillance equipment generally, and that 
used by the FBI in particular (at least that electronic surveillance 
equipment used in covert, non-consensual efforts--i.e. surreptitious 
electronic surveillance devices) is treated as sensitive, at a minimum. 
In many cases, such equipment may also be classified. Hence, in light 
of the above, the FBI is concerned about the legal and policy 
constraints and controls that would conflict with the open-ended public 
disclosure of such electronic surveillance equipment, including its 
software.
    With regard to Carnivore, and again in light of the above laws, 
controls, and constraints, we believe that it would be improper to 
disclose to the public generally the source code of Carnivore. The 
source code, after all, is for a special purpose surreptitious 
electronic surveillance system which should be treated with 
circumspection. Public disclosure of the source code could lead to the 
unintended and harmful effect of facilitating unauthorized, and hence 
unlawful electronic surveillance. Also, it may well be that disclosure 
could inform the criminal community about aspects of Carnivore that 
might suggest some potential for circumvention.
    However, as you are aware, the FBI will disclose the Carnivore 
source code to the IITRI review team under controlled circumstances in 
order to give assurance to the public that Carnivore operates properly 
and lawfully, as the FBI claims it does. In so sharing such sensitive 
information, it is altogether appropriate that an NDA be utilized to 
protect the information. It is important to note, however, that nothing 
in the NDA can reasonably be read to prohibit or stifle the disclosure 
of information of findings, potentially critical of Carnivore or the 
FBI, to the Attorney General and the Department of Justice. In 
conclusion, the testimony of the respected Internet expert, Mr. Vint 
Cerf (who previously was briefed as to Carnivore and who signed an 
NDA), is worth noting in this regard. At the hearing, Mr. Cerf 
testified, ``May I just interject that I agreed to sign the 
nondisclosure on the principle that when you're dealing with 
surveillance just as you would with other intelligence situations, 
sources and methods are always a sensitive issue.''

    Question 9. In the D.C. Circuit Court of Appeals recent decision on 
the FCC's implementation of CALEA (the ``Communications Assistance for 
Law Enforcement Act''), the Court agreed with the FCC that under a 
standard adopted by telecommunications carriers for packet-switched 
networks, the carriers could provide both packet headers and the 
content, or ``payload,'' to law enforcement. Carriers argued that 
technically they could not separate the two, while the FBI contended 
that it had equipment which could ``distinguish between a packet's 
header and its communications payload and make[] only the relevant 
header information available for recording or decoding.''
    A. Was the FBI referring to its ``Carnivore'' equipment when it 
made this representation to both the FCC and the Court?
    B. The FBI's representation was critical, since both the FCC and 
the Court noted that ``privacy concerns could be implicated if carriers 
were to give to [law enforcement] packets containing both [the 
addressing information and the content] when only the former was 
authorized.'' When Carnivore is installed, is the ISP essentially 
giving law enforcement the entire traffic flow over that particular 
part of the network, including both addressing information and content 
of packets?
    C. The FBI testified at the hearing that CALEA does not apply to 
ISPs. In fact, CALEA, by its terms, applies only to telecommunications 
carriers. Are there telecommunications carriers that are also ISPs? If 
so, please provide examples.
    D. Should the privacy concerns expressed by the Court for packet-
switched networks apply only to telecommunications carriers, as defined 
in CALEA, or do those concerns apply more broadly to ISPs?
    Answer 9A. The reference in question was not to Carnivore. The 
representation was generic as to what the FBI believes can be designed 
to separate communications from call-identifying information.

    Answer 9B. First, we would like to clarify a couple of points 
included in the opening paragraph of this CALEA-related question. One 
point is that the FBI has asserted in its FCC filings regarding CALEA 
that, as a matter of technology, it believes that devices can be 
designed that would be capable of separating the communications content 
from the communications call-identifying information. A second point is 
that, assuming the availability of such devices, any entity, including 
a ``telecommunications carrier'' under CALEA, presumably could avail 
itself of them and use any such device itself.
    As to your specific question, ``[w]hen Carnivore is installed, is 
the ISP essentially giving law enforcement the entire traffic flow over 
that particular part of the network, including both addressing 
information and content of packets?'' (emphasis added), some 
clarification is in order. First, what an ISP ``gives'' to law 
enforcement, when it identifies a ``particular part of [its] . . . 
network]'' is a vantage point through which ``access'' can be achieved 
as to the specific communications traffic of a particular criminal 
subject, based exclusively upon that particular criminal subject's 
unique identifying information.
    Further, to better respond to your question, it is useful to 
explain more particularly how Carnivore actually works. As we set forth 
in our statement for the record, Carnivore is a special purpose 
electronic surveillance system which, pursuant to an appropriate court 
order or lawful consent, is used to acquire or intercept a criminal 
subject's communications addressing and transactional information or 
communications content, respectively, based exclusively upon filtering 
that segregates a criminal subject's communications traffic based upon 
his/her unique identifying information (e.g., his/her E-mail address, 
IP address). Carnivore does not acquire or intercept any innocent, non-
criminal subject's communications addressing or transactional 
information or communications content.
    Moreover, it is important to understand that Carnivore's filtering 
operates in stages--and that all filtering occurs exclusively within 
the ``Carnivore box.'' As noted, Carnivore's first operation is 
exclusively to detect the criminal subject's identifying information. 
The first stage of filtering in the Carnivore system is to match (in 
purely binary computer code) the ``pattern'' of ``1's'' and ``0's'' in 
the computer bit stream that matches the criminal subject's identifying 
information ``pattern''--which identifying information is set forth in 
the court's order. So, in a very simplified example, with the filter 
exclusively set to detect the criminal subjects's computer bit pattern 
``1100,'' if the first bit in the computer bit stream was an ``0,'' 
Carnivore would automatically conclude that since ``0'' and ``1'' are 
not a match, that this circumstance does not meet the filter pattern 
criteria, and it would quickly move onto conduct the next pattern match 
effort. If the first digit is a match, Carnivore would then go to the 
next digit in the computer bit stream, and repeat the process, until an 
exact, complete match is arrived at.
    Importantly, nothing happens at all, by way of any interception of 
communications content or acquisition of communications addressing 
information, unless and until the criminal subject's unique identifying 
information has been matched. Then, and only then, does Carnivore move 
on to the second stage of filtering, in terms of applying the 
appropriate filters required to filter either for communications 
addressing information acquisition or for full communications content 
interception, depending upon the particular authorization found within 
the court's order. Finally, FBI personnel only receive and ``see'' the 
communications addressing information or communications content of the 
criminal subject, as appropriate--based upon the court's order--after 
all of the Carnivore filtering has been completed exclusively within 
the Carnivore box. Indeed, whenever any network traffic is stored on 
the Carnivore system, it remains in the same format of 0's and 1's; 
and, importantly, it is not turned into a format intelligible to humans 
until after it is transferred from the Carnivore system.
    In sum, Carnivore never conducts a search of the communications 
addressing or transactional information or communications content of 
any innocent, non-criminal subject at all. Indeed, even with the 
criminal subject's communications traffic, Carnivore filters the 
criminal subject's ``machine readable only'' binary code exclusively 
within the box; and FBI personnel only obtain, in a humanly 
intelligible format--and ``outside of the box''--the appropriate 
criminal evidence sought after Carnivore has completely concluded its 
programmed filtering efforts within the box.

    Answer 9C As implied in your question, and as anticipated in CALEA, 
a communications service provider's business could offer both 
telecommunications services and information services. Examples of such 
companies are AT&T and MCI WorldCom. CALEA's coverage with reference to 
the definition of ``telecommunications carrier'' ``does not include (i) 
persons or entities insofar as they are engaged in providing 
information services (emphasis added). `` See 47 U.S.C. 1001(8)(C).

    Answer 9D. The D.C. Court of Appeals decision pertained to the 
actions taken by the Federal Communications Commission in light of its 
CALEA-implementing Third Report and Order, and with reference to 
actions taken by the Telecommunications Industry Association in its 
CALEA-implementing J-Standard. The court's decision, hence, was CALEA-
centric. The FBI and the Department of Justice (DOJ) have articulated 
their perspectives with regard to packet mode communications at some 
length in their comments before the FCC (see FBI and Department of 
Justice ``Comments Regarding Further Notice of Proposed Rulemaking,'' 
CC Docket No. 97-213 at 77-81) and in their brief before the D.C. 
Circuit Court of Appeals (see Final Brief for the United States at 15-
18).
    With reference to the aforementioned FBI/DOJ Comments before the 
FCC, we note, as did the FBI/DOJ Comments at pages 79-80, that there is 
nothing in CALEA or its legislative history to indicate that Congress 
meant to prohibit the use of law enforcement electronic surveillance 
equipment which has the capability of separating signals of 
communications content from communications transactional information. 
For example, all ``local loop'' electronic surveillance efforts 
necessitate such tools and approaches. And no one, to our knowledge, is 
suggesting,for example, that ``local loop'' interceptions are in any 
way affected or curtailed by CALEA or otherwise. Further, to quote from 
the Comments:
    ``It is worth noting that Section 103(a)(4) does not state that 
carriers ``shall no deliver'' communications and call-identifying 
information that law enforcement is not authorized to intercept, but 
only that carriers shall ``protect the privacy and security'' of such 
information. A carrier is entitled to rely on enforcement's discharge 
of its legal obligation under 18 U.S.C. Sec. 3121(c) as a means of 
``protecting the privacy'' and security'' of information that law 
enforcement is not authorized to intercept. Accordingly, the J-Standard 
is not deficient in this regard.''
    Comments at 80. Moreover, with reference to the aforementioned FBI/
DOJ Brief, we quote the following:
    ``* * * because the use of minimizing technology under Section 
3121(c) can prevent law enforcement agencies from hearing or seeing the 
content portion of a packet stream, the J-Standard does not offend 
Title III or the Fourth Amendment. Cf. United States v.Miller, 116F.3d 
641, 659-60 (2d Cir. 1997) (use of pen register device that is capable 
of recording call content as well as dialing information does not 
violate Title III), Sanders v. Robert Bosch Corp., 38 F.3d 736, 742 
(4th Cir. 1994) (no Title III interception occurred when oral 
conversations were monitored and transmitted by hidden microphone but 
contents of conversations were neither heard nor recorded).''
    Brief at 17. Thus, in light of the above, and notwithstanding any 
concerns which may have been expressed by the court with regard to 
packet-switched communications generally, we believe, both with regard 
to networks of telecommunications carriers and the networks of 
computer-based ``information services,'' that privacy and security 
protection can be satisfied in privacy-enhancing electronic 
surveillance tools such as Carnivore. Since we believe that privacy and 
security protection can be, and is being, maintained, we do not 
necessarily share the rendition of ``privacy concerns'' as alluded to 
in the dicta of the D.C. Court of Appeal's CALEA-based decision.

    Question 10. The public concern about use of Carnivore and 
government surveillance of the Internet has prompted at least one 
witness at the hearing to call for more Congressional oversight. In 
this connection, I introduced last year as part of the E-RIGHTS Act, S. 
854, a proposal to require the Attorney General to provide the Congress 
annual reports on the number of warrants, court orders and subpoenas 
for government interceptions of e-mail and other electronic 
communications under 18 U.S.C. section 2703. What is your view of 
whether this proposal would assist Congress in providing appropriate 
oversight and necessary information about government practices under 
the law?
    Answer 10. The FBI is certainly on record as being amenable to 
Congressional oversight, including in the area of electronic 
surveillance. As noted in the last section of our Hearing statement for 
the record, a great deal of Congressional oversight already exists, 
particularly in the area of electronic surveillance. With regard to 
whether it is a good idea to require the Attorney General to provide to 
the Congress detailed annual reports regarding all of the Department of 
Justice agency components' warrants, court orders, and subpoenas 
pertaining to governmental acquisitions of stored E-mail and other 
electronic communications obtained under 18 U.S.C. Sec. 2703, we would 
defer to the Department of Justice.

             Sensitive Information Nondisclosure Agreement

    An Agreement between __________ and the Federal Bureau of 
Investigation (FBI) regarding the nondisclosure of sensitive FBI 
information, to wit: any and all information received, observed, or 
otherwise required from the FBI or the U.S. Department of Justice (DOJ) 
arising from a review requested by the Attorney General of the United 
States (the Review) of the FBI's Carnivore device and system, 
including, but not limited to, any and all information pertaining to 
the Carnivore software and associated software and hardware devices and 
systems; any and all information pertaining to investigations, 
investigative uses, operations, procedures, policies, practices, 
guidelines, contracts, sensitive (including proprietary) governmental 
information, nongovernmental proprietary information, training, 
training documents, manuals, technical descriptions, source code, 
object code, executable software, designs and design information, 
documentation, descriptions, tests, test results, test scenarios, 
deficiencies, and vulnerabilities associated with the Carnivore device 
and system (``Sensitive Information'').
    1. Intending to be legally bound, I hereby accept the obligations 
contained in this Agreement in consideration of my being granted access 
to Sensitive Information from the FBI or the DOJ arising from the 
Review as required to perform my duties. I also understand and accept 
that by being granted access to this Sensitive Information, special 
confidence and trust shall be placed in me by the FBI.
    2. I hereby acknowledge that I have been briefed concerning the 
nature and protection of Sensitive Information, including the 
procedures to be followed in ascertaining whether other persons to whom 
I contemplate disclosing this information have been approved for access 
to it, and that I understand these procedures. Further, I understand 
that unauthorized use or disclosure of Sensitive Information, marked or 
unmarked, including, but not limited to, oral communications or 
information observed or gleaned arising from the Review, may 
compromise, jeopardize or subvert current, past, or future law 
enforcement activities, investigations, or investigative techniques and 
may compromise, jeopardize or subvert existing or future FBI contracts, 
contractual relationships between the FBI and vendors, or the ability 
of the FBI to effectively contract with vendors now or in the future.
    3. I agree to manage all Sensitive Information in a manner 
consistent with procedures recommended by the FBI or DOJ, and I will 
not now or in the future use, disclose, or retain Sensitive Information 
unless such disclosure is necessary in the performance of the Review, 
and I have either officially verified that the recipient of such 
information has been properly authorized by the FBI or DOJ to receive 
it, or been given prior written notice of authorizationfrom the FBI or 
the DOJ that such use, disclosure or retention is permitted. I 
understand that if I am uncertain as to the sensitive nature or status 
of information as Sensitive Information, I am required to confirm from 
an authorized FBI or DOJ official that such information may be used, 
disclosed or retained prior to its use, disclosure or retention. The 
obligations imposed upon me herein shall not apply to Sensitive 
Information which is disclosed pursuant to a valid order of a court or 
governmental body or any political subdivision thereof; provided, 
however, that I shall first have given notice to the FBI or DOJ in 
order to permit them to seek a protective order and in such case I 
shall assist the FBI or DOJ in filing a protective order in accordance 
with applicable rules; and if such order issues, disclosure under this 
provision shall be made only in accordance with the terms of the 
protective order. Not withstanding this provision, IITRI shall be able 
to retain one (1) copy of the draft and final reports provided to the 
FBI or DOJ as a result of the Review for a period of one year after 
completion of the Review, after which time such copies shall be 
returned to the FBI or DOJ.
    4. I have been advised that except as necessary for the Review, any 
effort to reverse engineer the Carnivore software or other software, 
including software code, to which I may be given access during the 
Review may cause irreparable damage to (a) FBI investigations and 
investigative techniques; (b) FBI contracts, contracting capabilities, 
contractual relationships between the FBI and vendors, or the ability 
of the FBI to effectively contract with vendors now and in the future; 
or (c) the rights of third parties to protect their proprietary 
information; and I will not undertake any such action, use, or effort 
to reverse engineer Carnivore or other software, including software 
code, or undertake any other action, use, or effort that is 
inconsistent with the sensitive and protected nature of this software, 
unless I have been given prior and explicit written authorization from 
the FBI or DOJ that such action, use, or effort is permitted. I will 
also not duplicate or copy Sensitive Information arising from the 
Review in a manner inconsistent with the procedures recommended by the 
FBI or DOJ. I acknowledge that unauthorized duplication or copying of 
Sensitive Information arising from the Review may cause irreparable 
damage to FBI investigations, investigative techniques, or contracting 
capabilities.
    5. I have been advised that any breach of this Agreement may result 
in the termination of my relationship with the FBI and the DOJ and my 
removal from the Review. In addition, I have been advised that any 
unauthorized disclosure, use, or retention of Sensitive Information by 
me may constitute a violation or violations of United States criminal 
laws, including those codified in title 18, United States code, or may 
lead to criminal prosecution for obstruction of lawful government 
functions. I realize that nothing in this Agreement constitutes a 
waiver by the United States of the right to prosecute me for any 
statutory violation.
    6. I understand that all Sensitive Information to which I have 
access or may obtain access by signing this Agreement is now and will 
remain the property of, or in the control of the FBI or DOJ unless 
otherwise determined by an authorized FBI or DOJ official or final 
ruling in a court of law. I agree that I shall return all Sensitive 
Information provided to me by the FBI or DOJ in written or any other 
tangible form which has come or may come into my possession, or for 
which I am responsible because of such access: (a) upon demand by an 
authorized representative of the FBI or the DOJ, or (b) upon the 
conclusion of my relationship with the FBI or the DOJ incidental to 
this Review, whichever occurs first.
    7. Unless and until I am released in writing by an authorized 
representative of the FBI or the DOJ, I understand that all conditions 
and obligations imposed upon me by this Agreement apply during the time 
I am granted access to the Sensitive Information and at all times 
thereafter.
    8. Each provision of this Agreement is severable. If a court should 
find any provision of this Agreement to be unenforceable, all other 
provisions of this Agreement shall remain in full force and effect.
    9. I understand that the United States Government may seek any 
remedy available to it to enforce this Agreement including, but not 
limited to, application for a court order prohibiting disclosure or use 
of Sensitive Information in breach of this Agreement. I hereby assign 
to the United States Government all royalties, remunerations, and 
emoluments that have resulted, will result, or may result from any 
disclosure, use, or retention of Sensitive Information not consistent 
with the terms of this Agreement.
    10. I have read this Agreement carefully and my questions, if any, 
have been answered.

Signature____________ Date____________
Organization (if contractor, provide name and address):
The briefing and execution of this Agreement was witnessed by

<greek-b> (type or print name)

Signature____________ Date ____________
                                 ______
                                 
Security Debriefing Acknowledgment
    I reaffirm that the provisions of the Federal criminal laws 
applicable to the safeguarding of Sensitive Information have been made 
available to me by the FBI or DOJ; that I have returned all Sensitive 
Information in my custody; that I will not use, disclose or retain 
myself Sensitive Information to any unauthorized person or 
organization; that I will promptly report to the FBI any attempt by an 
unauthorized person to solicit Sensitive Information; and that I have 
received a debriefing regarding the security of Sensitive Information.

Signature____________ Date ____________

Name of Witness (type or print)____________

Signature of Witness____________ Date ____________

                                <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
